<html>
<title> - ENVIRONMENTAL TOBACCO SMOKE</title>
<body><pre>[Senate Hearing 105-678]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 105-678

 
                      ENVIRONMENTAL TOBACCO SMOKE

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 1, 1998

                               __________

  Printed for the use of the Committee on Environment and Public Works

                               ----------


                      U.S. GOVERNMENT PRINTING OFFICE
49-522 cc                     WASHINGTON : 1998

_______________________________________________________________________
            For sale by the U.S. Government Printing Office
Superintendent of Documents, Congressional Sales Office, Washington DC 
                                 20402


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                 JOHN H. CHAFEE, Rhode Island, Chairman
JOHN W. WARNER, Virginia             MAX BAUCUS, Montana
ROBERT SMITH, New Hampshire          DANIEL PATRICK MOYNIHAN, New York
DIRK KEMPTHORNE, Idaho               FRANK R. LAUTENBERG, New Jersey
JAMES M. INHOFE, Oklahoma            HARRY REID, Nevada
CRAIG THOMAS, Wyoming                BOB GRAHAM, Florida
CHRISTOPHER S. BOND, Missouri        JOSEPH I. LIEBERMAN, Connecticut
TIM HUTCHINSON, Arkansas             BARBARA BOXER, California
WAYNE ALLARD, Colorado               RON WYDEN, Oregon
JEFF SESSIONS, Alabama
                     Jimmie Powell, Staff Director
               J. Thomas Sliter, Minority Staff Director

                                  (ii)

  




                            C O N T E N T S

                              ----------                              

                             APRIL 1, 1998

                                                                   Page

                           OPENING STATEMENTS

Chafee, Hon. John H., U.S. Senator from Rhode Island.............     1

                               WITNESSES

Browner, Hon. Carol. M., Administrator, Environmental Protection 
  Agency.........................................................     2
    Prepared statement...........................................    27
Connolly, Gregory N., Director, Massachusetts Tobacco Control 
  Program, Massachusetts Department of Public Health.............    14
    Prepared statement...........................................    33
Eriksen, Michael P., Director, Office of Smoking and Health, 
  National Center for Chronic Disease Prevention and Health 
  Promotion, Centers for Disease Control and Prevention..........    16
    Prepared statement...........................................    36
Lemons, Robert K., The Building Owners and Managers Association 
  International..................................................    22
    Article, You Bet I Mind, Business Week.......................    47
    Prepared statement...........................................    43
    Report, Cleaning Makes Cents, BOMA...........................    49
    Resolution, Banning Smoking in Workplaces, BOMA..............    48
Munzer, Dr. Alfred, M.D., Past President, American Lung 
  Association; Director, Critical Care and Pulmonary Medicine, 
  Washington Adventist Hospital..................................    20
    Prepared statement...........................................    38
Sternberg, Michael, on behalf of the National Restaurant 
  Association....................................................    23
    Prepared statement...........................................    52
Stovall, Carla J., Attorney General, State of Kansas.............    12
    Prepared statement...........................................    31

                         ADDITIONAL STATEMENTS

Letters:
    Carlson, Regina..............................................    55
    Ginzel, K.H..................................................    53
Statements:
    Ginzel, K.H., professor, University of Arkansas School of 
      Medicine...................................................    54
    New Jersey GASP (Group Against Smoking Pollution)............    56

                                 (iii)




                      ENVIRONMENTAL TOBACCO SMOKE

                              ----------                              


                        WEDNESDAY, APRIL 1, 1998

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 1:30 p.m., in 
room 406, Dirksen Senate Office Building, Hon. John H. Chafee 
(chairman of the committee) presiding.
    Present: Senators Chafee, Warner, and Baucus.

  OPENING STATEMENT OF HON. JOHN H. CHAFEE, U.S. SENATOR FROM 
                          RHODE ISLAND

    Senator Chafee. I want to welcome everyone here and to 
thank our witnesses for taking the time to be with us. Some 
have come a considerable distance and we appreciate that.
    The purpose of today's hearing is to examine the Federal 
role in reducing the exposure to environmental tobacco smoke, 
or ETS.
    The effects of environmental tobacco smoke on children less 
than 18 months of age are clearly staggering. These statistics 
I give you are EPA statistics. Up to 15,000 of these children 
18 months or younger are hospitalized each year with lower 
respiratory tract infections such as pneumonia and bronchitis. 
As many as half of the 5,000 cases of Sudden Infant Death 
Syndrome may be caused by environmental tobacco smoke.
    Researchers also estimate that ETS lowers the birth weight 
of up to 19,000 babies, and everyone knows, a baby born with 
low birth weight represents a tremendous risk health-wise, not 
only during the early months but for the child's lifetime 
possibly. ETS causes at least 250,000 middle ear infections and 
8,000 new cases of asthma in children each year.
    In adults, ETS causes 3,000 lung cancer deaths every year. 
It contributes to heart disease, breathing disorders and other 
forms of cancer, literally dozens of studies reaffirm each of 
these findings. ETS poses a difficult public policy issue.
    The ETS exposure of most concern is beyond the reach of the 
Federal Government. What are we talking about? Those most 
vulnerable to ETS are children and non-smoking adults who live 
with smokers. The parent is a smoker and the child suffers. The 
greatest single problem is smoking in the home.
    Workplace exposures are of concern, but only if an 
individual is exposed to significant concentrations of smoke 
during working hours. Bars and restaurants are among the 
smokiest workplaces and can result often in health problems. 
It's the employees, however, not the patrons, who are most at 
risk.
    What legislative approach would most appropriately address 
this problem? The proposed tobacco settlement of the Attorney 
General contemplates the regulation of every building in the 
Nation that has not banned smoking altogether and is entered by 
10 or more people on any day. Now, that's a very low threshold. 
In other words, the dry cleaner, the photographer's shop, the 
dress shop, every such shop that hasn't banned smoking 
altogether would be regulated under the Attorney General's 
proposal. Bars and restaurants would be exempted.
    Now, this approach would do little to reduce the exposures 
of real concern. As we mentioned before, it's children whose 
parents smoke that experience the real danger. It may be that 
the best action would be an aggressive advertising campaign 
about the dangers of ETS, especially to one's children. I 
believe that once they are armed with the facts, parents will 
take the steps necessary to protect their children.
    Workplace protections are needed, but not in every 
building. Changing attitudes about smoking, coupled with State 
and local smoking restrictions, have greatly reduced smoking in 
the work place. I believe it is inefficient to have Federal 
regulation of every building in the Nation to get at a problem 
that exists in only a few places.
    However, this isn't an easy problem to solve, and we look 
forward to hearing from the witnesses today. Our first witness, 
and we're delighted that she is here, the Administrator of the 
Environmental Protection Agency, an Administrator that we've 
had the pleasure of working with through many different pieces 
of legislation in this committee. We welcome you, Ms. Browner.

      STATEMENT OF HON. CAROL M. BROWNER, ADMINISTRATOR, 
                ENVIRONMENTAL PROTECTION AGENCY

    Ms. Browner. Thank you, Mr. Chairman. I am delighted to be 
here to testify on one of EPA's most vital issues, the serious 
health risks posed by second-hand tobacco smoke. I want to 
begin, Mr. Chairman, by saluting you for calling attention to 
this extremely important and preventable public health dilemma.
    I also want to applaud the leadership of your colleague, 
Senator Lautenberg, for the work he's done to prevent smoking 
in schools, and perhaps somewhat from a personal perspective, 
on domestic airlines. I think all of us who find ourselves on 
airlines each and every week know what a difference that has 
made.
    I don't want to mince any words. I want to be very clear 
about the risks of second-hand smoke. It causes cancer. EPA 
studies have shown that it may be responsible for approximately 
3,000 adult lung cancer deaths each year in non-smokers. Short 
and simple: people who choose not to smoke but are exposed to 
smokers suffer very real and in some instances, permanent 
health effects.
    But the fact that second-hand smoke causes cancer in 
otherwise healthy non-smoking adults is only part of our 
concern. Mr. Chairman, I think you, like I and many, many 
Americans, were outraged to learn about documents showing that 
major cigarette manufacturers had over many years actually 
targeted children in their marketing programs. Well, let me 
tell you about what tobacco smoke is doing to children who 
never even pick up a cigarette.
    Infants and young children who are exposed to second-hand 
smoke experience lower respiratory tract infections such as 
pneumonia and bronchitis, with as many as 300,000 cases 
occurring each year. Asthmatic children exposed to second-hand 
smoke can experience aggravated asthma attacks, resulting in 
nearly 2 million outpatient visits and 28,000 hospitalizations 
each year, according to a recent study in the Archives of 
Pediatrics, a journal of the American Medical Association.
    Children exposed to second-hand smoke are more likely to 
experience a buildup of fluid in the middle ear and infection 
of the middle ear. Often this will require an insertion of an 
ear tube, which is now the most common surgical procedure 
performed on children in the United States. According to the 
study I just mentioned, 3.4 million acute ear infections each 
year are attributable to exposure to second-hand smoke. The 
cost to treat those, not including the lost work days, not 
including the lost school days, simply getting to the doctor 
and getting a prescription for your children, is $44, for a 
total of $150 million per year.
    Finally, Mr. Chairman, a number of recent studies have 
provided strong evidence associating second-hand smoke with 
Sudden Infant Death Syndrome and the onset of asthma in young 
children.
    Now, where are most children exposed to second-hand smoke? 
Why does this problem occur? Very simply because too many 
children are growing up in a house where one or more adults are 
smoking, frequently their parents, but perhaps others. 
According to the Centers for Disease Control, in 1991, nearly a 
third of all children, one-third of all children, were exposed 
to second-hand smoke daily in their homes. As a group, these 
children missed 7 million more school days than children who 
were not exposed.
    Children exposed to second-hand smoke accounted for 10 
million more days bed confinement, 18 million more days of 
restricted activity than other kids. And as the Archives of 
Pediatrics study concluded, children's illnesses from second-
hand smoke are costing the country almost $4.6 billion every 
year.
    Now, Mr. Chairman, as you yourself noted, we have seen a 
rapid acceleration of measures to protect non-smokers in a 
variety of settings: workplaces, restaurants, sports 
facilities, shopping centers, Government buildings and other 
public facilities. And the result has been a substantial 
decrease in workplace exposures, although workers in the 
service industries and, in particular, the hospitality 
industry, experienced greater exposure than office workers.
    The National Cancer Institute estimates that as of several 
years ago, nearly half of all working Americans were in a 
smoke-free work place, and more than 80 percent were covered by 
some type of formal smoking policy. In contrast, only 3 percent 
of workers were covered by such polices as recently as 1986. So 
we are making progress in terms of the work place, but the job 
is not done. In terms of children, we have not seen this 
similar kind of progress. According to CDC, in 1996 
approximately 16 million children were still exposed to second-
hand smoke in homes.
    What this shows us with respect to adults is that with a 
concerted effort, we can reduce the risk of illness from 
second-hand smoke. The damage we are talking about is 
preventable. And we are determined to do everything in our 
power to further reduce exposure to second-hand smoke, 
particularly when it comes to our children. We believe that 
continuing to reach out, to educate adult smokers about the 
effects of second-hand smoke on children, is extremely 
important if we are going to protect our children.
    I think it is important to continue to work in communities, 
day care facilities, schools, restaurants, and other public 
places where children are often present, to help reduce the 
exposure, to help reduce the risk, to help reduce the health 
effects. We believe that we must build on the partnerships that 
we have already established at EPA, partnerships, for example, 
with the American Medical Association, and the Consumer 
Research Council, to raise public awareness about the dangers 
of second-hand smoke. We must continue to work with 
international partners, the G-8 countries, the World Health 
Organization, and others to share information and scientific 
findings.
    The bottom line is that we believe this issue is critical, 
especially to the health of our children. And we do believe 
that we can make a difference if we can provide the kind of 
information that parents can make the best use of, as we've 
done before on a number of issues. EPA has had extremely 
successful efforts on radon and you've seen the work done on 
seat belts, to educate people about what they must do to 
protect their own children. Then we can see tremendous progress 
in providing our children with a level of protection, 
preventing the illnesses that are occurring from exposure to 
second-hand smoke.
    This is an absolutely preventable illness that our children 
are experiencing.
    The Administration, Mr. Chairman, as you know, has called 
on Congress to pass strong comprehensive tobacco legislation. 
It has a number of sections to it, including, for example, 
provisions to reduce teen smoking. We also believe, and the 
President has said, that we must go even further in terms of 
our efforts to reduce exposure to second-hand smoke, that it is 
a large part of the problem, and it must also be a part of any 
legislation.
    We would look forward, Mr. Chairman, to working with you 
and others to secure appropriate legislation, legislation that 
will protect children, will accomplish the public health goals, 
will look at where the greatest risks are occurring, where the 
greatest exposures are taking place, not just the work place. 
We will look at where we can have the greatest success in terms 
of providing a level of public health protection.
    Mr. Chairman, that concludes my remarks, and I am more than 
happy to answer any questions. We do have a longer statement 
which we would like to insert in the record.
    Senator Chafee. Well, thank you very much. Yes, I would, 
because you had some statistics there that I think were not in 
your original statement that would be very helpful to us.
    I want to notify the other panels how we will proceed. What 
we're going to do is take them panel by panel. Ms. Browner 
constitutes the first panel. Then we will take up the second 
panel thereafter.
    Madam Administrator, let me ask you this. As I see this, 
this breaks down into two groups. First, and we're always 
dealing with second-hand smoke, as far as doing everything we 
can to get teenagers not to take up smoking and all that. 
That's a separate category from what we're dealing with.
    What we're dealing with here is, as I see it, two separate 
categories. First, children. And I suppose with children, we're 
talking 12 and under. That's the first group we're worrying 
about. The second group is adults, and the problems that come 
with them with second-hand smoke.
    Let's talk about the children at first. Where the children 
are being affected by second-hand smoke is in their homes.
    Ms. Browner. Yes.
    Senator Chafee. And as you pointed out, nearly in every 
instance, it's a parent, maybe an uncle or brother or something 
around, but that would be unusual.
    Now, we can't have smoke police coming into every house in 
America telling the parents what to do. So I agree with you, 
the solution is the best possible education campaign we can 
have. We've got to assume that when the parents know the facts, 
which you've dramatically given us here, that they will do 
what's best for their child.
    Now, as you pointed out we've made great strides with 
seatbelts and other public health measures, just think of the 
choice of different foods we're talking about now, and we're 
alerting the public to them, and low-fat diets and everything 
like that. All that's just been an educational process.
    Do you agree with me, now we're just dealing with the 
children, that that ought to be the approach we take, education 
of the parent?
    Ms. Browner. Absolutely. I think a large-scale effort to 
directly educate parents about what happens when they smoke 
around their children, what the very real health consequences 
are, is extremely important. I think working through 
organizations that see parents on a regular basis is important. 
For example, the American Nurses Association, American Academy 
of Pediatrics.
    There is a program now that many people have personally 
experienced where if you have a new child and you're leaving 
the hospital, they have to see that carseat. They ask to see 
the child in the carseat before you walk out the door, as a way 
to get parents to understand how important those carseats are.
    Well, a program that would work with people who see parents 
on a regular basis that would educate parents, about the very 
real and the very preventable health effects that their 
children are experiencing, I think would go a very long ways 
toward addressing this problem.
    Senator Chafee. As far as the low birth weight babies go, 
presumably that means getting the proper prenatal care and 
proper prenatal advice.
    Now let's switch over to the other group, which is the 
adults. I noticed, as I mentioned in my opening statement, the 
Attorney General has had a proposal that every building that's 
visited by more than eight people----
    Ms. Browner. I think it's 10.
    Senator Chafee [continuing]. Ten people on any day, must 
either ban smoking or have a smoke-free place. And you didn't 
touch on that. And that would be, I don't know who would 
enforce it. Give me your thoughts on that.
    Ms. Browner. I think the workplace exposures continues to 
be a problem. I think we would all agree that we have made 
progress. There are now, I think the estimates are 
approximately 80 percent of workplaces have some smoking policy 
in effect in terms of telling people not to smoke or limiting 
where they can smoke. But only about 50 percent of workplaces 
have effective smoke-free policies, under which smoking is 
either prohibited or restricted to properly ventilated smoking 
areas.
    But again, this is preventable. So I think we want to make 
sure that we have done literally everything we can to protect 
the individual in the workplace. I think that a combination of 
educational programs, State activities, and probably some 
Federal backstops, could get you what you need in terms of the 
workplace.
    In our experience of dealing with large issues, and this is 
certainly a large issue, what we find is there are always those 
who are willing to come to the table early on and address a 
problem. They're not the challenge. It's those who are bringing 
up the rear. That very well may be where we have the problem 
today, when you think about the workplace broadly. Obviously 
the hospitality industry is something we should probably talk 
about separately.
    But when you think about the more traditional workplace 
environment, whether it be an office building or something of 
that sort, we have made real progress. But we're not done. You 
still have people experiencing health effects because of an 
unwillingness, if you will, of the office manager, the building 
manager, to take what are some relatively simple steps. Many 
other places have taken them.
    How do we reach that group? It may require a little bit 
more than what we have previously done, if we're going to reach 
those who are bringing up the rear.
    Senator Chafee. Well, I must say, I'm quite reluctant, 
under the Attorney General's proposal, OSHA would enforce it, 
which is, you can heave a sigh of relief it's not EPA having to 
enforce it.
    Ms. Browner. We would agree that OSHA would be the 
appropriate party. They are in these places in a way that we're 
not.
    Senator Chafee. Of course, they exempt bars and 
restaurants, where I would suppose is the most dangerous place 
of all to be for a waitress or a waiter, particularly a bar. I 
must say, I'm very reluctant for the Federal Government to get 
into this business. Through education, yes.
    You noted that the States and local communities and 
building owners have really made tremendous strides. I know 
we're going to have a witness on the next panel, the Director 
of the Massachusetts Tobacco Control Program. I'll be 
interested in what he has to say on that.
    I share with you your ``go-slow'' approach for the Federal 
Government to enforce a non-smoking policy or a separate 
smoking room in every building in the United States with 10 or 
more people.
    Ms. Browner. I think if you look at the health risks, if 
you look at the challenges in terms of people and their 
exposure to second-hand smoke, you see the greatest problem in 
children, without a doubt. The fact that large numbers of 
parents continue to smoke around their children, they clearly 
don't understand what they are doing to their children--very 
real and costly health effects.
    Clearly, the hospitality industry, and there the concern is 
again with the worker. There are studies that suggest 
restaurant second-hand smoke exposure is twice as high as an 
office environment. People who are working in that sector are 
experiencing some very real exposures.
    In terms of other work environments, office buildings, 
etc., we have made progress as a country. I think what we're 
all looking at is how to complete that work. There is a 
category where it has simply not happened yet, and what is the 
best combination of tools to go ahead and pick up that 
remaining 20 percent of workplaces that do not have any formal 
smoking policy on the 50 percent that still allow some 
exposure. Something is happening that these workplaces have not 
developed effective smoking policies that would protect all of 
their workers, and particularly the workers who choose not to 
smoke.
    Senator Chafee. Senator Baucus, did you want to make an 
opening statement?
    Senator Baucus. No, thank you, Mr. Chairman.
    This is a difficult subject. We all know second-hand smoke 
is harmful. The question is, how harmful.
    What should the Government do about it. I must say, I share 
a lot of the chairman's concerns about how far to go in the 
public buildings. Also, I think it's true that the greater 
focus should be on children. I just don't know how you get 
parents who smoke to do the things they should do, smoke 
outside or not in the presence of children.
    Do you have any thoughts on how to get parents what they 
should be doing here?
    Ms. Browner. I touched on this briefly, but I think what is 
needed is a large scale public education effort. It's reaching 
out directly to parents through traditional media--radio, 
television, and print. We've had other programs of this nature 
that have been successful.
    I think it's also working with people, working through 
institutions and professionals with whom parents have frequent 
contact--for example, pediatricians and nurses. I gave the 
example of baby carseats. There are now programs at many 
hospitals, if not all hospitals, that the nurses run, in which 
when one leaves a hospital with a newborn baby, one carries the 
infant in the carseat. They make you strap that baby into the 
carseat correctly when you go out to your car.
    As someone who has experienced it personally, it's a very 
real experience. And you take it very, very seriously.
    A program that nurses look to, the health care providers, 
at the time of birth to remind people, not only do you need to 
put that kid in a carseat, not only do you need to put that 
baby to sleep on its back to help contend with the SIDS 
problem, you need not to smoke around that child. And if you do 
smoke around that child, you need to understand what you're 
putting them at risk for: middle ear infections, $44 per doctor 
visit and prescription to treat a middle ear infection; 
aggravated asthma.
    I don't think people know what it is they're doing to their 
children. I think there is this tendency among many to think, 
well, just hold the cigarette away, blow the smoke away. I 
think we have to educate people about what they're doing.
    Senator Baucus. Do we do anything here in the Congress 
about it? For example, I agree that when OB/GYNs counsel 
patients, that's an opportunity, and when pediatricians see 
children, that's an opportunity. There are lots of stepping 
stones along the way.
    But I would guess a lot of that is through the efforts of 
the medical profession or hospitals on their own.
    Ms. Browner. If you go back to the example of seatbelts, 
there was a Federal investment in ad campaigns, in public 
outreach to educate people about the benefits of seatbelts. I 
don't know the history of it perfectly, and I think probably 
many in the private sector joined in that over time and may 
today do the lion's share of it.
    But there certainly was a concerted effort on the part of 
the Government to make this kind of information available, and 
to show people the consequences, that I think was very 
successful. The other program that this committee has helped 
fund is our radon program, which is a public information 
program that has been very successful in getting people to test 
their homes and then take appropriate steps to reduce high 
radon levels.
    While there are opportunities to work with existing 
institutions, and we are doing that, we should perhaps also 
look at how the Government can best sort of kick-start the 
educational process and generally that does require an 
investment.
    Senator Baucus. That's right. In carseats, though, it's a 
direct, causal relationship, when you see accidents, which 
people can see and make the connection very quickly.
    When it comes to second-hand smoke, it's not quite as 
obvious to most people. They may have a feeling that, it's 
probably a bit of a problem, but when your kid's in a car 
accident, that's definite.
    So it seems like part of the solution is--as you have 
already today indicated what the problems are, ear infections 
and others--doctor bills to be paid.
    Ms. Browner. Missed work days.
    Senator Baucus. Missed work days and so forth. It's a real 
problem, I just don't if we know yet how to more effectively 
get at it.
    Ms. Browner. I agree. I think one of the problems is people 
just simply don't know. I'm sure if we went out and did a 
public survey, we would find out that the vast majority of 
people, whether they be smokers or non-smokers, don't know that 
smoking around a child, smoking in the home of a child, can 
result in SIDS, can result in ear infections, and aggravated 
asthma.
    Senator Baucus. Is there a tie between smoking and SIDS?
    Ms. Browner. Absolutely. There are studies that show a 
better than twofold increase in the risk of SIDS in households 
with one or more smokers. The health effects that have 
generally been looked at in terms of children include 
respiratory illness, bronchitis, pneumonia, and aggravated 
asthma, inner ear infections, and buildup of fluid in the inner 
ear, requiring insertion of an ear tube, which is now the 
single largest cause of childhood surgery in the United States. 
A percentage of those infections are directly related to 
exposure to second-hand smoke. And then, finally, SIDS.
    Senator Baucus. Thank you.
    Senator Chafee. Senator Warner.
    Senator Warner. Thank you, Mr. Chairman. I wish to 
associate myself with the remarks of the distinguished chairman 
and ranking member, and thank you for coming up. We're sitting 
here in the quietude of this room discussing a very serious 
problem, and one building over, there's literally a volcanic 
situation going on in the markup about tobacco. A nice contrast 
to sit here and reflect on it.
    I think I speak for the members of the committee to take 
the opportunity to say how much we admire the work you've done 
and the manner in which you've discharged the important duties 
of the cabinet office.
    Ms. Browner. Thank you.
    Senator Warner. We may not always agree with you. But 
you're fair and square.
    Ms. Browner. Thank you.
    Senator Warner. I'm trying to not call you a model cabinet 
officer. Someone called me a model Senator one time, and I was 
pretty flattered about it. Then I went home, my daughter was 
living with me, and she looked in the dictionary and said, 
Daddy, I don't understand this thing. Because the definition in 
the dictionary, a model is a drastically reduced version of the 
real thing.
    [Laughter.]
    Senator Warner. You probably won't be able to answer this 
question, but I'm quite interested in this question as it 
relates to bars and private clubs and the people who have to 
constantly work in there. Are you doing some research on the 
types of equipment that could be installed to help reduce the 
smoke levels? Could you provide for the committee what you've 
learned in this area?
    Ms. Browner. We have actually developed and made available 
recommendations on how to manage an area or part of an office 
building if you want to allow for smoking. It's really quite 
simple. It has to be separately ventilated, it has to be 
maintained under negative pressure, so that when you open and 
close the door, the smoke doesn't escape into other spaces. The 
air from smoking areas should be moved with a direct exhaust to 
the outside. Many buildings have chosen to do this. There is a 
way to do it.
    Senator Warner. So there you do have a model, so to speak, 
of what can be done, and that data is available, you 
disseminate it to the public?
    Ms. Browner. Yes, we make that available. In fact, some 
regional EPA buildings have these kinds of facilities. Some 
airports have them now.
    What that does, obviously, is decrease the risk to the 
worker, when they are outside of that area. Now, when they go 
into that area, in the case of a bar or restaurant, to serve 
the patrons, they do experience some exposure. But obviously it 
is less than what they experience if they are in an environment 
where there is no effort to isolate the smoke and to discharge 
it to the outside.
    Senator Warner. That's very interesting. Well, I commend 
you again. Since I scored with my first story, when I first 
came here, I joined the Armed Services Committee, 19 years ago. 
And to be on that committee, you had to smoke cigars. I 
remember the day going in there, you couldn't see the witness 
table for the smoke that was coming around in that room. We've 
come a long way here in the Congress, thanks to education.
    Ms. Browner. Yes, you have.
    Senator Warner. I don't know that I've contributed a lot, 
Mr. Chairman, but I commend you.
    Senator Chafee. Well, I certainly remember when a smoke-
filled room designated complete political activity. This is a 
little clipping from November 10, 1962. I was in a long count 
running for Governor for the first time, and was behind on the 
machines.
    But then there were a whole series of absentee and shut-in 
and servicemen's ballots that had to be counted. This is an 
elaborate process, every one meticulously reviewed, since I was 
only 38 votes behind, when the machines were finished, and we 
had 12,000 or 13,000 of these ballots out there, so every one 
counted.
    But they conducted the count in a very crowded, smoke-
filled room where the atmosphere was intense. And somebody made 
the mistake of opening the door to air out the place, whereupon 
there were screams of ``shut that door!'' They were used to 
operating in a smoke-filled room and they didn't want anything 
changed.
    [Laughter.]
    Senator Warner. There's a little story in the Senate, in 
the late 1800's, so much smokeless tobacco was used, that they 
would periodically fall over the spittoons. There came a time 
when the rug got so sticky, it began to take the shoes off a 
Member. They finally began to curtail it.
    [Laughter.]
    Senator Warner. You leave with a lot of erudition from this 
hearing.
    Ms. Browner. I do, thank you.
    Senator Chafee. Senator Baucus.
    Senator Baucus. Mr. Chairman, since we're straining here a 
little bit----
    [Laughter.]
    Senator Baucus. A question just came across my mind. The 
question is airlines, quality of air in airlines. It's been my 
feeling, I'm not going to get into this deeply, that before 
smoking was banned on flights, that airlines really didn't 
clean the air out as much as they really could. I'm told the 
reason why is because it just cost money and fuel.
    Now that airlines do ban smoking on most flights, airlines 
have cut back even further on air circulation. I was wondering, 
the air circulation is much better in the cockpit than it is in 
the cabin. I wonder if you could tell us what you know about 
the quality of air in airline cabins.
    Ms. Browner. I can speak from personal experience. I have 
also asked, not perhaps in an EPA professional manner, why it 
is there seems to be less and less air circulating. I've been 
given the same answer, which is the concern for fuel economy, 
and that they can save fuel if they don't bring as much fresh 
air into the cabin.
    Cabin air quality has become an issue of concern to many 
people and to DOT. The FAA is now working on a cabin air 
quality study in conjunction with the National Institute for 
Occupational Safety and Health. I think many people have a 
similar experience, which is there just seems to be less and 
less fresh air.
    Senator Baucus. I'll be interested to see that study.
    Senator Chafee. Madam Administrator, we thank you very 
much. I just want to briefly see if I can summarize your 
position. First, as far as the parents go and the danger to 
children which we totally agree on, you believe we should have 
a vigorous education process so that parents will understand 
the dangers they cause by smoking around their children, or 
just smoking in the house where the children are. That's the 
first, we're agreed on that, right?
    Ms. Browner. Yes.
    Senator Chafee. Second, on the next point, you are not 
embracing the Attorney General's proposal that there be a 
requirement that every building in the United States that's 
entered by 10 or more people any day of the week must either 
ban smoking or build a separate smoking room, with restaurants 
or bars exempt. You would not endorse that, again you would 
endorse the educational process and the continued encouragement 
of the actions that are taking place on the municipalities, the 
States, and so forth. Is that a fair summary of your position?
    Ms. Browner. Let me say it perhaps a little bit 
differently. In terms of the settlement, I think that the 
settlement falls short in addressing risks to children, that 
that's a real problem with the settlement that needs to be 
corrected in legislation. I think that it is extremely 
important that we build on the success we have made in the 
workplace, and that it may require some sort of Federal 
backstop, partnered with some incentives and work with the 
States to address the remaining workplace exposure that is 
occurring.
    I think with respect to the hospitality industry----
    Senator Chafee. Well, let me just finish, before we get 
into restaurants and bars, some backstop, I've made it very 
clear and I think Senator Baucus indicated he agrees, there is 
a great reluctance for the Federal Government to try and go out 
and enforce these. I think if a backstop includes some 
financial aid, possibly, to the local communities, the State, 
the municipality, in enforcing these, that I would not find 
highly objectionable.
    But do you agree, do you have the same reluctance I have, 
of the Federal Government, through OSHA or EPA or whoever it 
is, trying to make this a national enforcement?
    Ms. Browner. Senator Chafee, the concern I have is some 
States have been really out front in working to ensure 
protections in the workplace and others have done nothing. What 
happens 5, 6, 7 years down the road when we still have a 
handful of States where literally no workplace protections have 
been put in place? What is the provision that allows those 
people in those States to be provided a level of protection?
    That's my real concern here. I think you are going to need, 
if history is any guide, we will need some sort of Federal 
backstop, some ability, and there are many mechanisms existing 
in law today, for the Federal Government to ensure that workers 
and the public in every State are afforded protections from 
involuntary exposure to second-hand smoke.
    Senator Chafee. OK.
    Senator Baucus. So you agree with the proposed settlement 
provisions?
    Ms. Browner. I don't think that those are the only way you 
can provide the level of protection. Again, I think the 
settlement is short on some of those.
    Senator Baucus. How much farther would you go?
    Ms. Browner. I think you could have provisions, for 
example, that required States to put in place programs to 
enforce those provisions by a date certain. Lots of lead-in 
time, but failure to do so within a designated timeframe would 
have a repercussion. What that repercussion is, there are any 
number of models available in the law today.
    I want to be clear about this, I do think we're making real 
progress. But I think, as I said earlier, there are those who 
are just not coming along. That's always the most difficult 
challenge, how do you speak to the people bringing up the rear, 
the people who, despite all of the evidence, despite what many 
states and many thousands of workplaces have already done, just 
refuse to do it? Why should someone who has to work in that 
environment be denied a level of protection?
    The Federal Government should ensure a backstop, a floor, 
so that everyone is ultimately protected in the workplace.
    Senator Baucus. Thank you.
    Senator Chafee. Thank you very much, Madam Administrator. 
We appreciate your being here.
    The next panel consists of the Honorable Carla J. Stovall, 
the attorney general of Kansas; Dr. Greg Connolly, director of 
the Massachusetts Tobacco Program; and Dr. Michael Eriksen, 
director of Office of Smoking and Health, National Center for 
Chronic Disease Prevention, Centers for Disease Control, 
Atlanta.
    We're glad you're all here, and I would ask Attorney 
General Stovall if you would be good enough to proceed. 
Everybody will be allowed 5 minutes, the green means proceed, 
the yellow means please try to wind up.

   STATEMENT OF CARLA J. STOVALL, ATTORNEY GENERAL, STATE OF 
                             KANSAS

    Ms. Stovall. Thank you very much, Mr. Chairman, for the 
opportunity to be here. I have a few remarks that I would like 
to make orally and would ask for the entire written testimony 
to be submitted as a matter of record.
    Senator Chafee. That will be fine.
    Ms. Stovall. As you know, the June 20 agreement of the 
Attorneys General dealt with many, many issues. This is one, 
the environmental tobacco smoke, that tends to be overlooked, I 
think probably because it doesn't bring with it the controversy 
that so many of the other issues do. But we are very 
appreciative that your committee would take the time to hold 
hearings on this very important topic and to consider the 
deadly consequences of smoking.
    The dangers of smoking and the health consequences you 
heard from Administrator Browner, I know you will hear it from 
the doctors on this panel and others who are more capable of 
talking about that than myself. Suffice it to say, I think we 
all understand there are tremendous health consequences to 
second-hand smoke and environmental smoke.
    So let me address the agreement, if I can. We all 
understand that there is significant exposure at home to 
children from parents who smoke. We certainly applaud the 
language that you have put together with your co-sponsors that 
tries to get at the education of parents, so that they don't 
smoke in homes and expose their children to that.
    I wish that there were home police, frankly, that would 
patrol that. Because my sister, who is a last semester nursing 
student, smokes in her home with my 12-year-old nephew, my 7-
year-old nephew and my 6-year-old niece. She is someone who is 
educated, who understands and yet doesn't stop and neither does 
her husband.
    Nonetheless, I think it's something that the educational 
effort suggested by your legislation will be able to help with.
    The proposal, though, as far as the Attorneys General 
standpoint, was limited to businesses, and the idea that 80 
percent of non-smokers' exposure----
    Senator Chafee. I tell you what, just so we can save time 
when the others come up to speak, all the others, if we all 
agree on the approach toward parents not smoking being the 
educational process, if somebody differs from that, then 
obviously, go into it. If we're all in agreement on that, I 
wouldn't spend too much time. You haven't spent too much time, 
but I think it's an issue. And your sister's a naughty girl to 
smoke around those children.
    Ms. Stovall. Yes, she is, and I'm glad that's part of the 
congressional record.
    Senator Chafee. We'll send her a copy.
    Ms. Stovall. You may be more successful than I am.
    But the Attorneys General, in dealing with the agreement, 
have focused on the workplace and the environmental smoke 
there. Approximately 80 percent of non-smokers' exposure to 
environmental tobacco smoke comes in the workplace. So that's 
what we have focused on.
    Let me talk about the agreement in particular. There are 
strong proposals, strong requirements to minimize that exposure 
to environmental tobacco smoke. The proposal would say that we 
restrict indoor smoking in public facilities with the 
population that you mentioned earlier, it would require 
exhausting the air directly outside, maintaining negative 
pressure, not recirculating the air inside. We don't want any 
employees to be required to work in a smoking area.
    The restaurants, bars, private clubs, etc., are exempted, 
with the exception of fast food, because those tend to be 
places that children frequent. We leave it in our language for 
OSHA to actually describe what a fast food restaurant is. 
Suffice it to say that it's the McDonalds of the world, where 
there are Happy Meals, children's playgrounds and the like.
    In making those provisions in the agreement, keep in mind 
if you would that we were crafting a settlement. We had the 
tobacco companies at the table and the Attorneys General with 
very different goals and motivations. But we did craft a 
settlement.
    I think the exceptions we made for restaurants, bars, etc., 
are those that tend to be the most controversial. If there is 
any support for maintaining smoking in certain places, it would 
probably be in those particular facilities.
    The public health advocates were at the table, and while 
that community is not unanimous in all of its provisions, they 
nonetheless supported this, as did the tobacco companies. The 
provisions themselves were taken from Congressman Waxman's 1994 
bill.
    There are provisions in Senator McCain's bill, which is 
being debated as we speak in another committee, that would 
allow States to opt out of this particular provision. They 
could say they don't want this to apply to their States. That 
is a provision Senator McCain put in; it was not part of our 
agreement. Our agreement said that there was no preemption, and 
that States or localities could do much more than what was in 
the agreement.
    OSHA has a regulation that would attempt to deal with this. 
But as you know, they have had hearings for 6 months. Those 
hearings ended more than 2 years ago. We are told that it will 
be at least another 4 years before final regulation is really 
on the horizon. In that length of time, another 212,000 people 
in America will die from second-hand smoke, 80 percent of those 
coming from the workplace.
    There is nothing revolutionary about what we've proposed: 
45 States have indicated they want some restrictions, and have 
taken those restrictions. Public support seems to be 
overwhelming for restricting smoking in the workplace.
    Mr. Chairman, I appreciate the opportunity to be here on 
behalf of the Attorneys General and to talk about the 
importance of restricting environmental tobacco smoke.
    Senator Chafee. All right, I'll have some questions.
    Dr. Connolly.

   STATEMENT OF GREGORY N. CONNOLLY, DIRECTOR, MASSACHUSETTS 
  TOBACCO CONTROL PROGRAM, MASSACHUSETTS DEPARTMENT OF PUBLIC 
                             HEALTH

    Dr. Connolly. Thank you very much, Mr. Chairman. I want to 
note that my wife is from Rhode Island, she's from a very, 
large family. I think there's enough in the family to give you 
38 more votes if you ever go for re-election.
    Senator Chafee. You're doing very well.
    [Laughter.]
    Dr. Connolly. Massachusetts is fortunate to have a large 
tobacco control campaign which is funded by a ballot 
initiative, where we allocate approximately $30 million a year 
to curb smoking in our State.
    Senator Chafee. Does that money come from an earmarked fund 
in any fashion, or just appropriations?
    Dr. Connolly. It was a ballot question before the voters in 
1992, and through the ballot question, they dedicated 
approximately $30 million to the tax. It is subject to 
appropriation by the legislature, but the legislature has 
followed the will of the voters.
    Senator Chafee. Does it come from the tobacco tax?
    Dr. Connolly. Yes.
    We commit about half the money to prevent youth smoking and 
about 25 percent to help adults quit, and about 25 percent to 
curb second-hand smoke. We spend more in Massachusetts than the 
Federal Government currently spends on tobacco prevention 
nationally. That's not our problem, it's the Federal 
Government's problem.
    By going after environmental tobacco smoke, we protect the 
health of the non-smoker from diseases associated with second-
hand smoke, but we also de-normalize the behavior of smoking, 
of lighting up dried vegetable matter in enclosed spaces. It 
motivates the adult smoker to quit.
    Of our money, we commit about $13 million to paid, hard-
hitting, counter-advertising. We believe that's essential, to 
get a message out on the airwaves to counter all the messages 
that promote smoking.
    We also commit another $5 million to local communities. We 
fund the communities to pass ordinances to curb second-hand 
smoke in restaurants, private work sites, municipal buildings, 
as well as enforcement. Any settlement that comes down should 
commit dollars to States and the local level for education and 
for enforcement at the local level.
    The acronym I use, Senator, is KILLS, ``Keep It Local and 
Loud, Stupid,'' if you want to affect social behavior. Get it 
down to the community level, that's where you affect the social 
behavior.
    It has worked. Since we launched our campaign, we've seen 
smoke-free work sites rise approximately 70 percent. Even in 
the home----
    Senator Chafee. Dr. Connolly, I've got a problem here. 
There's a vote on now, a back to back vote, I've cut it so 
close that when they go in to the next vote I'll be right 
there.
    So I've got to hold you right now, I'll go right over and 
make these two votes and come right back. If everybody could 
just relax a minute, I'll be back.
    [Recess.]
    Senator Chafee. I apologize, last there's nothing I can do 
about it.
    So let's proceed, Dr. Connolly, right from where you were. 
Your testimony is very interesting.
    Dr. Connolly. I just want to state, Senator, that we took 
this tax money, dedicated tax money, we allocated large amounts 
of dollars for paid advertising, gave local communities funds 
to pass and enforce local ordinances. We have been highly 
successful. Boston has eliminated smoking in restaurants, we 
have seen about 80 percent of municipal buildings go smoke-
free.
    And through the advertising campaign, 60 percent private 
homes with at least one smoker have stopped smoking on a 
voluntary basis.
    And by restricting smoking, we've helped adult smokers to 
quit. One-third fewer cigarettes are sold in Massachusetts 
today than were sold 3 years ago. A lot of that is helping them 
to quit directly, a lot of it is price. But it's also just de-
normalizing the behavior overall. Adult prevalence in 
Massachusetts has fallen from 23 percent to about 20 percent 
today. Among young people----
    Senator Chafee. What was that statistic, pertaining to 
what?
    Dr. Connolly. Adult smokers, the prevalence rate, that is, 
the number, the percent smoking, fell from 23 to about 20 
percent today. So we've seen 100,000 fewer smokers. And I think 
it was driven in large measure by getting them knowledge about 
the dangers of ETS.
    So it does work. If the Senate does enact legislation this 
year, I would urge that money be dedicated to paid counter-
advertising about the dangers of second-hand smoke, and also to 
fund local communities to enforce it. If I could just show you 
a few ads that you can actually see in Providence, RI tonight, 
via a Massachusetts television station.
    Could I have those ads shown? These are what we call good 
cop-bad cop ads. Some ads are very tough on ETS. They get the 
smoker mad, but we try to show some good cop-outs.
    [Video presentation.]
    Dr. Connolly. The ad basically said, every day, 3,000 kids 
get sick from second-hand smoke, but the tobacco industry does 
not want us to hear it. We didn't blame the smoker, we blamed 
the tobacco industry. So we didn't make the smoker feel upset 
or bad.
    [Video presentation.]
    Dr. Connolly. That's our good cop ad.
    [Video presentation.]
    Dr. Connolly. Those are our ads. The good cop-bad cop. We 
don't try to blame the smoker. We try to provide support, to 
give the smoker an appropriate vision. And they've worked. 
People in the State believe second-hand smoke is harmful. We've 
seen Logan Airport go smoke-free, Boston restaurants, all State 
buildings, all schools, even Fenway Park and Foxboro Stadium, 
which we hope will stay in Massachusetts, are smoke-free today.
    Thank you, Mr. Chairman.
    Senator Chafee. Well, thank you very much, Dr. Connolly.
    And now, Dr. Eriksen.

 STATEMENT OF MICHAEL P. ERIKSEN, DIRECTOR, OFFICE OF SMOKING 
AND HEALTH, NATIONAL CENTER FOR CHRONIC DISEASE PREVENTION AND 
  HEALTH PROMOTION, CENTERS FOR DISEASE CONTROL AND PREVENTION

    Dr. Eriksen. Thank you, Senator. I will be brief, and only 
comment on things you haven't heard yet today.
    Administrator Browner addressed the health effects well. 
But let me say some things that haven't yet been said. In 1996, 
CDC published a study that showed that over 85 percent of the 
U.S. population had detectable levels of serum cotinine in 
their blood. Cotinine is a biological marker for exposure to 
second-hand smoke.
    So 85 percent of Americans were exposed, yet only 40 
percent knew that they had been in a workplace or had exposures 
that were recordable. So there is a larger level of exposure 
that is detectable than is reported.
    Second, we did another study that looked at the number of 
kids who are exposed in their homes. And we found that it 
ranged from a low of 12 percent in Utah to a high of 35 percent 
in Kentucky. Mr. Chairman, in your State, we estimated that 24 
percent of the kids in Rhode Island are exposed to second-hand 
smoke in the home, or over 50,000 young people.
    We recently participated in a study that was published a 
few months ago that looked at smoking in the workplace. As was 
previously said, the majority of workplaces have policies. But 
we found a lot of differential in terms of what types of 
companies have them with the blue collar and service industry 
least likely to have a policy restricting smoking.
    We found that the occupational group least likely to have a 
smoke-free policy were food service workers, such as waiters 
and waitresses, cooks, and bartenders. Of these 5.5 million 
food service workers, 22 percent are teenagers. So we're not 
only dealing with occupational exposure, but also a teen issue.
    There are a number of things the Federal Government can do, 
related to your comments earlier and questions, to reduce 
second-hand smoke exposure. They fit well into a broader 
framework of preventing tobacco use. And media and education is 
really at the top of the list.
    We have produced some spots in the past on environmental 
tobacco smoke, exposure in the home and restaurants and 
workplaces similar to what Dr. Connolly showed you. The problem 
is, at a Federal level, we don't have the dollars to pay for 
the placement of these ads. We have to rely on public service 
announcements and networks placing these ads.
    One ad we had of kid exposure, a child around his father 
smoking, the ad won an award competing against all other ads. 
The problem is, it was never really shown because we didn't 
have the money to place it. So one of the issues clearly is 
funding counter-advertising campaigns, whether it's for ETS or 
other areas around tobacco.
    The issue of SIDS was brought up earlier. The data are 
really sound on tobacco smoke increasing the risk of SIDS, both 
from maternal smoking while pregnant, it doubles the risk, then 
if the mother continues to smoke after birth, it triples the 
risk. So the risk of SIDS is affected both by maternal smoking 
and ETS exposure.
    We've also published work looking at casino workers. This 
came out in 1996, where we looked at a Bally casino in Atlantic 
City. We looked at the level of cotinine exposure among the 
workers in the gaming area. We found they had 50 percent higher 
levels of exposure to ETS than comparable workers that were not 
in the casino.
    So there is good evidence that the hospitality industry has 
levels of exposure that are significant, actually higher than 
general workers.
    Last, let me just comment that again, in terms of Federal 
effort, I think the real key issue is that whatever you do in 
Congress, that it should serve as a floor rather than a 
ceiling. We really need to endeavor not to preempt stronger 
State and local action. I think Massachusetts is a perfect 
example of that.
    In conclusion, please remember that the harm caused by 
passive smoke is inflicted on those who have decided not to 
smoke, or in the case of young children, those who cannot make 
an informed decision. Even one preventable death among 
Americans who have decided not to smoke should be considered 
unacceptable.
    Thank you, Senator.
    Senator Chafee. What age does a child's risk grow to be no 
more than that of an adult? In other words, we know that in 
young children, it's extremely dangerous. At what age are they 
no more at risk than an adult from second-hand smoke? Roughly. 
I'm just curious.
    Dr. Eriksen. I would assume that the increased risk with 
kids is because of the developmental nature of their lungs. 
When a kid gets into adolescence, it's probably less of a 
factor than it was earlier in life. But then they start to get 
introduced to the issue of smoking themselves.
    Senator Chafee. But what age would you say? Would you say 
once a child reaches 15, they are probably at no greater risk 
than an adult? I don't know whether that's accurate or not.
    Dr. Connolly. For respiratory distress syndrome, or 
respiratory diseases, zero to two is the high risk group, that 
is for hospitalization from pneumonia or bronchitis. I think 
for asthma, if a child has asthma, it's going to be equal risk 
for asthmatic attack.
    Dr. Jeneric's work out of Yale, I think, found a very 
disturbing finding, and that is, children who grew up in a home 
with adult smokers, showed a risk for lung cancer later in 
life. Somehow those lungs were affected and the risk for lung 
cancer from second-hand smoke persisted.
    Senator Chafee. I'm going to ask one question and ask each 
of you to answer it, and rather briefly.
    As you know, you've been sitting here right from when we 
started, and I have grave concerns as to what the Federal 
Government can do, more than provide money, possibly, to help 
the local effort, to do the advertising, to try the persuasive, 
educational approach. What else would you suggest we do, taking 
into consideration, for example, the suggestion, as the 
Attorneys General had, that OSHA have this enforcement in every 
building in the United States where either it would be smoke-
free, or when it's visited by 10 or more people in any 1 day, 
must ban smoking?
    What do you think we ought to do?
    Dr. Connolly. I would like to see Federal resources given 
to States and communities to enforce local laws prohibiting 
second-hand smoke. I think it's best dealt with at the 
community or State level. I think the Federal Government could 
adopt minimum standards, but then allow the States to go 
further.
    I think at the same time----
    Senator Chafee. But when you say adopt minimal standards, 
give me an example of what you might mean by that. If the State 
says, oh, great, the Federal Government has adopted these 
standards, let them enforce them. Let's say we adopt minimum 
standards, let's say, no smoking in every building that's 
visited by more than 10 people a day has to have a smoke-free 
room? Would that be an example?
    Dr. Connolly. That would be a minimal standard, but I think 
it's best enforced at the local level. We have adopted a policy 
of having the local community effect the social norms by 
passing laws and enforcing laws against second-hand smoke. And 
it's worked. That would be my response.
    Senator Chafee. Doctor.
    Dr. Eriksen. I would agree. I think that the minimum 
standard as described in the Attorneys' General bill and some 
of the legislation is an appropriate role for the Federal 
Government. We feel, in addition to that standard, that 
hospitality workers should not be exempted, just from an 
epidemiologic standard, that their risk is higher. We can't, 
from a public health standpoint, exempt them.
    Senator Chafee. The Attorneys General exempted bars and 
restaurants. You wouldn't do that?
    Dr. Eriksen. Right. What we're thinking is it should be 
phased in. It should be not the same timeframe, but it should 
be phased in over time.
    But going with what Dr. Connolly said, and what you 
suggested yourself, is that this needs to be supported by money 
for educational campaigns and the enforcement should be done 
locally. The community should be in control.
    The other thing to remember is not to preempt States from 
taking steps.
    Senator Chafee. I think we all agree. In other words, if a 
State wants to get tougher, that's its business.
    General what do you say?
    Ms. Stovall. Absolutely no preemption. Money to help 
enforce is really critical, and that's what we envision coming 
out of the settlement, so that States and local units of 
government can do enforcement, but to have the Feds set the 
minimum level of what's acceptable.
    Senator Chafee. The problem of the minimum level that's 
acceptable, you get into so-called unfunded mandate. Let's say 
we should pass a law here. Every building, every State must, 
the minimum standard is every building in every State that is 
visited by 10 or more people any day of the week must either 
ban smoking or have a separate smoking room. So we do that.
    And Montana says, well, so what. Go ahead and enforce it if 
you want to do that. What would you suggest we do, we, the 
Federal Government? We set a standard like that, then what?
    Ms. Stovall. And if Montana officials refuse to enforce it, 
then it would be up to officials with OSHA to enforce it. Most 
States, many States are very eager and want to be sure and 
protect the rights of States to enforce any of these measures 
and didn't want to give it up to the Feds. So I don't know 
necessarily that it's a problem.
    Senator Chafee. I suppose that if we have an inducement in 
there, a carrot rather than a stick, if we say that any State 
that enacts legislation to do this, we will provide them X 
dollars, or X times, X dollars per person in the State, 
California obviously getting more than Rhode Island.
    Well, OK, now what about bars and restaurants? What would 
you say to that? Each of you, quickly, what would you say? Your 
provision exempted them.
    Ms. Stovall. It did, just as a matter, because it was a 
settlement and we had to have something that's rational. If you 
look at what's happened across the country, only two States 
have totally banned smoking in restaurants and those kinds of 
facilities. Twenty-nine have restricted, pursuant to terms like 
what's in the agreement.
    So from a reasonable standpoint, our agreement still has 
that provision in it. We're not wedded to that. Anything that 
the Feds make stronger or harsher is something that most of us 
go along with, Senator.
    Senator Chafee. Doctor.
    Dr. Eriksen. Because of the higher exposure in these 
workers, I think we need to address it, but I think we can do 
it creatively. Either in terms of a phased-in approach, or 
providing incentives to States to deal with this when they're 
ready to, clearly making it in their interest to protect their 
hospitality employees. So I think we need to address it, but we 
should look at it creatively.
    Dr. Connolly. The highest rate of lung cancer by occupation 
in Massachusetts is among bar and restaurant workers. Fifty 
percent greater than the general population, or attributable to 
behavior. They have to be protected.
    I would argue we do a phase-in. In Massachusetts, we have 
bans now covering about 40 percent of our population. When we 
look at the bans, and their impact on economic business, where 
there was a ban, we saw more business in the restaurant where 
there was no ban.
    I would also support a phased-in approach, first doing 
restaurants only and possibly phase in bars in the future.
    Senator Chafee. Well, thank you all very much. It is 
impressive what each of you have accomplished. We appreciate 
having you.
    Dr. Eriksen. Senator, just one quick comment. One of the 
issues I think is important that we haven't addressed, and it's 
in my written testimony, but when the tobacco industry settled 
with the flight attendants, they agreed to support Federal 
legislation that would ban smoking on all flights, 
internationally, that either landed, took off or stopped in the 
United States. But no such legislation has been forthcoming.
    So I encourage you to consider as you go forward to put 
this provision that the tobacco industry said they would 
support if there was Federal legislation, so we could expand 
the domestic ban on flights, all international flights, by 
Federal statute. Take them up on their offer, it would be a 
great help.
    Senator Chafee. That's a constructive thought.
    All right, fine, thank you all very, very much.
    Dr. Munzer, past president, American Lung Association; Mr. 
Lemons, president, Building Owners Managers Association of 
Boston; and Michael Sternberg, on behalf of the National 
Restaurant Association. If you gentlemen will come, we'll move 
right along here. We'll start with Dr. Munzer.

STATEMENT OF DR. ALFRED MUNZER, M.D., PAST PRESIDENT, AMERICAN 
    LUNG ASSOCIATION; DIRECTOR, CRITICAL CARE AND PULMONARY 
            MEDICINE, WASHINGTON ADVENTIST HOSPITAL

    Dr. Munzer. Mr. Chairman, I'm Dr. Alfred Munzer, Past 
President of the American Lung Association, and Director of 
Pulmonary Medicine at Washington Adventist Hospital in Takoma 
Park, Maryland.
    As a pulmonary physician, I see the devastation caused by 
tobacco on a daily basis. I see men and women with end-stage 
lung cancer and emphysema, seeking a medical miracle to bring 
about a cure for their disease. But I also see children who 
cough and wheeze, as their asthma is made worse by exposure to 
environmental tobacco smoke, or involuntary smoking.
    Mr. Chairman, involuntary exposure to tobacco smoke is a 
public health threat, and all workers, including those in the 
hospitality industry, and all members of the general public, 
must be protected. State and local governments must retain the 
right to enact even stronger tobacco control legislation.
    The American Lung Association has consistently opposed the 
sweetheart deal negotiated by the Attorneys General with the 
tobacco industry last June. We will oppose any legislation that 
grants special protections, such as immunity or caps on 
liability, to the industry.
    But today, I want to make three points I hope the committee 
will consider in legislation. First, public health requires 
that environmental tobacco smoke be addressed. Environmental 
tobacco smoke is a Group A carcinogen, like asbestos, benzene, 
and radon. It is responsible for 3,000 lung cancer deaths every 
year, and it increases the risk of deep chest infections like 
bronchitis and pneumonia, not just in children, but also in 
adults.
    It also not only causes exacerbations of asthma in 
children, but also is one of the few clearly identified 
causative factors for the development of asthma in children. It 
probably causes between 8,000 and 26,000 new cases of asthma 
every year in children.
    You've also heard about the danger of environmental smoke 
as a risk factor in Sudden Infant Death Syndrome. Clearly, 
environmental tobacco smoke represents an overwhelming public 
health threat. The data against environmental tobacco smoke has 
been developed on a sound, scientific basis that more than 
adequately supports the conclusions of the Environmental 
Protection Agency about the dangers of environmental tobacco 
smoke.
    In contrast to assertions made by the tobacco industry, the 
diverse methodology used in the variety of studies that are 
available only increases the validity of this research. But 
once again, the scientific basis for the elimination of the ETS 
threat has come under attack. An as yet unpublished study of 
environmental tobacco smoke conducted by the International 
Agency for Research on Cancer is being touted as showing no 
risk. The World Health Organization has been accused of 
suppressing this study. That assertion is false.
    The organization has issued a statement which states that 
the study in fact did show an increase of 16 percent in the 
risk of lung cancer for non-smoking spouses of smokers, and a 
17 percent increase for exposure to passive smoke at the 
workplace. This study was conducted in 12 centers in seven 
European countries, including 660 cases of lung cancer, and 
1,542 controls.
    Because this was still a small sample and because smoking 
is so prevalent in Europe, the study did not reach statistical 
significance. But the conclusion is very clear, it is 
consistent with all the other studies that have shown that 
passive smoking does cause lung cancer.
    The second point I would like to stress is that everyone 
should be protected from environmental tobacco smoke. That 
includes workers in the hospitality industry, as I indicated 
before. The American Lung Association urges you to look at the 
report of the Koop-Kessler Commission for guidance in setting 
policy on environmental tobacco smoke and on development of a 
national tobacco control policy.
    The third point that I'd like to make is that there should 
be no preemption in any piece of Federal legislation on tobacco 
smoke in relation to environmental tobacco smoke. States and 
localities have shown tremendous creativity in addressing the 
problem of environmental tobacco smoke, and they should be 
allowed to continue to do so.
    Finally, and perhaps most importantly, a smoke-free 
environment reinforces the message we all want to send our kids 
not to start smoking and to quit before it's too late. Thank 
you.
    Senator Chafee. Thank you very much, Doctor.
    And now Mr. Lemons.

STATEMENT OF ROBERT K. LEMONS, THE BUILDING OWNERS AND MANAGERS 
                   ASSOCIATION INTERNATIONAL

    Mr. Lemons. Good afternoon, Mr. Chairman.
    My name is Robert Lemons and I'm president of the Building 
Owners and Managers Association of Boston. This association is 
also known as BOMA. I'm also a senior vice president and 
principal of Spaulding and Slye, which is a comprehensive real 
estate services firm.
    Today I am here representing our national association, BOMA 
International, which is North America's largest and oldest 
trade association exclusively representing the office building 
industry.
    Our 16,000 members own or manage over 6 billion square feet 
of commercial property.
    Thank you for the opportunity to testify here today, and we 
commend you for your leadership in addressing this important 
issue of smoking indoors.
    BOMA has a strong concern about second-hand smoke in 
buildings. Most Americans spend the majority of their day 
indoors, and building owners and managers have a responsibility 
to their tenants to provide a healthy indoor environment.
    The health risks posed by second-hand smoke are beyond 
dispute. Since 1993, it has been classified as a Group A 
carcinogen by the EPA, which concluded that second-hand smoke 
causes as many as 3,000 deaths from lung cancer each year.
    Clearly, steps are needed to protect office building 
tenants, their employees, guests are clients who may be exposed 
to this known carcinogen. BOMA International believes that the 
most effective course of action is to prevent the contaminants 
from being introduced into the workplace in the first place. 
Second-hand smoke is a leading contributor to indoor air 
pollution, and a ban on smoking in the workplace would 
significantly improve the quality of air that we breathe.
    Title IV of the proposed tobacco industry settlement offers 
a responsible means for achieving this goal, and it reflects 
the same approaches taken in the Smoke-Free Environment Act 
legislation introduced by Senator Frank Lautenberg. BOMA 
International has strongly supported the Smoke-Free Environment 
Act since it was first introduced in the 103d Congress. In 
fact, we were the first national real estate organization to 
adopt a resolution calling for a Federal ban on smoking in the 
workplace.
    Many building owners have already chosen to ban or limit 
smoking within their properties, even if their particular 
State, county or municipality has not yet made it mandatory. In 
a survey that BOMA International conducted last year for our 
publication Cleaning Makes Sense, we learned that 68 percent of 
the respondents prohibit smoking inside their building, and 29 
percent limit it to tenant suites. Only 1 percent of the 
respondents allow smoking anywhere in their building.
    Because of the health and liability concerns associated 
with second-hand smoke, the ideal course of action is to 
eliminate smoking in buildings completely. Experience 
indicates, however, that some tenants may want their employees 
to be able to smoke within their leased premises. The solution 
may be for the parties involved to agree to the creation of a 
separate, designated area, exhausted directly to the outdoors 
and maintained under negative pressure.
    BOMA recommends that in developing legislative language to 
implement title IV, the Environment and Public Works Committee 
incorporate S. 826. In particular, we draw your attention to 
the issue of which entities are responsible for administering 
the smoking ban in buildings. In multi-tenanted buildings, it 
is reasonable to expect the property owner or manager to 
implement a smoking ban in common areas of the building. 
Similarly, it is reasonable to expect the tenants themselves to 
administer a smoking ban within their own leased premises.
    Building management will take the necessary steps to 
implement a smoking ban and educate tenants. However, we cannot 
take responsibility for building occupants who refuse to comply 
with the ban. If an individual chooses to smoke in violation of 
the ban, the property's owner or manager should not be held 
liable, since that person is not under their direct control.
    To summarize, the removal of second-hand smoke would 
protect building occupants by eliminating a recognized source 
of indoor air quality problems, a fire safety hazard and a 
liability concern for owners and tenants alike. BOMA will 
continue to do everything we can to reduce and ideally 
eliminate the threat posed by second-hand smoke in commercial 
buildings.
    Mr. Chairman, we thank you for your interest in this issue, 
and in our recommendations for legislative language to make the 
proposed smoking ban a reality.
    Senator Chafee. Well, thank you very much, Mr. Lemons. 
That's very helpful.
    Now Mr. Sternberg, on behalf of the National Restaurant 
Association.

   STATEMENT OF MICHAEL STERNBERG, ON BEHALF OF THE NATIONAL 
                     RESTAURANT ASSOCIATION

    Mr. Sternberg. Good afternoon, Mr. Chairman, and thank you.
    My name is Michael Sternberg, and I am the owner and 
operator of Sam and Harry's Restaurant in downtown Washington, 
DC and at Tyson's Corner. I also own Harry's Tap Room in 
Tyson's Corner, and Music City Roadhouse in Georgetown.
    I am also a board member of the National Restaurant 
Association, and it is on their behalf that I appear here 
today. I would like to thank you for allowing me to testify on 
the subject of environmental tobacco smoke.
    Smoking is an emotional issue, but I hope we can set aside 
emotions today and look at this issue from a logical 
standpoint. Simply put, I believe that restaurateurs like 
myself and not the Government should be making the decisions 
that impact our businesses. I have been in the restaurant 
business for over 20 years. I would not be in business if I 
offered my customer something they did not want.
    A perfect example is what happened when we opened Music 
City Roadhouse. When we first opened, we decided to devote one 
entire bar to smoking and one entire bar to non-smoking 
customers. Today, we don't have separate bars for one simple 
reason. No one wanted to sit at the non-smoking bar, and I 
can't afford to keep a bar open, stocked, and staffed that no 
one wants to patronize.
    Similarly, we have attempted to cater to both our smoking 
and non-smoking customers by making a very substantial 
investment of time and money in an air filtering system for the 
new Sam and Harry's as well as in the original Sam and Harry's 
in Tyson's Corner and Washington, DC. We undertook all kinds of 
studies and hired the experts to help us ensure that smokers 
and non-smokers alike are enjoying the dining experience of 
their own choosing.
    We spent nearly $50,000 to make it work. This may be much 
more than the normal startup business can afford.
    If a restaurateur attracts customers to his or her 
restaurants that don't smoke and don't like to be around 
tobacco smoke, then it makes sense that the restaurateur would 
ban smoking from all or part of his or her establishment. But 
if that restaurateur has a clientele whose majority consists of 
smokers, then it would be foolish for him or her to ban smoking 
entirely from the establishment.
    You see, by their very nature, restaurants are in the 
business of offering choices to their patrons. Every effort is 
made to ensure that the dining experience is enjoyable. To that 
end, many members of the National Restaurant Association have 
elected to ban smoking from their establishments, while most 
others have provided a separate section for smokers and non-
smokers. It's a choice and it's one that should be left to the 
individual restaurateur.
    While reducing smoking is a laudable goal, the difficulty 
when it comes to the restaurant industry is where to draw the 
line. One suggested approach has been to ban smoking in fast 
food restaurants. But can those places be defined in a way that 
does not include barbecue restaurants and others who happen to 
serve customers by way of a take-away counter?
    Another approach has been to ban smoking in restaurants, 
but to exclude areas that serve as bars, an approach that could 
lead to many more liquor licenses being in demand. Still 
another approach being considered would ban smoking except in 
the tiniest bars, essentially allowing smoking only in the most 
restricted of spaces. Another approach has been for Congress to 
force the Occupational Health and Safety Administration to make 
the decision by promulgating its final rule on indoor air 
quality.
    Defining the industry on where to draw the line is 
difficult. Again, we say leave it to the restaurant owner and 
his or her customers to decide.
    My final point I wish to make is to cite the impact on 
smoking on travel and tourism. Restaurants account for the 
single largest industry among the tourism industries. We 
represent nearly 800,000 eating and drinking establishments and 
food service institutions. Of these establishments, 
approximately 400,000 are restaurants and roughly 250,000 of 
those are single, independent operators. You can say we are a 
large industry dominated by small businesses.
    We would not survive and thrive if it were not for the 
business that is generated by tourism. Indeed, I operate my 
restaurants in a city that is well-recognized for tourism.
    Last year, the United States hosted a record 24.2 million 
overseas visitors, a 7 percent increase over 1996, according to 
the U.S. Commerce Department. Tourism is one of the Nation's 
largest exports, contributing nearly $79 billion to the U.S. 
economy.
    At a time when we are asking tourists to come to the United 
States to spend their hard-earned vacation money, or come here 
as business travelers, we are discouraging them with our 
smoking policies. This is inconsistent, and we believe it will 
cause a loss of jobs for tourism industries like the restaurant 
industry and a loss of tourism dollars for the Nation's 
economy.
    We believe, Mr. Chairman, that the market is working as it 
should to determine individual restaurant smoking policies. No 
blanket Government directive is needed. This is particularly 
true, since it is individual citizens who decide which 
restaurants to frequent. They are free to choose restaurants 
that reflect their own taste with regard to food, ambience, 
convenience, as well as smoking policy.
    Thank you again for giving me the opportunity to appear 
before you today.
    Senator Chafee. Well, thank you very much, Mr. Sternberg. 
As you know, you've been here and you've seen how I've got 
reservations about just how to proceed in all of this.
    What do you say to the argument that it isn't the customer 
who is going to be affected in your restaurant, not so much in 
your restaurants, in restaurants where smoking is permitted, 
but the person who really suffers is the waitress or the 
bartender or waiter that's there? And as you know, the whole 
theory of OSHA and so forth is for the employee to be 
protected, whether it's from toxic materials or whatever it 
might be.
    So what do we do about that situation?
    Mr. Sternberg. Well, Mr. Chairman, I sort of anticipated 
that question. The answer is relatively simple. There is no 
smoking allowed in our kitchens, there is no smoking, 
obviously, allowed in our non-smoking areas. There is no 
smoking allowed in the employees locker room and spaces such as 
those.
    If an employee came to me, now, as it happens 99 percent of 
my work staff smokes. Most of them smoke.
    Senator Chafee. Maybe in self-defense.
    Mr. Sternberg. It may be an education. But I would say that 
if somebody came to me, if one of my employees came to me and 
obviously in any industry, retaining employees is very, very 
important, if an employee came to me and said, Michael, I can't 
work in this environment, it's too smoky, I would make sure 
that their work environment, that they were always assigned to 
the non-smoking areas.
    So if it was an important issue to them, we would make 
every effort to accommodate their needs.
    Senator Chafee. Well, I think I can understand that.
    Mr. Lemons, I thought you had some good points there. You 
heard Mr. Connolly talk about the success they've had in 
Massachusetts. Well, are you based in Massachusetts?
    Mr. Lemons. I am based in Massachusetts, yes.
    Senator Chafee. Is that where BOMA is headquartered?
    Mr. Lemons. No, I'm the president of BOMA, the Boston 
chapter. I'm here representing the National Association.
    Senator Chafee. I see. So you've seen the effect of the ads 
that Massachusetts has run, and the different education efforts 
they've made up there.
    Mr. Lemons. I have. I've learned myself.
    Senator Chafee. It seems to me they are rather effective. 
What do you think?
    Mr. Lemons. I would agree that they are effective. The 
programs for our employees in Massachusetts today are very 
effective at both cutting down the smoking and enforcing the 
non-smoking. There is a tremendous voluntary program underway 
because of that education.
    Senator Chafee. Now, Dr. Munzer, you came on strong, and 
from your background as head of the American Lung Association 
and as a physician. But what do you think of the worries I've 
voiced here about the U.S. Government trying to police every 
building in the country? It just seems like a very difficult 
job for us. What do you say to that?
    Dr. Munzer. Well, the American Lung Association supports 
the approach that has been taken by Senator Lautenberg in this 
regard. We believe that there is a Federal role for setting 
minimum standards of safety for all workers throughout the 
country and for the general public. In most instances, these 
laws have been really self-enforcing. There are also a lot of 
other standards that we set on buildings, and this would just 
be one additional standard, a smoke-free environment.
    So we do not believe that policing is going to be an 
overwhelming problem.
    Senator Chafee. I'm not sure there are many Federal 
requirements as far as buildings go. I suppose you could talk 
about the Americans With Disabilities Act. What other things, 
Mr. Lemons, where does the Federal Government get into your 
business?
    Mr. Lemons. With codes and regulations, the Americans With 
Disabilities Act is an excellent example, probably the most 
recent. But beyond that, it would be all the codes and 
regulations.
    Senator Chafee. But are those Federal codes or are those--
--
    Mr. Lemons. There are minimums that are established, then 
each city, municipality or State has tighter regulations.
    Senator Chafee. So, Dr. Munzer, you think we ought to go 
ahead with----I'm not exactly sure what Senator Lautenberg has 
proposed. What has he proposed?
    Dr. Munzer. Well, it basically follows very close to the 
language that you discussed earlier, a ban on smoking in 
buildings that have 10 visitors a day. But in addition to that, 
he allows for no exemptions and no preemption of any Federal 
statute.
    Senator Chafee. I think we all agree on no preemptions by 
the Federal statute. We're not going to argue with that. By 
that, we would say that if the States want to get tougher, 
that's their business.
    Dr. Munzer. Exactly.
    Senator Chafee. I don't see any problem with that. But I am 
just--I like the goal of obviously curbing smoking everywhere. 
Like many, many people's children, my children in their college 
days were waiters and waitresses in bars or restaurants. And I 
worried about them being in smoky areas.
    But they weren't there for life, and weren't there 
constantly working. So this is a group we care about, just like 
you care about your employees.
    Dr. Munzer. One additional point regarding what you just 
said. It's very important that children be brought up in a 
smoke-free environment, not just in the home. I think as long 
as children perceive that there is a smoking environment and 
smoking is acceptable, and if smoking is acceptable, they will 
start smoking themselves. We'll have our next generation of 
smokers.
    So I think we have to take a long view on this. If we're 
going to create a smoke-free society, we also have to have a 
smoke-free environment.
    Senator Chafee. Well, there's no question what you say, the 
normalization of smoking in some of the ads that takes place, 
the Marlboro man and so forth, hopefully in connection with the 
legislation we're working on now, that can be eliminated.
    But there's another side to this. I was with my 
grandchildren the other day, and they're about nine. They saw 
somebody smoking, were just absolutely horrified by such 
outrageous conduct, they were going up to chastise the 
individual. But he was bigger than I was, so I urged them not 
to.
    Ok, fine, thank everybody for coming. We appreciate it, and 
appreciate you, Mr. Lemons, coming from Massachusetts. Others 
came from a distance, Dr. Connolly, and the attorney general 
came all the way from Kansas. We're very grateful to you, 
General Stovall, for making the trip. You've been very helpful. 
Thank you.
    [Whereupon, at 3:43 p.m., the committee was adjourned, to 
reconvene at the call of the chair.]
    [Additional statements submitted for the record follow:]
 Prepared Statement of Carol M. Browner, Administrator, Environmental 
                           Protection Agency
    Good morning, Mr. Chairman and Members of the Committee. I am very 
pleased to be here today to present testimony on one of the most 
important issues EPA deals with, the very serious health risk posed by 
the widespread and completely preventable exposure of our children and 
other members of the public to secondhand tobacco smoke.
    As you know Mr. Chairman, in January 1993, the Environmental 
Protection Agency (EPA) published a landmark report on the respiratory 
health risks of passive smoking, entitled Respiratory Health Effects of 
Passive Smoking: Lung Cancer and Other Disorders. This report was 
issued under the authority of The Radon Gas and Indoor Air Quality 
Research Act of 1986, which directs EPA to conduct research and 
disseminate information on all aspects of indoor air quality. The 
report summarized the findings of the Agency's extensive investigation 
of the respiratory health risks from exposure to environmental tobacco 
smoke (ETS). It incorporated comments and recommendations from the 
public as well as two reviews by EPA's Science Advisory Board (SAB), a 
panel of independent scientific experts in this field. The Science 
Advisory Board unanimously endorsed both the conclusions of the report 
and the methodologies employed. The Department of Health and Human 
Services (HHS) has endorsed the report and the National Cancer 
Institute within HHS has printed it as one of their series of 
scientific monographs.
    Based on the total weight of the available scientific evidence, EPA 
concluded that the widespread exposure to secondhand smoke in the 
United States presents a serious and substantial public health risk. 
I'd like to briefly summarize the findings of the report.
    One of the most significant conclusions of the report--and 
certainly the one that has received the most attention--is the finding 
that secondhand smoke is a human lung carcinogen, classified as a 
``Group A'' carcinogen under EPA's carcinogen assessment guidance. This 
classification is reserved for those compounds or mixtures that have 
the strongest evidence of a cause-and-effect relationship in humans. In 
the case of secondhand smoke, unlike any other compound the Agency has 
ever evaluated, we are able to see a consistent increase in lung cancer 
risk at actual environmental levels, rather than having to extrapolate 
downward from very high occupational exposures as we have had to do for 
such other Group A carcinogens as asbestos and benzene. In attempting 
to quantify the extent of the lung cancer risk, the report estimated 
that secondhand smoke may be responsible for approximately 3,000 lung 
cancer deaths annually in non-smokers in the United States. Of these 
3,000, the report estimated that approximately 2,200 are attributable 
to exposure outside the home.
    ETS also has other effects on the respiratory health of adult non-
smokers. These include coughing, phlegm production, chest discomfort, 
and reduced lung function.
    The finding that secondhand smoke is capable of causing lung cancer 
in healthy adults has received the most public attention and is of 
great concern from a public health standpoint. However, the very 
serious respiratory effects on young children that are documented in 
our report are also of great personal concern to me. The report found 
that young children are particularly sensitive to the effects of 
secondhand smoke.
    Infants and young children who are exposed to secondhand smoke are 
at increased risk of lower respiratory tract infections such as 
pneumonia and bronchitis. EPA estimated that each year between 150,000 
and 300,000 cases of lower respiratory tract infections are associated 
with exposure of children to secondhand smoke, resulting in between 
7,500 and 15,000 hospitalizations.
    Asthmatic children are especially at risk. EPA estimated that 
exposure to secondhand smoke increases the number of episodes and the 
severity of symptoms for between 200,000 and one million asthmatic 
children. In addition, passive smoking may increase the risk of 
developing asthma for otherwise healthy children.
    Children who have been regularly exposed to secondhand smoke are 
also more likely to have reduced lung function and symptoms of 
respiratory irritation such as cough, excess phlegm, and wheezing. 
Passive smoking can lead to a buildup of fluid in the middle ear, the 
most common cause of hospitalization of children for an operation.
    As you are probably aware, immediately following publication of our 
report in 1993, the tobacco industry filed a lawsuit challenging both 
our authority to conduct the risk assessment as well as some of the 
scientific findings of the report. While this lawsuit is still not 
resolved--and we fully expect the court to find for the government on 
every pending procedural and substantive issue--I think it is 
particularly telling to note that not one aspect of the report's 
findings with respect to the serious risks to children was even 
challenged by the tobacco industry in its lawsuit. In fact, in a full 
page advertisement in major newspapers across the country, one of the 
major tobacco companies directly acknowledged that young children 
should not be exposed to secondhand smoke.
    Since publication of our report in early 1993, the evidence that 
secondhand smoke presents a very serious and completely preventable 
risk to our Nation's children has grown even stronger. A number of 
studies have strengthened the evidence associating secondhand smoke 
exposure to Sudden Infant Death Syndrome and the onset of asthma in 
young children. There is also evidence suggesting that passive smoking 
by mothers during pregnancy increases the risk of reduced birth weight 
in infants.
    Because of the health implications of exposure to secondhand smoke 
documented in our report, EPA recommends a number of actions to prevent 
involuntary public exposure to secondhand smoke in indoor environments. 
These recommendations are intended to help parents, decision-makers, 
and building occupants take steps to protect non-smokers from exposure 
to secondhand smoke and are outlined in the brochure, What You Can Do 
About Secondhand Smoke. EPA's primary recommendations are that:
    <bullet> Residents not smoke in their home or permit others to do 
so.
    <bullet> Every organization dealing with children--schools, day 
care facilities, and other places where children spend time--have a 
smoking policy that effectively protects children from exposure to 
environmental tobacco smoke.
    <bullet> In the workplace, EPA recommends that every company have a 
smoking policy that effectively protects non-smokers from involuntary 
exposure to tobacco smoke either through complete bans or limiting 
smoking to rooms that have been specially designed to prevent smoke 
from escaping to other areas of the building.
    <bullet> Employer-supported smoking cessation programs should be a 
part of any smoking policy.
    <bullet> If smoking is permitted in a restaurant or bar, placement 
of smoking areas should be determined with some knowledge of the 
ventilation characteristics of the space, to minimize non-smoker 
exposure.
    As you are no doubt aware, many Federal agencies, State and local 
governments and private sector organizations began to implement some 
form of indoor smoking restrictions as a result of the reports issued 
in 1986 by the U.S. Surgeon General and the National Research Council 
of the National Academy of Sciences. In the years since publication of 
the EPA report, however, we have seen a rapid acceleration of measures 
to protect non-smokers in a variety of settings, including workplaces, 
restaurants, sports facilities, health and day-care facilities, 
shopping centers, and a wide range of other public facilities. Hundreds 
of state and local ordinances have been passed or introduced in 
virtually every area of the country since 1991. The National Cancer 
Institute estimates that as of 1993, 46 percent of all workers reported 
that their place of employment had a smoke-free workplace policy, while 
81.6 percent indicated that their workplace was covered by some type of 
formal smoking policy. In contrast, only 3 percent of workers were 
covered by such policies in 1986. In August 1997, the President issued 
an Executive Order directing that employees and visitors at Federal 
buildings not be exposed to secondhand smoke.
    Despite this encouraging trend, there are many places where 
involuntary exposure to secondhand smoke still occurs and much work 
remains to be done. Of greatest concern to EPA is the continued 
exposure of children to secondhand smoke, particularly in the home. A 
Centers for Disease Control and Prevention (CDC) study of children's 
exposure to secondhand smoke--the first such national study--found that 
in 1991, 31.2 percent of children were exposed to cigarette smoke daily 
in the home. The study found wide regional, income and education 
differences. For example, 48 percent of children in homes of low income 
and education levels were exposed vs. 25 percent in higher level homes. 
Regionally, almost 40 percent of children in the Midwest were exposed 
to ETS in their homes, vs. 24 percent of children in California. The 
study also estimated that children exposed to secondhand smoke daily in 
the home have 18 million more days of restricted activity, 10 million 
more days of bed confinement, and miss 7 million more school days than 
other children. An EPA-funded survey found that approximately 27 
percent of children were exposed to secondhand smoke in the home in 
1994, indicating that some progress has been made.
    As part of EPA's comprehensive program to address risks associated 
with indoor air pollution, EPA has established an objective--consistent 
with the Department of Health and Human Services' Healthy People 2000 
goal on the same issue--of reducing to 15 percent the number of 
children regularly exposed to secondhand smoke in the home by the year 
2005. While it is our goal over the long term to eliminate our 
children's exposure to secondhand smoke, we are establishing achievable 
milestones that will move us closer to our long term goal.
    Achieving this objective will be a significant challenge. After 
years of consistent reductions in the percentage of adults that smoke, 
the percentage of the population that smokes nationwide has leveled off 
at about 25 percent of the adult population. As a result, reducing the 
number of children exposed to secondhand smoke in the home will require 
us to continue to strive to find effective ways of reaching and 
educating those adults who do continue to smoke about the detrimental 
effects secondhand smoke has on their young children.
    Of course, while the home may be where children are most exposed to 
secondhand smoke, there are many other environments in which children 
spend time--such as day care facilities, schools, and restaurants--that 
we also cannot ignore.
    EPA's strategy is based on development of a broad network of 
partners and programs designed to help educate parents about the 
importance of protecting their children's health by keeping their air 
free of tobacco smoke. EPA coordinates closely with CDC's Office on 
Smoking and Health on their public information efforts, and we are 
working with a wide range of State and local government agencies and 
non-governmental organizations to educate the public about the hazards 
of secondhand smoke.
    EPA is working with the American Academy of Pediatrics (AAP) to 
develop and promote materials for use by children's health care 
providers--and particularly pediatricians--in delivering health 
messages to parents about the risks of secondhand smoke to their 
children. The relationship between the pediatrician and the parent is 
an extremely rich opportunity for education and motivation on crucial 
environmental health issues. EPA has begun a pilot program, working 
with the Pennsylvania Chapter of AAP and the National Resource Center 
for Health and Safety in Child Care, in an effort to enlist day care 
centers in the effort to protect children from secondhand smoke during 
day care, as well as to help reach parents at home with this important 
message. This program consists of a comprehensive continuing education 
module for day care operators that includes both education and outreach 
tools as well as requiring a commitment that the day care operator 
ensure a smoke-free day care environment.
    EPA, in collaboration with the Consumer Research Council and the 
American Medical Association, is also developing a media campaign to 
develop and distribute public service announcements that will directly 
reach parents with the message that secondhand smoke is a preventable 
risk to their children's health and one that they can do something 
about, even if they don't quit smoking themselves.
    EPA is also developing targeted information on secondhand smoke to 
specific sub-populations where there are significantly higher risks, 
such as those in households with lower education and income levels.
    EPA is also participating in international efforts to address 
secondhand smoke. In preparation for last year's Denver Summit of the 
eight major industrialized democracies, I had the honor of hosting a 
meeting of the Environment Ministers of the Eight that focused on 
children's environmental health. At that meeting, the Ministers 
representing the Eight adopted a Declaration on children's 
environmental health and forwarded it to Denver for consideration by 
the Leaders at the Summit.
    The Environment Ministers called for domestic, bilateral and 
international efforts to improve the protection of children's health 
from environmental threats, and specified concrete actions that the 
Eight will undertake to better protect children from environmental 
hazards. At the Denver Summit of the Eight, leaders committed their 
governments to explicitly incorporate children's health issues into 
environmental risk assessments and standard setting and to work 
together to strengthen information exchange, provide for 
microbiologically safe drinking water, and to reduce children's 
exposure to lead, environmental tobacco smoke, and other air 
pollutants. While all of the Eight have set standards that protect 
environmental health generally, recent scientific advances demonstrate 
that more specific actions must be taken to better address the unique 
environmental health risks to children. We should explore and 
investigate potential links between children's health and the 
environment.
    The specific goal regarding ETS is to convene a scientific 
conference, through the World Health Organization (WHO) or another 
appropriate scientific organization, to synthesize and share the latest 
scientific information on risks to infants and children from 
environmental tobacco smoke and compile information on the most 
effective educational strategies concerning exposures to children. 
Planning for this conference is underway with WHO and CDC and we hope 
to hold it this year.
    We must continually strive to find the most compelling messages and 
the most credible sources for those messages, and continue to develop 
partnerships with all organizations that are concerned with children's 
health issues. We have only begun to get the message out and much 
remains to be done. EPA has a unique role to play in the Federal 
community in helping to educate the public about the serious health 
risks of secondhand smoke.
    As society as a whole and the Congress in particular continues to 
debate the details of tobacco control, I am heartened by the fact that 
a consensus has emerged around the need to effectively discourage 
children from developing the smoking habit. Surely, if we can agree 
that children and teenagers should not smoke, we can also agree that 
they should also not be exposed to secondhand smoke. We clearly 
recognize the importance of public health education for preventing 
teenage smoking and encouraging smoking cessation. This in turn will 
prevent significant childhood exposure to secondhand smoke. And the 
dividend for the rest of society is that by protecting those who are 
among the most vulnerable in our society--by ensuring that our kids are 
safe, by putting them first--we protect everyone.
    Thank you for the opportunity to testify before you today. I look 
forward to working with you, Mr. Chairman, to craft sensible 
legislation that puts our children's health first. I will be happy to 
answer any questions that you might have.
                                 ______
                                 
      Prepared Statement of Kansas Attorney General Carla Stovall
    Addressing concerns which arise from environmental tobacco smoke 
(ETS) and related issues are important components of the June 20 
agreement between the Attorneys General and the tobacco companies. 
Notwithstanding its significance, it is often an overlooked issue 
because it does not generate the controversy that other provisions do. 
The Attorneys General appreciate the time this Committee is dedicating 
to this particular issue and are hopeful that our work on the 
settlement will be helpful to this Committee as you consider the deadly 
consequences of environmental tobacco smoke.
    As you know, there is no minimum Federal standard governing smoking 
in public places or in the workplaces of millions of Americans. As a 
result, nonsmokers are regularly subjected to air which has been 
contaminated by their smoking friends and colleagues. Is 
``contamination'' too harsh a word to use in this context? Not when we 
know that tobacco smoke contains more than 4,000 chemical compounds, 
including 200 known poisons (such as benzene, formaldehyde, and carbon 
monoxide) and 50 other chemicals which cause cancer in humans and 
animals. Six years ago the Environmental Protection Agency classified 
ETS as a Group A carcinogen--a substance with no safe level of 
exposure.
    Environmental tobacco smoke comes from two sources every time a 
pipe, cigar or cigarette is lit. ``Mainstream smoke'' is what the 
smoker exhales after inhaling and once exhaled becomes part of the air 
nonsmokers breathe. The more dangerous source is called ``sidestream 
smoke.'' This is what is produced when the tobacco product is burned. A 
lit cigarette sitting in the ashtray is producing ``sidestream smoke,'' 
which has even higher concentrations of tar and nicotine than 
``mainstream smoke'' and more cancer causing substances too. This is 
because the cigarette is burning at a lower temperature when sitting on 
the ashtray and results in dirtier and less complete combustion because 
it is not drawn through the cigarette's filter. Thus, the ``mainstream 
smoke'' a nonsmoker inhales is more toxic than the filtered direct 
smoke the smoker breathes.
    Americans know all too well how many young men and women this 
country lost in the entire Vietnam War. We lose almost that many every 
year to second-hand smoke! Fifty-three thousand nonsmokers die each 
year from exposure to environmental tobacco smoke! These preventable 
deaths are caused by heart disease and lung cancer resulting from ETS.
    Not everyone who is exposed to ETS dies from its consequences--but 
prolonged contact with environmental tobacco smoke is detrimental. 
Infants whose mothers smoke are at an increased risk of dying from 
Sudden Infant Death Syndrome (SIDS); exposure to second-hand smoke 
causes between 150,000 and 300,000 respiratory infections in children 
each year; between 7,500 and 15,000 children are hospitalized each year 
as the result of respiratory infections caused by ETS; second-hand 
smoke exacerbates asthma in about 20 percent of children who suffer 
from asthma; the arteries of nonsmokers exposed to ETS thicken 20 
percent faster than in nonsmokers with no ETS exposure; it is linked to 
cervical cancer, brain tumors, aggravated asthmatic conditions, 
impaired blood circulation, bronchitis, pneumonia, stinging eyes, sore 
throats and headaches; and ETS is linked with a 20 percent increase in 
the acceleration of arteriosclerosis.
    Some of the exposure to second-hand smoke occurs in homes across 
America. Children have parents who smoke. In fact, EPA estimated in 
1993 that one-half to two-thirds of all children in the U.S. under six 
live with a smoker and living with even one smoker increases the risk 
of lung cancer. Children's exposure to ETS is especially grave because 
they absorb more nicotine and toxins in their lungs and they breathe 
more per kilogram of body weight than adults. Nonsmokers married to 
heavy smokers have 2-3 times the rate of lung cancer as nonsmokers 
living with nonsmokers. Nonsmoking wives who were married to smokers 
have a 30 percent increased risk of lung cancer as do nonsmoking wives 
with nonsmoking husbands. Nonsmokers exposed to 20 cigarettes a day 
have twice the risk of developing lung cancer. The Attorneys General 
never intended to ask the Federal Government--or state governments--to 
regulate these situations. While gravely affecting the health of the 
nonsmokers, smoking in private homes was never at issue.
    What is at issue, however, is the exposure to environmental smoke 
which occurs in public facilities or the workplace. Approximately 80 
percent of nonsmokers' exposure to ETS occurs in the workplace! OSHA 
has estimated that between 14 million and 36 million nonsmokers are 
exposed to ETS at work. The Center for Disease Control has determined 
that workers exposed to ETS have a 34 percent higher risk of lung 
cancer than those who work in smoke-free facilities.
    Workers in a smoking facility are not the only ones that these 
provisions would protect. Customers or patrons of the establishment 
would also benefit. This is important when we consider that the U.S. 
Surgeon General has estimated 800,000 children are exposed to ETS at 
their schools and daycare facilities.
    For these reasons, the Attorneys General proposed strong 
requirements to minimize the exposure of nonsmokers to environmental 
tobacco smoke. The provisions would:
    <bullet> Restrict indoor smoking in public facilities (i.e., any 
building regularly entered by ten or more individuals at least 1 day 
per week) to ventilated areas with systems that----
        --exhaust air directly outside;
        --maintain the smoking area at ``negative pressure;''
        --do not recirculate the air inside the public facility;
    <bullet> Ensure no employees would be required to enter a 
designated smoking area while smoking is occurring;
    * Exempt restaurants (except ``fast food'' restaurants), bars, 
private clubs, hotel guest rooms, casinos, bingo parlors, tobacco 
merchants and prisons;
    * Direct OSHA to issue regulations implementing and enforcing the 
standard within 1 year of the legislation. Enforcement costs would be 
paid from industry payments pursuant to the settlement agreement and 
Federal legislation.
    As envisioned by the Attorneys General, the legislation regarding 
environmental tobacco smoke would not preempt any state or local 
restriction equal to or stricter than this standard. It would not 
affect any Federal rules restricting smoking in Federal facilities.
    While the Federal Government has the authority under current law to 
implement regulations having the same outcome as this standard, the 
practical matter is that no such regulations exist. OSHA has a proposed 
rule that was drafted over 4 years ago. The agency conducted more than 
6 months of hearings which ended 2 years ago--and, yet, we still have 
no final regulation in existence. I have been told that a final 
regulation is still at least 4 years away!
    Including this ETS standard in Federal legislation currently being 
considered means we could put on an express track the protection of 
nonsmokers in their working environments and in public places. In the 
four additional years that would be required for the OSHA regulation to 
be issued, another 212,000 nonsmoking Americans will die. And 
approximately 80 percent, or 169,600, will be from the exposure to the 
smoke from their coworkers. We cannot afford to wait!
    There is nothing revolutionary in this proposal. As of 1993, 45 
states and the District of Columbia restricted smoking in public 
places. Forty-four states and the District have legislation which 
addresses smoking in public workplaces and twenty-three which address 
it in private workplaces. In 1994, the Department of Defense, the 
largest employer in the U.S. with nearly 3 million employees, banned 
smoking in all DoD facilities worldwide. In 1991, a survey of 833 
companies was undertaken and found 85 percent had adopted a policy 
restricting smoking. And U.S. flights of 6 hours or less ban smoking. 
We have been heading in the right direction for years now. This 
agreement gives U.S. the impetus to take the final step and uniformly 
and consistently restrict smoking in public places.
    The provisions of the June 20 agreement on ETS are modeled 
extensively after the provisions in Congressman Henry Waxman's 1994 
bill which was voted out of Committee. They do, however, provide 
exemptions (e.g., restaurants, bars) which his current bill, H.R. 1771, 
does not. The provisions hammered out at the negotiating table last 
spring and summer were approved by the Attorneys General, of course, 
but also by the tobacco companies without objection.
    Understandably, business owners may have reservations about the 
financial impact of such regulation. There is nothing in this standard 
which requires expensive retrofitting or renovation. I have heard that 
opponents estimate this will cost American businesses $70 billion. We 
have seen nothing which would substantiate such a calculation. To avoid 
any cost at all associated with this provision, a business owner could 
maintain a smoke free environment. But if he/she chose to allow a 
smoking area within the business, the smoking area simply has to be 
vented to the outside. No fancy filters or cleaning devices. This 
standard is comparable to what hundreds and hundreds of cities across 
America have already implemented without considerable expense or 
obstacles to business owners.
    As a matter of fact, cost savings would be realized which could 
offset any expense a business owner undertakes to comply with this 
standard. Businesses which currently allow smoking incur an average of 
$500 per smoker annually for property maintenance and cleaning costs. 
In addition to those expenses, are the lost-productivity costs of 
exposing employees to environmental tobacco smoke. On a generalized 
scale, EPA estimates that the elimination of exposure to ETS in the 
workplace would result in savings between $35 and $66 billion annually 
by the avoidance of illness and premature deaths.
    Certain businesses worry that smoking restrictions or a total 
smoking ban would cause a reduction in customers. Restaurants most 
notably voice this concern. But a study published in the American 
Journal of Public Health compared 15 cities that prohibited smoking in 
restaurants with 15 cities that had no such prohibition. No significant 
economic impact was demonstrated.
    Other studies show that smokers do not avoid smoke-free locations. 
In another look at the issue, forty convention groups were surveyed to 
determine whether they would be dissuaded from booking in a smoke-free 
facility. Only the group representing the tobacco industry found that a 
controlling factor. Another study published in the American Journal of 
Public Health found that 90 percent of patrons would maintain or 
increase Use of restaurants if they became smokefree and 89 percent 
would maintain or increase their patronage at bars and clubs. Smokers 
made up 68 percent and 56 percent, respectively, of those totals.
    Public support for these restrictions is overwhelming. Almost 80 
percent of Americans believe there should be restrictions on smoking in 
public places; eight out of 10 nonsmokers are annoyed by second-hand 
smoke; and 90 percent of adults believe people have the right to 
breathe smokefree air.
    The Attorneys General believe this is a reasonable proposal which 
would provide critical protection to nonsmokers, while still giving 
flexibility to business owners. The proposal does not create something 
unheard of prior to June 20--it merely builds upon the trend this 
country has seen during the last decade. The proposal acknowledges the 
serious health risks of environmental tobacco smoke and takes measured 
steps to reduce the unnecessary and preventable loss of life.
    Thank you for the opportunity to present the view of the Attorneys 
General on this important issue.
    (Sources for this testimony include publications by the American 
Lung Association, the American Cancer Society, ENACT, and ``Tobacco: 
Biology and Politics,'' by Stanton A. Glantz. Copies can be made 
available upon request of the Committee members.)
                                 ______
                                 
  Prepared Statement of Gregory N. Connolly, D.M.D., M.P.H. Director, 
                 Massachusetts Tobacco Control Program
                       description of the problem
    Second-hand smoke is the third leading cause of preventable death 
in the United States of America. Second-hand smoke results in an 
estimated 53,000 premature deaths each year. 37,000 from heart disease, 
3,700 from lung cancer and 12,000 from other forms of cancer. Only 
active smoking (420,000 deaths per year) and alcohol (100,000 deaths 
per year) result in more deaths. The health effects of second-hand 
smoke has been reviewed extensively in scientific literature. There are 
more than 3,000 scientific articles on environmental tobacco smoke. 
These articles have been summarized in a series of reports done by the 
Surgeon General, the National Research Council, the Environmental 
Protection Agency, and most recently by the California Environmental 
Protection Agency. Just last week new evidence showed that ETS damages 
the cardiovascular system of exposed non-smokers.
    Each year in the United States second-hand smoke causes the 
following:
    <bullet> 53,000 deaths among adults from heart disease, lung 
cancer, cervical cancer and nasal sinus cancers.
    <bullet> 8,000-26,000 new cases of asthma among children.
    <bullet> 150,000-300,000 cases of lower respiratory track 
infections in infants.
    <bullet> 7,500-15,000 hospitalizations for lower respiratory track 
infections in infants.
    <bullet> 140-210 infant deaths from lower respiratory track 
infections.
    <bullet> 200,000-1,000,000 asthma attacks through exacerbation of 
asthma symptoms among children.
    <bullet> 250,000-2.2 million middle ear infections in infants and 
children.
    <bullet> 1,900-2,700 deaths from Sudden Infant Death Syndrome 
(SIDS).
    <bullet> 9,700-19,000 cases of low birthweight due to second-hand 
smoke during pregnancy.
    environmental tobacco smoke and the proposed national settlement
    The proposed tobacco settlement provides a minimum standard 
governing smoking in public places and workplaces by permitting smoking 
only in separately ventilated areas. It also authorizes OSHA to 
promulgate regulations and report these standards. However, the 
settlement exempts restaurants (except fast food restaurants), bars, 
private clubs, hotel rooms, casinos, bingo parlors, tobacco merchants 
and prisons. The latter are public areas that have some of the highest 
levels of second-hand smoke exposure of any public place and pose 
significant risks to exposed workers.
    Drs. Koop-Kessler, in reporting on the settlement, have made a 
series of recommendations to strengthen the settlement's provisions for 
involuntary exposure to environmental tobacco smoke. The report calls 
for total prohibition of smoking in all worksites and all places of 
public assembly. It also calls for state and local measures prohibiting 
smoking in all worksites including public awareness campaigns related 
to the health effects of ETS exposure. The report calls for a complete 
risk assessment of cardiovascular effects associated with environmental 
tobacco smoke and the development of economic incentives for business 
to encourage smoke-free worksites. Finally, the report calls for 
adequate funding of a public education program about the dangers on 
ETS.
               the massachusetts approach to curbing ets
    In 1992, the Massachusetts Division of the American Cancer Society 
placed a ballot question on the state's ballot to raise the cigarette 
tax 25 cents, and allocate a portion of those funds for a comprehensive 
tobacco control campaign. The ballot question passed 56 percent-44 
percent, and in the fall of 1993, the state Department of Public Health 
established the Massachusetts Tobacco Control Program (MTCP).
    The MTCP was designed to curtail tobacco death and disease 
associated with smoking by preventing young people from taking up 
tobacco Use, helping adult smokers to quit, and protecting non-smokers 
from the adverse health effects of environmental tobacco smoke. The 
state has spent over $125 million since 1993 to curb smoking in the 
state, and this year's budget is $31 million.
    Massachusetts has accomplished much in curbing involuntary exposure 
to environmental tobacco smoke through the adoption of policies at the 
local level that prohibit smoking in public places and through an 
aggressive counter-advertising campaign that alerts both smokers and 
nonsmokers to the dangers of second-hand smoke. Our campaign has been 
highly successful, and mirrors much of what the Koop-Kessler Commission 
advocates. Any national settlement could easily adopt the measures we 
have put in place in Massachusetts to address this problem.
    The campaign has three major components, a media campaign ($13 
million), local policy and prevention initiatives, and cessation 
services. I will focus on what Massachusetts has done on ETS.
how massachusetts is protecting non-smokers from environmental tobacco 
                                 smoke
    The effort to reduce this risk has taken two parallel paths. First, 
MTCP-funded programs, especially local Boards of Health, have worked to 
establish institutional or governmental policies to prohibit smoking in 
areas where non-smokers might be affected. Second, MTCP has informed 
the public about the dangers of ETS through the statewide media 
campaign as well as public information activities sponsored by local 
programs, resulting in voluntary adoption of smoking restrictions at 
home and in public places.
    Smoking bans for municipal buildings have been widely adopted. Very 
few cities and towns banned smoking in municipal buildings before 
Question 1, and in 1992 fewer than 600,000 Massachusetts residents were 
protected by such bans. Between 1992 and 1997, however, 101 cities and 
towns enacted such provisions. The most recent data indicate that such 
restrictions are in effect in cities and towns whose combined 
population exceeds 2.9 million-nearly live times the 1992 figure. 
Smoking was banned in all schools, and all state government worksites 
by legislation passed in 1997. Voluntary bans have been adopted in all 
major sport stadiums, including Fenway Park and Foxboro Stadium.
                               mass media
    Our program commits $13 to paid mass media of which one quarter is 
directed to the damages of ETS. The messages are hard hitting and have 
greatly increased the awareness of the dangers of ETS and supp ort pass 
age of local policies.
             helping employers control ets in the workplace
    MTCP-funded programs have helped employers establish policies 
restricting smoking in the workplace. Local Boards of Health and the 
Tobacco Free Worksite Initiative both carry out such activities. Since 
the programs began in 1994, they have:
    <bullet> Initiated contact or responded to requests from over 4,500 
worksites; and
    <bullet> Provided technical assistance or information to nearly 
1,800 of those locations.
    <bullet> 499 of those worksites are known to have implemented new 
tobacco control policies, affecting over 70,000 employees.
    A survey of Massachusetts' 3,000 largest employers found that 78 
percent have complete smoking bans and 20 percent require designated 
smoking areas. Only 2 percent of these employers have no policy 
restricting smoking in the worksite.
    Massachusetts workers are now significantly less exposed to 
environmental tobacco smoke than before MTCP began. The percentage of 
workers in sites that ban indoor smoking climbed from 53 percent to 65 
percent between 1993 and 1997 surveys. Average ETS exposure at work has 
fallen from 4.5 to 2.2 hours per week.
                   restricting smoking in restaurants
    Massachusetts residents have strongly and consistently favored 
policies restricting smoking on restaurants. A 1993 survey found that 
only 2 percent preferred a policy of unrestricted smoking in 
restaurants, while 47 percent supported complete bans. Provisions 
restricting smoking in restaurants were relatively rare before Question 
1 and nearly always required simply that a portion of the space in the 
restaurant be designated as non-smoking. Since the MTCP local programs 
began operations, restaurant smoking restrictions have spread widely 
and the population protected by restrictions on smoking in restaurants 
has more than doubled. During the same period, moreover, the population 
protected by complete bans in restaurants has grown from less than 
60,000 to nearly 1 million persons.
    Smoking bans have not harmed restaurant business. Over 100 
Massachusetts cities and towns have enacted some restriction on smoking 
in restaurants. Some restaurant owners have opposed restrictions, 
arguing that their business would be adversely affected. Recent 
analyses of the Massachusetts towns adopting restrictions indicate no 
adverse effects. If anything, smoking restrictions are associated with 
gains in restaurant revenues and employment.
    After towns adopted highly restrictive restaurant smoking policies, 
average restaurant receipts were between 5.5 and 8.6 percent higher 
than if they had not adopted the restrictions. Highly restrictive 
policies--either a complete ban or a requirement for separate rooms for 
non-smokers--were in force in 29 Massachusetts towns between 1992 and 
1995. An econometric analysis using data on meal taxes found that 
restaurant revenues in these towns exceeded their predicted levels for 
the periods after adopting the restrictions, where predictions were 
based on patterns in 22 cities and towns without such restrictions.
    A separate analysis suggests that the number of restaurant jobs 
increased, on average, in towns adopting smoking restrictions. In towns 
with any kind of smoking restriction, the total number of restaurant 
employees in 1992-1995 was 9.9 percent higher than would be expected, 
based on the patterns in towns without restrictions. In towns with 
highly restrictive policies, the estimated effect was 5.9 percent, 
which is within the margin of estimation error.
    The analytical results are consistent with research elsewhere, and 
also with Massachusetts residents' statements about their use of 
restaurants. Survey respondents say that they would be more likely, 
rather than less likely, to frequent restaurant, clubs and bars with 
smoking bans. Moreover, although 37 percent report that they have 
avoided going somewhere because they would be ``exposed to too much 
second-hand smoke,'' only 9 percent have avoided going somewhere 
``because smoking was forbidden.''
       the impact of restrictions on environmental tobacco smoke
    Cigarette consumption has dropped by 31 percent since 1992. Data 
from the Tobacco Institute show that cigarette purchases in 
Massachusetts in 1992 totaled 117 packs per person aged 18 or older. By 
the first half of 1997, purchases had dropped by 31 percent to 81 packs 
per capita. The steepest declines occurred in the 2 years following new 
excise taxes (1993 and 1997).
    Those who do smoke are smoking fewer cigarettes. Part of the 
decline in cigarette consumption has occurred because Massachusetts 
smokers are smoking less. The 1993 Massachusetts Tobacco Survey (MTS) 
found that adult smokers smoked an average of 20 cigarettes per day. 
That number fell to 16 cigarettes per day in 1996-1997, the most recent 
2-year period of the Massachusetts Adult Tobacco Survey (MATS).
restrictions on second-hand smoke have contributed to an overdecline in 
                              tobacco use
    Adult smoking rates are declining. The annual surveys of 
Massachusetts adults suggests a slow but steady decline in the 
proportion who smoke. The 1993 survey estimated that 22.6 percent of 
Massachusetts adults-about one million persons-were smokers. The 1997 
estimate of 20.6 percent suggests that the number of adult smokers has 
fallen by about 9 percent. This implies a reduction of 90,000 in the 
number of smokers.
      environmental tobacco smoke and national tobacco legislation
    The current settlement provides little protection to the non-smoker 
from the adverse health effects of environmental tobacco smoke. There 
are a number of measures that can be included in any national 
settlement that would do so.
(1) Cover the Costs of Second-Hand Smoke
    Environmental tobacco smoke costs the American public money and 
health each year. These costs are not reflected in the settlement cost 
and they should be.
(2) Include Effective Warnings
    Second, the settlement proposes five new warning labels on packages 
of cigarettes and in cigarette advertisements. None address the effects 
of second-hand smoke. Three additional warnings are needed to do so.

             WARNING: ENVIRONMENTAL TOBACCO SMOKE CAN KILL.

  WARNING: ENVIRONMENTAL SMOKE CAUSES RESPIRATORY DISEASE AMONG YOUNG 
                               CHILDREN.

 WARNING: ENVIRONMENTAL TOBACCO SMOKE CAN CAUSE LUNG CANCER AND HEART 
                   DISEASE AMONG HEALTHY NON-SMOKERS.

(3) Expand ETS Restrictions
    The current settlement excludes restaurants, bars, bingo parlors, 
and other places of hospitality. There is no reason to do so. The 
current settlement should prohibit smoking in restaurants with a 
possible phase in ban of smoking within other areas.
(4) No Immunity From ETS Lawsuits
    The current settlement provides broad immunity from litigation 
brought because of the adverse health effects of second-hand smoke. 
There may be some basis for providing limited immunity for persons 
whose smoking has caused them disease. However, for exposed non-smokers 
there is no assumption of the risk, and the tobacco industry should not 
be given protection. These people should not be denied their 
opportunity to litigate against the tobacco industry. They simply did 
not assume the risk, and they should not have to pay.
(5) Media Campaign
    The current settlement allocates over half a billion dollars for a 
paid national advertising campaign with a focus on youth by 
deglorifying and discouraging smoking. It is extremely important that 
this be expanded to include the adverse health effects of second-hand 
smoke.
                                 ______
                                 
Prepared Statement of Michael P. Eriksen, SC.D., Office on Smoking and 
   Health, National Center for Chronic Disease Prevention and Health 
 Promotion, Centers for Disease Control and Prevention, Public Health 
                                Service
    Thank you for the opportunity to discuss the health hazards of 
exposure to environmental tobacco smoke and efforts to reduce exposure. 
I am Dr. Michael P. Eriksen, director of the Office on Smoking and 
Health, National Center for Chronic Disease Prevention and Health 
Promotion, Centers for Disease Control and Prevention (CDC) in Atlanta, 
Georgia.
    Over the past decade, knowledge of the hazards of exposure to 
environmental tobacco smoke (also known as ETS, passive smoke, or 
secondhand smoke) has expanded considerably. In 1986, the U.S. Surgeon 
General and the National Academy of Sciences formally recognized that 
ETS is a significant public health threat. In 1991, the Centers for 
Disease Control and Prevention's (CDC) National Institute for 
Occupational Safety and Health concluded that ETS is a potential 
occupational carcinogen, and recommended that exposures be reduced to 
the lowest feasible concentration. In 1993, the Environmental 
Protection Agency (EPA) issued a report providing additional 
information on the hazards of exposure, including an estimated 3,000 
lung cancer deaths per year among nonsmoking adults and 150,000-300,000 
cases of lower respiratory tract infections among children. ETS 
exposure causes increased episodes and increased severity of symptoms 
in children with asthma. Exposure also has been linked with sudden 
infant death syndrome (SIDS). Furthermore, in recent years, research 
has emerged on the impact of ETS exposure on the development of heart 
disease among nonsmokers. There is mounting data that the overall 
burden of ETS-related heart disease is considerably higher than that 
for ETS-related lung cancer. In addition, data continue to emerge on 
the link between ETS and heart disease; for example, in a study 
reported earlier this year in the Journal of the American Medical 
Association, ETS exposure was associated with atherosclerosis which is 
not reversible.
    Data from a 1996 CDC study found that among non-tobacco users, 87.9 
percent had detectable levels of serum cotinine, a biological marker 
for exposure to environmental tobacco smoke, yet only 37 percent of 
adult non-tobacco users were aware enough of their exposure to report 
having been exposed to ETS either at home or at work. Both home and 
workplace environments were found in this study to significantly 
contribute to the widespread exposure to environmental tobacco smoke in 
the United States. In addition, a recent study by CDC found an alarming 
level of ETS exposure of children in their homes. Exposure ranged from 
11.7 percent of children between the ages of 0 and 17 in Utah to 34.2 
percent of children in Kentucky.
    Although a 1992-1993 National Cancer Institute survey found that 
almost half of all workers had a smoke-free policy in their workplace, 
significant numbers of workers, especially those in blue-collar and 
service occupations, reported smoke-free policy rates considerably 
lower than the overall rate of 46 percent. The occupational group least 
likely to have a smoke-free policy was food service workers--waiters, 
waitresses, cooks, bartenders, and counter help. Of these 5.5 million 
workers, 22 percent are teenagers. In a 1993 CDC study, food service 
workers were found to have a 50 percent increased risk of dying from 
lung cancer as compared to the general population, and this increase 
was attributed to their workplace exposure to ETS. Although potential 
business losses are usually cited as the reason for excluding these 
establishments from smoking prohibitions, several studies across the 
country have shown no adverse impact on sales in these establishments 
after smoking is eliminated.
    In recognition of the health consequences of exposure to ETS, the 
public health community has adopted several national health objectives 
related to ETS as part of or in conjunction with Healthy People 2000. 
These objectives include increasing the proportion of worksites that 
have adopted smoke-free policies and reducing the proportion of 
children regularly exposed to ETS in the home. Another Healthy People 
2000 objective is to increase the number of states with comprehensive 
clean indoor air laws in workplaces, restaurants, and public places 
that prohibit smoking or limit it to separately ventilated areas only. 
An additional objective addresses reductions in the number of states 
with preemptive laws limiting more restrictive action at the local 
level. Recent data indicate that 21 states have enacted laws 
restricting smoking in private worksites but only one of these states 
meets the Healthy People 2000 State objective. Thirty-one states have 
enacted laws restricting smoking in restaurants; only three meet the 
objective. Although significant actions have been taken by states and 
localities to limit ETS exposure, much work remains to provide adequate 
protection to all Americans.
    There are a variety of actions that Federal agencies are taking to 
reduce ETS exposure among the population. These actions fit within an 
overall framework to prevent and reduce tobacco use which includes data 
collection, research, state and community programs, school programs, 
media campaigns, and program evaluation.
    Public education is an important component of efforts to reduce ETS 
exposure. CDC has conducted media and educational campaigns addressing 
ETS exposure in the home, restaurant, and workplace settings. CDC also 
has published a publication called ``Making Your Workplace Smokefree: A 
Decision Maker's Guide,'' which can assist employers who are 
considering a smoke-free workplace in implementing this decision. In 
the area of prevention research, CDC is engaged in ongoing efforts to 
examine the impact of ETS on health. Specifically, CDC's National 
Center for Environmental Health is supporting laboratory-based 
prevention research to assess the exposure of the United States 
population to both active smoking and ETS by measuring serum cotinine 
in the National Health and Nutrition Examination Surveys. Efforts such 
as these are critical to our understanding of the extent of ETS 
exposure in the population. CDC also is working to better our 
understanding of the relationship of ETS exposure in nonsmokers to 
adverse health outcomes such as sudden infant death (SIDS), low birth 
weight, cardiovascular disease and lung cancer. An example of this 
effort is the growing evidence of ETS as a risk factor for SIDS. 
Preliminary analysis of data from CDC's Chicago Infant Mortality Study 
indicate that two of the significant risk factors for SIDS in an urban, 
largely African-American population were maternal smoking during 
pregnancy and infant exposure to passive smoking. These results were 
presented at the fourth SIDS International Conference and the Annual 
Meeting of the Society for Pediatric Research in June 1996.
    In the area of worker safety, CDC's National Institute for 
Occupational Safety and Health (NIOSH) conducted an Indoor Air Quality 
Health Hazard Evaluation at Bally's Park Casino Hotel in Atlantic City, 
New Jersey. The evaluation, completed in 1996, demonstrated that non-
smoking employees working in the gaming areas of a large casino 
demonstrated pre-workshift exposure to ETS at levels 50 percent higher 
than those observed in a representative sample of U.S. workers exposed 
to ETS at home and work. The evaluation also demonstrated that the 
serum and urine cotinine of these employees increases during the 
workshift, such that levels of exposure were twice as high after 
working a shift in the casino than the representative sample of U.S. 
workers mentioned above. As a result of this analysis, NIOSH presented 
recommendations that would protect casino workers from ETS exposure. 
These recommendations included: eliminating tobacco use from the 
workplace and implementing a smoking cessation program for employees; 
isolating areas where smoking is permitted; establishing separate 
smoking areas with dedicated ventilation; and restricting smoking to 
the outdoors (away from building entrances and air intakes).
    State prevention efforts also are critical; survey data indicate 
that public education campaigns and local community efforts to limit 
smoking in public places in California and Massachusetts have been 
associated with reported reductions in ETS exposure of both adults and 
children. Finally, clinicians, particularly pediatricians, also have an 
important role to play in educating parents about the impact of ETS 
exposure on their children. Interest in ETS is not only confined to the 
United States. Most notably, there is the work of the EPA to bring the 
ETS and children issue to the attention of the G8. The administration 
is planning an international conference to address these concerns.
    Last summer, President Clinton announced an Executive Order 
requiring Federal buildings to be smoke-free or have separately 
ventilated smoking areas. Furthermore, in the five principles contained 
in his September statement on components for comprehensive tobacco 
legislation, the President included limiting exposure to ETS in 
worksites and public places. The proposed settlement language of June 
20th provides a starting point for efforts to address this issue. There 
appears to be consensus that national legislation should serve as a 
``floor'' rather than a ``ceiling'' and not preempt stronger state and 
local action, as is suggested by the Healthy People 2000 objective 
relating to preemption. Involvement of local communities in education 
regarding enforcement of restrictions will help to ensure adequate 
implementation. Furthermore, smoking should be prohibited on all 
international flights that land, stop, or take off in the U.S., given 
that the tobacco industry has stated that it would support such Federal 
legislation in the recent Broin flight attendant class action 
settlement.
    In conclusion, in your deliberations on this issue, please remember 
that harm caused by passive smoke is inflicted on those who have 
decided not to smoke, or, in the case of young children, cannot make an 
informed choice. Even one preventable death among Americans who have 
decided not to smoke should be considered unacceptable.
                                 ______
                                 
Prepared Statement of Alfred Munzer, MD, Past President, American Lung 
                              Association
    Mr. Chairman, and members of the Committee on The Environment and 
Public Works, I am Dr. Alfred Munzer, Past President of the American 
Lung Association (ALA). I am also Director of Critical Care and 
Pulmonary Medicine at Washington Adventist Hospital in Takoma Park, MD, 
where I specialize in the treatment of diseases of the Lung.
    The ALA is the nation's oldest voluntary health organization and is 
dedicated to the prevention and control of lung disease. This 
organization and its medical section, the American Thoracic Society, 
has long recognized the contribution of indoor and outdoor air 
pollution to the development and exacerbation of lung disease. The ALA 
has devoted over three decades to the implementation of programs aimed 
at improving air quality in our homes and in our communities.
    As a pulmonary physician, I all too often see first hand the 
devastation caused by tobacco use. I see the men and women who come to 
me with end-stage lung cancer or emphysema, seeking a medical miracle 
to cure their disease. I see the children who cough and wheeze as their 
asthma is made worse by exposure to smoke exhaled by smokers and that 
comes from the burning end of a cigarette, pipe, or cigar. Smoke of 
this nature has been commonly called involuntary, passive, or 
secondhand smoke. Today, it is generally referred to as environmental 
tobacco smoke, or ``ETS''.
    Mr. Chairman, the American Lung Association believes that all 
workers and the entire public must be protected from ETS. Further, it 
is our strong belief that state and local governments must retain the 
right to enact stronger tobacco control laws.
    These principles are one important factor in our opposition to the 
``Sweetheart Deal'' negotiated by the Attorneys General with the 
Tobacco Industry last June. We also oppose the ``Deal'', and will 
oppose any legislation that grants special protection, such as immunity 
or caps on liability, to the industry. We have testified several times 
recently before committees of this Congress, and our views are well 
known.
    Today, I want to re-state the opinion of the American Lung 
Association and its medical section, the American Thoracic Society, 
that Environmental Tobacco Smoke is a threat to the health, and the 
lives, of all Americans. Much progress has been made on the local and 
state level since the publication of the EPA's 1992 risk assessment 
``Respiratory Health Effects of Passive Smoking: Lung Cancer and Other 
Disorders''. A good example is the recent California action to protect 
patrons and employees of bars by making them entirely smoke free, along 
with restaurants and other public places.
    But once again, the scientific foundation for elimination of the 
ETS threat has come under attack, just as it did immediately following 
publication of the EPA document. I think it is important to understand 
the facts before anyone leaps to any conclusion based on unpublished 
research that is still undergoing peer review. On March 19, 1998, the 
Wall Street Journal printed an article titled ``Smoking Out Bad 
Science'' authored by Ms. Lorraine Mooney, a medical demographer for 
the Cambridge, Great Britain based European Science and Environment 
Forum. In her article, Ms. Mooney attacks a study of ETS conducted by 
the International Agency for Research on Cancer on statistical grounds. 
Several British newspapers also attacked the study. The tobacco 
industry is attempting to use these reports to further its agenda by 
issuing press releases and writing opinion editorial articles that tout 
``no risk''. The press reports and opinion editorials accuse the World 
Health Organization of suppressing this study. That assertion is false.
    The World Health Organization issued a statement on March 9, 1998. 
WHO states that the study did in fact find an increase of 16 percent in 
the risk of lung cancer for non-smoking spouses of smokers, and a 17 
percent increase for exposure to passive smoking at the workplace. The 
study was conducted in 12 centers from seven European countries 
including 650 cases of lung cancer and 1,542 controls and is the 
largest study carried out in European populations to date. However, it 
is the small sample size used in the study that led to the finding that 
neither increased risk was statistically significant.
    WHO concludes ``The results of this study, which have been 
completely misrepresented in recent news reports, are very much in line 
with the results in the similar studies in Europe and elsewhere: 
passive smoking causes lung cancer in non-smokers.''
    Mr. Chairman, there is no need to be confused. The evidence is 
there and it is overwhelming. So let us look back at how the scientific 
body of evidence has been accumulated and also at attempts to discredit 
that evidence.
    ETS has been the topic of discussion for more than 25 years. Its 
health effects were first reviewed in 1972 in the U.S. Surgeon 
General's report on smoking and health. That report was devoted, in 
part, to public exposure to air pollution caused by tobacco smoke. It 
concluded that ``an atmosphere contaminated with tobacco smoke can 
contribute to the discomfort of many individuals.''
    In 1982, the U.S. Surgeon General again examined the issue of 
passive smoking but this time in the context of smoking and the 
development of cancer. At that time there were only three 
epidemiological studies linking passive smoking and lung cancer. Even 
with this limited amount of evidence, the Surgeon General concluded 
that the evidence in these studies is the cause for grave concern 
regarding the possible serious public health problem associated with 
passive smoke and lung cancer.
    By 1986, Federal interest in the health effects of ETS had grown to 
the extent that the U.S. Surgeon General released a report devoted 
entirely to the issue of passive smoking. By that time, the number of 
epidemiological studies had increased to 13, 11 of which showed a 
positive correlation between passive smoking and lung cancer in healthy 
nonsmokers. Based upon these findings, the Surgeon General concluded 
that exposure to secondhand smoke is a cause of lung cancer in healthy 
nonsmokers. He also concluded that children whose parents smoked had an 
increased frequency of respiratory symptoms and infections, compared to 
children whose parents were nonsmokers.
    Asthma is a major area of priority for the American Lung 
Association. Asthma is the leading serious chronic illness among 
children and the major cause of school absenteeism. Asthma deaths from 
1979 to 1993 increased almost 99 percent. ETS exposure is also 
associated with additional attacks and increased severity of symptoms 
in children with asthma. The EPA estimates that 200,000 to 1 million 
asthmatic children have their condition worsened by ETS, and that ETS 
is a risk factor for new cases of asthma in children without a history 
of symptoms.
    Several organizations--the National Academy of Science and the 
International Agency for Research on Cancer--published reports which 
drew conclusions similar to those of the EPA. The International Agency 
for Research on Cancer, for example, released a report on cancer which 
concluded that ``knowledge of the nature of sidestream and mainstream 
smoke, of materials absorbed during passive smoking, and of the 
quantitative relationships between dose and effect that are commonly 
observed from exposure to carcinogens leads to the conclusion that 
passive smoking gives rise to some risk of cancer.''
    In December 1992, the EPA released its report assessing current 
scientific evidence on the risks of exposure to ETS ``Health Effects of 
Passive Smoking: Assessment of Lung Cancer in Adults and Respiratory 
Disorders in Children.'' The risk assessment focused on the potential 
correlation between ETS and lung cancer in nonsmoking adults and 
respiratory disease and pulmonary effects in children. Based on the 
total weight of evidence in the scientific literature, the EPA 
designated ETS as a Group A carcinogen, a rating used only for 
extremely hazardous substances known to cause cancer in humans. It 
ranked ETS in a class of carcinogens which includes asbestos, benzene, 
and radon.
    After evaluating 30 epidemiological studies on lung cancer in 
nonsmoking adults, the EPA determined that ETS is responsible for 
approximately 3,000 lung cancer deaths each year. The agency also added 
that ETS accounts for the development of 20 percent of all lung cancers 
caused by factors other than smoking. For the average adult, ETS 
increases their risk of cancer to approximately 2 per 1,000. From these 
conclusions, it is clear that ETS is a serious hazard to the health of 
nonsmoking adults.
    After evaluating more than 100 studies on respiratory health in 
children, the EPA concluded that ETS exposure increases their risk of 
lower respiratory infections, like bronchitis and pneumonia. ETS is 
known to cause an estimated 150,000 to 300,000 cases of respiratory 
illnesses in children up to 18 months each year. Of these cases, 7,500 
to 15,000 result in hospitalization.
    Also of concern are the risks for children whose mothers smoked 
during and after pregnancy. The U.S. Department of Health and Human 
Services has reported that, under these circumstances, children are 
three times more likely to die of Sudden Infant Death Syndrome (SIDS) 
than children of nonsmoking mothers. The risks of SIDS double for 
children whose mothers smoked after birth and not during pregnancy than 
for children reared in nonsmoking environments.
    The evidence presented represents very sound science and more than 
adequately supports the conclusions by the EPA regarding exposure to 
ETS. Uniquely, each of the studies and reports used to reach this 
conclusion were developed and edited by different processes. In 
contrast to assertions made of opponents of the EPA's findings, such as 
those offered by the tobacco industry, it is this diverse methodology 
which only strengthens the validity of the conclusion of this research 
combined.
    Without spending too much time on the tobacco industry criticisms 
of the risk assessment, let me first remind the committee that after 
60,000 studies linking smoking with disease and death, this industry 
still fails to acknowledge that it produces a lethal product. This 
year, in the Minnesota Tobacco Trial, Walker Merryman, chief spokesman 
for the Tobacco Institute was quoted as saying: ``We don't believe it's 
ever been established that smoking is the cause of disease''. This is 
clearly the same old tobacco industry, denying, offering excuses, and 
challenging any science that links smoking with illness and death.
    This is an industry which has criticized each Surgeon General's 
report since 1964. Among the industry criticisms is the failure of the 
EPA to include studies which show no relationship between ETS and lung 
cancer. Among the studies cited by the industry as examples are several 
funded by the National Cancer Institute:

          Brownson, Ph.D., et. al. Passive Smoking and Lung Cancer in 
        Nonsmoking Women.--Am J Public Health 82:1525-1530, 1992.--This 
        study was published in November 1992, too late for inclusion in 
        the risk assessment. The industry contends that the risk 
        assessment would change if the study was included. However, the 
        author's of the study conclude: ``Ours and other recent studies 
        suggest a small but consistent increased risk of lung cancer 
        from passive smoking. Comprehensive actions to limit smoking in 
        public places and worksites are well-advised.''
          Stockwell, Sc.D., et. al. Environmental Tobacco Smoke and 
        Lung Cancer in Nonsmoking Women. J Natl Cancer Inst 84:1417-
        1422, 1992.--This study was not included in the final risk 
        assessment and again the industry claims it is a negative study 
        therefore left out purposefully. However, the author's 
        conclude: ``These findings suggest that long-term exposure to 
        environmental tobacco smoke increases the risk of lung cancer 
        in women who have never smoked.''

    The real issue here is statistical significance and how it is used. 
In defining the true meaning of statistical significance, I'd like to 
defer to the description used by a well-known environmental 
epidemiologist, Dr. Douglas Dockery, an Associate Professor at the 
Harvard School of Public Health. Dr. Dockery suggests:

          ``A naive critique would say that those studies which are not 
        statistically significant' do not show an effect. However, 
        statistical significance is not a measure of association of 
        environmental tobacco smoke with lung cancer, but rather a 
        measure of the stability of the association. It measures the 
        statistical power of the study. In a crude sense it is a 
        measure of study size, and studies that do not achieve 
        statistical significance are simply too small. This does not 
        mean that they do not provide important information on risks.
          It is not appropriate to discard studies which do not achieve 
        statistical significance, but rather they should be included 
        giving them a weight which reflects the stability, that is the 
        uncertainty, of their effect estimate. This is exactly what the 
        meta-analysis of these studies provides.''

    Mr. Chairman, we at the American Lung Association believe the EPA's 
findings are clear, objective, and complete in regard to ETS. The 
evidence used to show the relative risks associated with exposure to 
ETS, and its linkage to the development of lung cancer, are more 
compelling than similar correlations drawn for other environmental 
carcinogens.
    The California Environmental Protection Agency is the latest to 
concur. In its September 1997, report ``Health Effects of Exposure to 
Environmental Tobacco Smoke'' it states: ``ETS exposure is causally 
associated with a number of health effects.'' Those listed are:
    Developmental Effects--Low birthweight; Sudden Infant Death 
Syndrome (SIDS)
    Respiratory Effects--Acute lower respiratory tract infections in 
children (bronchitis and pneumonia); Asthma induction and exacerbation 
in children; Chronic respiratory symptoms in children; Eye and nasal 
irritation in adults; Middle ear infections in children
    Carcinogenic Effects--Lung Cancer; Nasal Sinus Cancer
    Cardiovascular Effects--Heart disease mortality; Acute and chronic 
coronary heart disease morbidity.
    Mr. Chairman, all of these effects caused by ETS are carefully and 
scientifically documented in the California study--additional, 
compelling evidence for strong measures to control this threat to the 
public health.
    The California report states: ``With respect to lung cancer, three 
large U.S. population-based studies and a smaller hospital based case-
control study have been published since the most recent comprehensive 
review (U.S.EPA, 1992); the three population based studies were 
designed to and have successfully addressed many of the weaknesses for 
which the previous studies on ETS and lung cancer have been criticized. 
Results from these studies and the smaller case-control study are 
compatible with the causal association between ETS exposure and risk of 
lung cancer in nonsmokers already reported by the U.S EPA(1992), 
Surgeon general (U.S. DHHS, 1986) and NRC (1986)''.
    The Scientific Review Panel to the California Air Resources Board 
said; ``Based on the available evidence, we conclude ETS is a toxic air 
contaminant''.
    A toxic air contaminant--how can we continue to expose our citizens 
to a toxic air contaminant indoors?
    The California report also notes annual mortality estimates 
associated with ETS exposure in California, including approximately 120 
deaths from SIDS (Sudden Infant Death Syndrome), 16-25 deaths in 
infants and toddlers from bronchitis and pneumonia, approximately 360 
deaths from lung cancer and 4,220-7,440 deaths from heart disease. 
Thus, ETS has a major public health impact.
    That same California report quantifies the effects of ETS as 
causing between 8,000 and 26,000 new cases of asthma in children yearly 
in the United States as well as exacerbating asthma in between 400,000 
and one million children. And a report by the Australian National 
Health and Medical Research Council (Nov. 28, 1997), after reviewing 
over 400 individual medical studies, concluded that passive smoking 
contributes to the symptoms of asthma in 46,500 Australian children 
each year. Finally, pediatrician Peter Gergen of the Agency for Health 
Care Policy and Research reports on a study of 7,680 children. Compared 
with children in nonsmoking homes, those in homes where adults smoked a 
total of at least a pack of cigarettes a day were twice as likely to 
have asthma between 2 months and 5 years old. This translates, 
according to Gergen, to about 147,000 cases of smoking-induced asthma 
in kids 2 months to 5 years old. (Reported in USA Today, Feb. 3, 1998)
    Nationwide, ETS is responsible for 53,000 deaths every year, 
according to Professors Stanton Glantz, Ph.D. and William Parmley, 
M.D., School of Medicine, University of California, San Francisco. 
Their two studies, ``Passive Smoking and Heart Disease: Epidemiology, 
Physiology and Biochemistry'' (Circulation 1991; 1-8) in 1991 and a 
follow up study, titled ``Passive Smoking and Heart Disease: Mechanisms 
and Risk ``(Journal of the American Medical Association 1995; 273:1047-
1053) in 1995 attribute 37,000 deaths to heart disease, 4,000 deaths to 
lung cancer and 12,000 deaths to other cancers.
    The risk for lung cancer due to exposure from ETS rises 
considerably for food-service workers. Waiters and waitresses have a 
50-90 percent increased risk of lung cancer that is most likely caused 
by restaurant tobacco smoke according to a study, titled ``Involuntary 
Smoking in the Restaurant Workplace'' (Journal of the American Medical 
Association 1993;270:490-493).
    Mr. Chairman, I hope all of this body of evidence I have presented 
to the committee today will enable you to step beyond the criticisms 
offered regarding the validity of the EPA risk assessment and other 
studies, and encourage you to move forward in your efforts to address 
the real issue on the table--adequately responding to the public health 
issue associated with exposure to ETS.
    I urge this committee to take into consideration the growing 
support for smoke-free public places. Each year, the American Lung 
Association publishes ``State Legislated Actions on Tobacco Issues'' 
(SLATI), a complete survey of state tobacco laws. In our 1997 edition, 
we report on restrictions on smoking in public places:

          ``Forty-eight states and the District of Columbia have some 
        restriction on smoking in public places. These laws range from 
        simple, limited restrictions, such as designated areas in 
        schools, to laws that limit or ban smoking in virtually all 
        public places, including elevators, public buildings, retail 
        stores, restaurants, health facilities, public conveyances, 
        museums, shopping malls, retail stores and educational 
        facilities (Vermont). California and Washington require 
        enclosed separately ventilated smoking areas in private 
        workplaces, or smoking must be banned entirely. Of the states 
        that limit or prohibit smoking in public places, 43 restrict 
        smoking in government workplaces and 23 restrict smoking in 
        private sector workplaces''.

    It is clear that most significant progress has occurred at the 
local and state level to protect citizens from ETS. Over two hundred 
and fifty-five communities across the country have enacted ordinances 
that restrict smoking in the workplace. The enormous success of local 
ordinances has resulted in battles with the tobacco industry over local 
control. The tobacco industry has recognized the effectiveness of these 
local clean indoor air ordinances and has spent millions of dollars in 
efforts to defeat them. Their favorite tactic is to support passage of 
weak state laws that preempt the authority of state and local 
governments to enact more stringent regulations. So far, the tobacco 
industry has been successful stripping localities in 13 states of their 
power to pass clean indoor air ordinances. Communities are beginning to 
fight back and in 1997 Maine became the first state to repeal of a 
preemptive clean indoor air law.
    It is imperative, as I indicated earlier, that Congress not limit 
the authority of state and local governments to enact legislation and 
regulations which they believe are necessary to protect their citizens 
from ETS in their jurisdictions. Communities deserve the right to pass 
laws that protect their citizens from breathing secondhand smoke.
    Does the public support smoke-free facilities? The answer is an 
emphatic yes! A majority of Californians believe it is important to 
have smoke-free restaurants and smoke-free bars and nightclubs, 
although to varying degrees. A very large majority (85 percent) believe 
it is important to have smoke-free restaurants. When asked how 
important it is to have smoke-free bars and nightclubs, 55 percent feel 
it is important, with 35 percent saying it is very important and 20 
percent feeling it is somewhat important. There is widespread agreement 
among the public that smoking ordinances are an effective way to reduce 
the number of people who smoke in public places. Eight in ten 
Californians (80 percent) agree with this contention. (Field Research 
Corporation)
    The tobacco industry and their front groups have claimed that 
smoking restrictions in bars and restaurants would devastate the 
hospitality industry. These claims are false. A report by Stanton A. 
Glantz, PhD and Lisa R. A. Smith studied the effect of ordinances in 15 
cities that require smoke-free restaurants and bars. The report, 
published in the American Journal of Public Health, found that smoke-
free ordinances do not adversely affect either restaurants or bars. (Am 
J Public Health 1997;87:1687-1693)
    We believe the 1986 report of the Surgeon General has the best 
recommendation for us to consider. In its conclusion, the report 
clearly states, ``Simple separation of smokers-and nonsmokers within 
the same air space may reduce, but does not eliminate, exposure of 
nonsmokers to ETS.'' Therefore, it is the responsibility of employers 
and employees to ``ensure that the act of smoking does not expose the 
nonsmoker to tobacco smoke'' and for smokers to ``assure that their 
behavior does not jeopardize the health of other workers.'' In 
addition, the Surgeon General stated that smokers have the 
``responsibility to provide a supportive environment for smokers who 
are attempting to stop.''
    The American Lung Association urges you to look to the report of 
the Koop-Kessler Commission for guidance in setting policy on ETS and 
on development of a national tobacco control policy. The Koop-Kessler 
report made a number of specific recommendations regarding ETS:
    Smoking should be banned in all work sites and in all places of 
public assembly, especially those in places where children are present.
    Smoking should be banned in outdoor areas where people assemble, 
such as service lines, seating areas of sports stadiums and arenas, 
etc.
    Schools should be required to be 100 percent smoke-free in all 
areas of their campuses.
    Smoking should be banned on all forms of transportation, including 
bus, train, commuter services, and flights originating in or arriving 
at the us
    Smoking should be banned at all Federal workplaces, including 
branches of the military and the Department of Veterans' Affairs and 
its hospitals.
    The report goes on to recommend that a comprehensive education and 
public awareness program be developed and that economic incentives for 
smoke-free workplaces be established.
    Mr. Chairman, the American Lung Association urges Congress to 
follow these ETS recommendations as well as all of the recommendations 
in the Koop-Kessler report. Then, and only then, can I anticipate being 
slowly put out of a job as the devastation from smoking on our lungs 
and our bodies is diminished and ultimately ended.
                                 ______
                                 
 Prepared Statement of Robert K. Lemons, RPA, CPM, Building Owners and 
               Managers Association (BOMA) International
                              introduction
    Good morning, Mr. Chairman and members of the Committee. My name is 
Robert Lemons. I am president of the Building Owners and Managers 
Association (BOMA) of Boston. I am also Senior Vice President of 
Spaulding & Slye, an integrated real estate services company 
specializing in office, research and development, industrial, and 
retail space.
    Today I am representing our national organization, BOMA 
International. BOMA is North America's largest and oldest trade 
association exclusively representing the office building industry. Its 
16,000 members own or manage over 6 billion square feet of commercial 
property.
             smoking indoors: a major concern for buildings
    Thank you for the opportunity to present testimony today. We 
commend you for your leadership in addressing the important issue of 
smoking indoors.
    BOMA has a strong concern about second-hand smoke in buildings. 
Most Americans spend the majority of their day indoors, and building 
owners and managers have a responsibility to their tenants to provide a 
healthy indoor environment.
    The health risks posed by second-hand smoke are beyond dispute. 
Since 1993, it has been classified as a Group A carcinogen by the U.S. 
EPA, which concluded that second-hand smoke causes as many as 3,000 
deaths from lung cancer each year.
    More and more evidence bolsters such findings. A study conducted 
last fall by the California Environmental Protection Agency concluded 
that second-hand smoke is responsible for as many as 62,000 deaths from 
heart disease, 2,700 deaths from Sudden Infant Death Syndrome (SIDS), 
and 2,600 new cases of asthma a year. The U.S. Surgeon General's Office 
has termed the California study ``the single best, comprehensive review 
of the adverse effects of environmental tobacco smoke.'' (A Business 
Week article highlighting these findings is included as Attachment A.)
    Clearly, steps are needed to protect office building tenants, their 
employees, guests, and clients who may be exposed to this known 
carcinogen.
             boma supports title iv of proposed settlement
    BOMA International believes that the most effective course of 
action is to prevent contaminants from being introduced into the 
workplace in the first place. Second-hand smoke is one of the leading 
contributors to indoor air pollution, and a ban on smoking in the 
workplace would significantly improve the quality of the air we 
breathe.
    On a broader scale, BOMA has worked with industry groups and 
government agencies to disseminate sound guidance aimed at improving 
indoor air quality management in commercial properties. We have pushed 
for needed research on the sources of indoor air quality problems. 
Second-hand smoke is certainly one of those sources.
    When the U.S. EPA first determined that second-hand smoke is a 
Group A carcinogen, BOMA International responded by adopting a 
resolution calling for a Federal ban on smoking in the workplace. (A 
copy of this resolution is included as Attachment B.)
    Title IV of the proposed tobacco industry settlement offers a 
responsible means for achieving this goal. It reflects the same 
approach as taken in the ``Smoke Free Environment Act'' (S. 826), 
legislation introduced by Senator Frank Lautenberg. BOMA International 
has strongly supported the Smoke Free Environment Act since it was 
first introduced in the 103d Congress.
                       benefits of a smoking ban
    Many building owners have already chosen to ban or limit smoking 
within their buildings even if their particular state, county or 
municipality has not yet made it mandatory. In a survey that BOMA 
International conducted last year for our publication Cleaning Makes 
Cents, we learned that 68 percent of the respondents prohibit smoking 
inside their building, and 29 percent limit it to tenant suites. Just 1 
percent of the respondents allow smoking anywhere in their building. 
(See Attachment C for a summary of this survey.)
    Building owners have taken these steps in response to health 
concerns and for other reasons as well. Safety, for example, is a 
sometimes overlooked factor. According to BOMA's Fire Safety Survey, 
conducted last in 1993, smoking was the leading cause of fires in 
buildings, cited by 26 percent of the respondents. (An article 
outlining these results is included as Attachment D.)
    The elimination of smoking from buildings has yet another benefit. 
It reduces cleaning expenses by an average of 10 percent--quite a chunk 
considering that cleaning makes up 13 percent of the average building's 
total annual expenses. A property with a no-smoking policy has no need 
to clean ashtrays and cigarette butts; requires fewer filter changes; 
sees a reduction in wall cleaning and painting; and needs less frequent 
dusting and vacuuming.
                  separately ventilated smoking areas
    Because of the health and liability concerns associated with 
second-hand smoke, the ideal course of action is to eliminate smoking 
in buildings completely.
    Experience indicates, however, that some tenants may want their 
employees to be able to smoke within their leased premises. The 
solution in this case is for the parties involved to agree to the 
creation of a separate designated area, exhausted directly to the 
outdoors and maintained under negative pressure. This arrangement, 
which would be allowed under Title IV of the proposed tobacco 
settlement, is also provided for in the Smoke Free Environment Act, 
which BOMA supports.
    Currently, most office buildings do not have separately ventilated 
areas. Between 8 to 12 percent of respondents to BOMA surveys indicate 
that their building has such an area--but we cannot verify at this time 
what portion of those rooms actually meet the definition of being 
``ventilated directly to the outdoors.''
    We can confirm that the build-out of such areas is extremely 
expensive and may be technically infeasible in some cases. The U.S. 
General Services Administration has estimated the design and 
installation of separate ventilation systems in a new building to cost 
$30-$50 per square foot. For an existing building, figures provided by 
BOMA members indicate much higher costs--over $100 per square foot for 
the actual build-out, plus a similar amount based on the installation 
of furnishings, floor and wall coverings.
                    developing legislative language
    BOMA recommends that, in developing legislative language to 
implement Title IV of the proposed tobacco settlement, the Environment 
and Public Works Committee incorporate S. 826, the Smoke Free 
Environment Act. In particular, we draw your attention to the issue of 
which entities are responsible for administering a smoking ban in 
buildings.
    In multi-tenant buildings, it is reasonable to expect the property 
owner or manager to implement a smoking ban in ``common areas'' of the 
building--in other words, those areas that are not leased to a 
particular tenant. Similarly, it is reasonable to expect the tenants 
themselves to implement a smoking ban within their own leased premises. 
S. 826 defines the term ``responsible entity'' to clarify this issue.
    Building management will take the necessary steps to implement a 
smoking ban and educate tenants on the health risks associated with 
second-hand smoke. However, we cannot take responsibility for building 
occupants who refuse to comply with the ban. If an individual (who is 
not an employee of the building owner or manager) chooses to smoke in 
violation of the smoking ban, the property's owner or manager should 
not be held liable, since the person is not under their direct control. 
This issue is addressed by a paragraph in S. 826 entitled ``Isolated 
Incidents,'' which clarifies that such incidents should not be 
considered violations of the smoking ban subject to penalty.
                               conclusion
    The removal of second-hand smoke would protect building occupants 
by eliminating a recognized source of indoor air quality problems, a 
fire safety hazard, and a liability concern for owners and tenants 
alike.
    BOMA will continue to do everything we can to reduce--and ideally 
eliminate--the threat posed by second-hand smoke in commercial 
buildings.
    Mr. Chairman, we thank you for your interest in this issue and in 
our recommendations for crafting legislative language to make the 
proposed smoking ban a reality. I will be pleased to answer any 
questions you may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

     Prepared Statement of Michael Sternberg, National Restaurant 
                              Association
    Good afternoon, Mr. Chairman and members of the committee. My name 
is Michael Sternberg and I am the owner and operator of Sam & Harry's 
restaurants in downtown Washington DC, and at Tyson's Corner, as well 
as the Music City Roadhouse in Georgetown. I am also a board member of 
the National Restaurant Association and it is on their behalf that I 
appear here today. I would like to thank you for allowing me to testify 
on the subject of environmental tobacco smoke.
    Smoking is an emotional issue, but I hope that we can set aside 
emotions today and look at this issue from a logical standpoint. Simply 
put, I believe that restaurateurs like myself, and not the government, 
should be making the decisions that impact our businesses.
    If a restaurateur attracts customers to his or her restaurant that 
don't smoke and don't like to be around tobacco smoke, then it makes 
sense that the restaurateur would ban smoking from all or part of his 
or her establishment. But if a restaurateur has a clientele whose 
majority consists of smokers, then it would be foolish for him or her 
to ban smoking entirely from the establishment.
    You see, by their very nature, restaurants are in the business of 
offering choices to their patrons, and every effort is made to ensure 
that the dining experience is enjoyable. To that end, many members of 
the National Restaurant Association have elected to ban smoking in 
their establishments while most others have provided separate sections 
for smokers and non-smokers. It's a choice, and it's one that should be 
left to the individual restaurateur.
    While reducing smoking is arguably a laudable goal, the difficulty 
when it comes to the restaurant industry is where to draw the line. One 
suggested approach has been to ban smoking in ``fast food'' 
restaurants. But can those places be defined in a way that does not 
include barbecue restaurants and others who happen to serve customers 
by way of a take-out window? Another approach has been to ban smoking 
in restaurants but to exclude areas that serve as bars--an approach 
that could lead to more liquor licenses being demanded. Still another 
approach being considered would ban smoking except in the tiniest 
bars--essentially allowing smoking in only the most restricted of 
spaces. Still another approach has been for Congress to force the 
Occupational Safety and Health Administration (OSHA) to make the 
decision by promulgating its final rule on indoor air quality. Defining 
the industry and where to draw the line is difficult. Again, we say 
leave it to the restaurant owner and his or her customers to decide.
    A final point that I wish to make is to cite the impact of smoking 
on travel and tourism. Restaurants account for the single largest 
industry among the tourism industries. We represent nearly 800,000 
eating-and-drinking establishments and food service institutions. Of 
these establishments, approximately 400,000 are restaurants, and 
roughly 250,000 of those are single, independent operators. You could 
say that we are a large industry dominated by small businesses. We 
would not survive and thrive if it were not for the business that is 
generated by tourism. Indeed, I operate my restaurants in a city that 
is well recognized for tourism.
    Last year the United States hosted a record 24.2 million overseas 
visitors, a seven-percent increase over 1996, according to the U.S. 
Commerce department. Tourism is one of the nation's largest exports, 
contributing nearly $79 billion to the U.S. economy. At a time when we 
are asking tourists to come to the United States to spend their hard-
earned vacation money or to come here as business travelers, we are 
discouraging them with our smoking policies. This is inconsistent and 
we believe it will cause a loss of jobs for tourism industries like the 
restaurant industry and a loss of tourism dollars for the nation's 
economy.
    We believe, Mr. Chairman, that the market is working as it should 
to determine individual restaurant smoking policies. No blanket 
government directive is needed. This is particularly true since it is 
individual citizens who decide which restaurants to frequent. They are 
free to choose restaurants that reflect their own tastes with regard to 
food, ambiance, convenience, as well as smoking policy.
    Thank you again for giving me the opportunity to appear before you 
today.
                                 ______
                                 
The Hon. John Chafee, Chairman,
Senate Committee on Environment and Public Works,
Washington, DC.
    Dear Senator: I am writing to request that you enter the enclosed 
written testimony into the record for the April 1 Senate Hearing on 
Environmental Tobacco Smoke. I am also faxing the testimony today to 
the Senate Committee on Environment and Public Works.
    As Congress is considering comprehensive tobacco legislation, it is 
imperative that the pervasive problem of ETS exposure is given full 
attention. Action by the Federal Government to protect American workers 
and families from the physical and psychosocial consequences of ETS 
exposure has been long overdue.
    The present moment offers a unique opportunity to make good on past 
omissions and stop the unconscionable injury inflicted by ETS exposure 
on the nonsmoking majority of the people of this Nation. Your 
dedication to this cause will be greatly appreciated.
            Sincerely,
                                           K.H. Ginzel, MD,
                                                         Professor.
                                 ______
                                 
To: Senate Committee on Environment and Public Works, Senate Hart 
Building, Room 407, Washington, DC. 20510

From: K.H. Ginzel, MD, Professor of Pharmacology and Toxicology 
Emeritus, University of Arkansas for Medical Sciences

Re: Written testimony for the Senate Hearing on ETS, April 1, 1998

    The present focus of projected Federal tobacco legislation is on 
smoking, in particular smoking in children, while the hazard of 
breathing the smoke of others, i.e., environmental tobacco smoke (ETS), 
is largely ignored.
    Since 1992, when the Environmental Protection Agency designated ETS 
as a Class A Human Carcinogen (like asbestos, arsenic, benzene, etc.), 
additional evidence for the deleterious effects of ETS has accumulated 
at an increasing rate.
    Most importantly, one of the major lung carcinogens in tobacco 
smoke, NNK, has been identified in the body of individuals who were 
exposed to ETS. This finding complements and strengthens the host of 
epidemiologic studies that have established incontrovertible proof of a 
cause-effect relationship between ETS exposure and disease. After 
active smoking and alcohol, ETS now ranks as the third leading 
preventable cause of death in our society.
    Although lung cancer is the most dreaded consequence, heart disease 
exceeds the former in the sheer number of cases, boosting the latest 
estimate of ETS-related fatalities in this country alone to about 
60,000 per year, according to a recent comprehensive analysis by the 
California EPA. A study published in the Journal of the American 
Medical Association presented evidence that active as well as passive 
smoking leads to an irreversible thickening of arteries, an indicator 
of atherosclerotic progression. Two alarming reports even implicate 
both active and passive smoking in the causation of breast cancer in 
about half of Caucasian women due to protracted detoxification of 
certain aromatic amines hitherto only associated with bladder cancer.
    Smokefree air is especially important for children, born and 
unborn. Passive smoking during pregnancy inflicts two thirds of the 
harm caused by active smoking, which consists, among others, in low 
birth weight, perinatal death, and cognitive and behavioral deficits. 
During infancy respiratory disease is significantly increased. ETS-
exposed children also have a 2-4 fold higher incidence of leukemia and 
may die later in life from lung cancer as a consequence of the exposure 
in childhood.
    There is no question that smoking, i.e., `voluntary' smoking, kills 
about seven times as many Americans as does involuntary smoking: 
430,000 as compared to approximately 60,000 each year. But we have to 
look beyond priorities in numbers.
    Involuntary, or passive, smoking is not just a health issue. 
Inevitably, it also invokes ethical as well as legal aspects. 
Obviously, it is one thing for a smoker to die from lung cancer or any 
other smoking-related disease, but quite another for a nonsmoker to 
succumb to an illness, fatal or otherwise, that was inflicted by 
someone else. People harmed by ETS on the job may seek redress for the 
injuries to their health from employers who have allowed smoking in the 
workplace. The case of restaurant employees is especially serious as 
their exposure to tobacco smoke has been found to be far greater than 
in any other occupational setting.
    Admittedly, even in the case of the smoker voluntariness must be 
qualified. Since almost 90 percent of all adult smokers started as 
children, who may have been lured by the deceitful promises and the 
slick imagery of advertising, compacted into what is amiably called 
`peer pressure', the buzzwords `adult choice' are dubious at best. 
However, since addiction does NOT compel smokers to smoke indoors in 
the presence of nonsmokers, they do have the choice not to expose 
others. Hence, there is no valid excuse to involve innocent bystanders, 
especially children and pregnant women, when the outdoors is vastly 
bigger than all enclosed areas put together.
    Regrettably, because smokers are constantly provoked by the tobacco 
industry and its front groups to insist on their so-called right to 
smoke anywhere and anytime, nonsmokers still depend on government to 
protect them from ETS exposure. In fact, being exposed to the smoke of 
others differs from actively smoking only in intensity of exposure. 
Thus, not granting a smokefree environment is tantamount to making 
smoking mandatory for everyone. Indeed, there are few adults or 
children who do not have nicotine and other poisons present in smoke in 
their blood.
    If smokers claim a `right' to smoke indoors, such `right' obviously 
harms the nonsmoker. On the other hand, the right of nonsmokers to air 
unpolluted by tobacco smoke does not harm the abstaining smoker. In 
short, smoking hurts nonsmokers, but nonsmoking does not hurt smokers.
    Actually, indoor smoking bans benefit smokers in two ways. Those 
who are struggling to give up will be less tempted to relapse in an 
environment that is smoke-free, while smokers who continue to smoke can 
at least avoid the hazard of breathing the sidestream smoke of their 
own and their fellow smokers' cigarettes or cigars.
    But there is more to ETS than physical harm. First, the pervasive 
visibility of smoking in public places as well on TV and in movies 
portrays smoking as a normal social behavior, modeling negatively for 
the growing child and adolescent who learn by imitating adults. This is 
why the nonsmokers' rights movement was rightly judged by Big Tobacco 
as The most dangerous development to the viability of the tobacco 
industry that has yet occurred (1978 Roper Report). Here is the link 
between involuntary and voluntary smoking, the former leading to the 
latter. Smoking in public view helps program and procure the next 
generation of smokers, smoking feeding on smoking, literally 
perpetuating the vicious circle.
    Another sequel to permitting public smoking is the loss of a 
valuable opportunity to signal to the smoker that both active smoking 
and passive smoking are harmful. Parents who cannot light up in 
restaurants may think twice before doing so in their home or car. The 
fact that smoking is still allowed in many indoor environments implies 
for adults and kids that it really cannot be that bad. ``Say NO to 
drugs, but say YES to tobacco'' has been the perennial message of the 
cigarette pushers AND, until now, of the Establishment as well.
    Thus, smoking in public not only recruits the young, but also 
assures that current smokers remain loyal consumers. It opposes our 
efforts and diminishes success in smoking prevention and smoking 
cessation. The need to provide a smoke-free environment is therefore 
not less important than the need to treat the smoker and prevent 
children from starting to smoke. Both are integral parts of one and the 
same problem and should not be separated from each other.
    The main obstacles to ban smoking indoors are (1) concerns that, 
despite ample evidence to the contrary, business could suffer, as in 
the case of bars and restaurants, and (2) the continued denial, 
fostered by the tobacco industry, that ETS is a serious health hazard. 
It is this denial that makes the smoker, especially the militant 
smoker, insist on the fictitious right to smoke wherever (s)he pleases.
    We have failed to educate the general public about the full range 
and magnitude of the devastating health effects of tobacco use in all 
its forms and will continue to fail unless we attack the leading public 
health problem of our time in its entirety. By dividing it up, we will 
be defeated. We have failed to convince smokers that exposing others 
(and themselves) to smoke in enclosed air spaces can cause injuries to 
their health no less severe, albeit delayed and of different kind, than 
can be caused by driving under the influence of alcohol or illicit 
substances. I am confident that the majority of smokers, once they have 
internalized this message, will no longer insist to smoke in the 
presence of nonsmokers as no one today claims the right to drive while 
intoxicated; business concerns will then also be laid to rest.
    All this has to be impressed upon Congress, so that the need of 
protecting Americans from exposure to a major environmental poison and 
its psychosocial implications is fully recognized as an urgent goal of 
Federal legislation.
                                           K.H. Ginzel, MD.
                                 ______
                                 
         New Jersey GASP (Group Against Smoking Pollution),
                                                     April 9, 1998.
Senator John Chafee,
Senate Committee on Environment and Public Works,
Washington, DC.
    Dear Senator Chafee: As you consider ETS issues, following your 
April 1 hearing, I would like you to know that smokefree policies are 
eminently possible in all workplaces and public places. Smokefree Air 
Everywhere (enclosed) tells success stories from restaurants, bars, 
country clubs, malls, outdoor venue, even drug treatment facilities.
    As you can see from our other publications, smokefree dining is 
desired by the majority of our citizens. Most workplaces are already 
smokefree, and restaurants and bars as worksites should also be 
smokefree for the benefit of their employees and customers. Exposure to 
environmental tobacco smoke in restaurants is 3-5 times higher than 
typical workplace exposure, and 8-20 times higher than domestic 
exposure (living with a smoker).
    Please enter our materials into the record on this issue. I believe 
they make it perfectly clear that Congress would do nothing impossible 
by mandating smokefree air in all workplaces and public places. Indeed, 
it's long overdue. The private sector is way ahead of our legislators 
increasing protections for the public.
            Sincerely,
                                            Regina Carlson,
                                                Executive Director.
                                 ______
                                 
Smokefree Air Everywhere: Why and How For Decision Makers in Workplaces 
                           and Public Places
                              introduction
    Surrounded by scientific studies, newspaper articles, and smokefree 
policy statements from employers, shopping malls, sports stadiums, 
restaurants, airports, and others, I find myself working on my fourth 
smokefree policy guide in 18 years. This guide updates On The Air 
(1991), which updated Toward a Smokefree Workplace (1985), which 
succeeded The Case for a Smokefree Workplace (1979). Each has needed 
replacing for the happy reason that new information and attitudes have 
produced steady progress in securing smokefree environments.
    What has changed during these years? Then, we had less evidence 
that smoking hurts nonsmokers. Now, we have abundant information to 
compel policymakers, legislators, and courts throughout the United 
States and around the world to make decisions to limit the harmful 
effects of tobacco. Then, tobacco controls were almost unthinkable. I 
remember one of my first encounters with a legislator. He thundered at 
me, ``You can't ask people not to smoke!'' Now, legislators say, ``Of 
course, we should eliminate smoking in public places.'' (That ``of 
course'' represents years of work.) More than a decade ago, we were 
concentrating on offices and factories as workplaces. Today, we 
recognize that almost every public place is someone's workplace and 
that people need smokefree air when dining, shopping, or attending 
entertainment events as well as at work.
    What hasn't changed? Many people still suffer needless health 
hazards from tobacco smoke pollution at work and in public places. 
There still is a need for information and encouragement to create 
healthful environments. And the methods for initiating smokefree 
policies still are much the same.
    I understand the hesitation people feel when they first consider 
establishing smokefree policies. Like many of the people I have worked 
with, I grew up accepting smoking as a normal part of life. My parents 
smoked. My uncles and aunts smoked. Some of the earliest Christmas 
presents I bought with ``my own money'' were cartons of Chesterfield 
cigarettes. My high school debate team coach, one of my favorite 
teachers, even offered me and my fellow teammates cigarettes. We 
accepted them. We smoked them. We felt so sophisticated.
    But those old attitudes and behaviors, carefully nurtured by the 
tobacco industry, are crumbling in the face of health information and 
citizen activism. The number of smokefree workplaces and public places 
has increased in response. These smokefree environments, in turn, have 
served as good examples, making it easier for more places to become 
smokefree.
    One constant that has delighted me through the years is the happy 
surprise expressed by people who have created smokefree policies. Again 
and again they say, ``It was much easier than we thought it would be. 
We should have done it years ago.'' You, too, can have that success and 
pleasure. This guide was created to ensure that you do. Good luck. And, 
to your good health!
                                 health
    ``Tobacco is the single, chief, avoidable cause of death in our 
society, and the most important public issue of our time.''--C. Everett 
Koop, M.D., former Surgeon General of the United States.
Enormity
    ``Everyone knows'' that smoking is hazardous to the health of 
smokers and nonsmokers. But most people don't realize how enormous the 
problem is. Almost a half million Americans die each year because they 
smoke tobacco or breathe secondhand smoke.
    Government and other health sources estimate between 420,000 to 
500,000 deaths annually--one in five deaths--result from smoking. This 
makes smoking the No. 1 cause of death in the United States. All this 
death is preventable, premature, unnecessary death.
    Secondhand smoke causes as many as 53,000 deaths each year. In 
fact, secondhand smoke is now the No. 3 cause of preventable, premature 
death in the United States, killing as many people as alcohol-related 
motor vehicle accidents.
    Tobacco kills more Americans than alcohol, illegal drugs, homicide, 
suicide, automobile accidents, fires, and AIDS combined.
Environmental Tobacco Smoke
    The U.S. Environmental Protection Agency (EPA) issued a long-
anticipated report on environmental tobacco smoke (ETS) in January 
1993. That report, Respiratory Health Effects of Passive Smoking, 
concluded that ETS--also referred to as secondhand smoke--is 
responsible for approximately 3,000 lung cancer deaths each year in 
nonsmokers and impairs the respiratory health of hundreds of thousands 
of children. No single report has had such an impact on public 
awareness about tobacco since the original 1964 Surgeon General's 
Report concluded that smoking was a major cause of lung cancer.
    The EPA report officially categorized ETS as a known human 
carcinogen, placing ETS in the Class A (most dangerous) category, 
reserved for only a few toxic substances including radon, benzene, and 
asbestos. The report also identified ETS as a cause of serious 
respiratory illness in children, including bronchitis, pneumonia, 
asthmatic episodes, new cases of asthma, and sudden infant death 
syndrome. A later report, published in the Journal of the American 
Medical Association (June 1994), established that nonsmokers exposed to 
ETS at work were 39 percent more likely to get lung cancer than 
nonexposed nonsmoking employees.
    Although the EPA report brought the issue of secondhand smoke into 
the media spotlight, it is only the best known among a number of 
authoritative reports on ETS, including the 1986 Surgeon General's 
Report and a report of the National Academy of Sciences. The EPA study 
limited itself to the effects of tobacco smoke pollution on respiratory 
conditions. Other scientific studies and reports have examined the 
effects of secondhand smoke on heart disease, cancers other than lung 
cancer, and other diseases, as well as effects on children, on 
individuals with pre-existing health problems, and on people with 
exposure to other risks.
    Cardiovascular disease is the leading cause of death in the United 
States. A landmark position paper by the Council on Cardiopulmonary and 
Critical Care of the American Heart Association (1992) concluded that 
each year, 35,000 to 40,000 people die from cardiovascular disease 
caused by ETS. The Journal of the American Medical Association (JAMA) 
published a review (April 1995) which reported the mechanisms by which 
ETS causes heart disease. Written by two professors of medicine in the 
Cardiology Division at the University of California School of Medicine, 
the investigation was based on almost 100 scientific studies, reported 
in peer-reviewed journals, worldwide, since 1990. It analyzed those 
studies and concluded that ETS reduces the ability of the body to 
deliver oxygen to the heart and the ability of the heart to use oxygen. 
ETS increases platelet activity, accelerates atherosclerotic lesions, 
and increases tissue damage following heart attacks. These effects are 
caused by a number of mechanisms, which are responses to the hundreds 
of toxins in tobacco smoke (including carbon monoxide, nicotine, and 
polycyclic aromatic hydrocarbons).
    Nonsmokers are more sensitive to many of these poisons than 
smokers. (The authors pointed out that ``cigarette equivalents'' 
created by the tobacco industry are not appropriate for calculating 
nonsmokers' risks. Please see The Tobacco Industry section for more 
information on ``cigarette equivalents.'') One dramatic illustration of 
the effects of ETS on nonsmokers, from that JAMA study: ``Healthy young 
adults exposed experimentally to secondhand smoke . . . took as long as 
people with heart disease to recover their resting heart rate following 
exercise.'' The JAMA study estimated 30,000 to 60,000 nonsmokers die 
each year because of ETS-caused heart disease and three times that many 
people have nonfatal heart attacks as a result of ETS exposure.
    ETS is linked to other cancers, including cervical cancer. ETS-
caused cervical cancer is believed to result from toxins carried in the 
blood that accumulate in the cervix. The incidence of cervical cancer 
among nonsmoking flight attendants was one reason flight attendants 
fought vigorously for smokefree flights. Circulation, the journal of 
the American Heart Association, reported that more than 10,000 people 
die every year from cancers (other than lung cancers) caused by ETS 
(January 1991).
Children at Risk
    Once upon a time, miners used to take caged canaries down into the 
mines. Sensitive detectors of bad air, the canaries would keel over in 
dangerous conditions, giving an early warning to the miners. Like those 
caged birds, children and fetuses are often exposed, against their 
will, to tobacco poisons; and they are more affected than adults 
because their bodies are small and still developing. Documentation of 
the risks of ETS pollution and maternal smoking to children and fetuses 
has accumulated and is finally reaching the public.
    Financial expert and author Andrew Tobias has been impressed by the 
data and has used his skill and position to bring the information to 
citizens. In 1991 Tobias wrote the text to Kids Say Don't Smoke, which 
was illustrated with children's artwork from the New York City 
smokefree ad contest. Tobias sent the book to 100,000 customers of his 
Managing Your Money program. His subscribers learned that infant deaths 
can be attributed to maternal smoking and that a Swedish study on 
sudden infant death syndrome (SIDS) found that smokers of fewer than 10 
cigarettes a day were twice as likely as nonsmokers to have their 
babies die of SIDS. Heavier smokers were three times as likely to have 
their babies die of SIDS.
    SIDS is only one of many health consequences children may 
experience as a result of maternal smoking. Other studies indicate that 
children born to mothers who smoke, compared to children born to 
nonsmoking mothers, are:
    <bullet> more likely to suffer low birth weight
    <bullet> more likely to be born with cleft lips and palates
    <bullet> more likely to be born mentally retarded
    <bullet> more likely to suffer attention deficit hyperactivity 
disorder
    <bullet> slower in reading and mathematical attainment, and
    <bullet> more likely to die in infancy.
    Even secondhand smoke can affect the outcome of pregnancy. Children 
aged six to 9 years old, born to women exposed to ETS during pregnancy, 
experience more academic and behavioral problems than children whose 
mothers weren't exposed, according to a 1991 study conducted at 
Carleton University, Ottawa, Canada. Researcher Judy Makin reported 
that many of the mothers in the study were exposed to cigarette smoke 
only at work. A growing body of information links ETS exposure of 
nonsmoking women during pregnancy with pregnancy complications, low 
birth weight babies, and infant death.
    Early in 1995, two studies attracted wide media attention. One 
(JAMA, March 8) examined the relationship between SIDS and ETS, noting 
that SIDS is the most common cause of death in infants, causing 50 
percent of deaths among babies two to 4 months old. The JAMA study, 
conducted by the Department of Family and Preventive Medicine at the 
University of California, San Diego, compared 200 babies who died of 
SIDS and their families, with 200 control families, carefully 
controlling for many variables. The study determined that smoking by 
the father, the mother, or others around the baby increased the risk of 
SIDS, and the more a baby was exposed to ETS, the greater the incidence 
of SIDS. The study also linked secondhand smoke exposure of the mother 
during pregnancy to increased SIDS.
    The second study (Journal of Family Practice, April 1995) 
comprehensively reviewed the effects of maternal smoking and ETS on 
pregnancy complications and SIDS. Like the JAMA study on ETS and heart 
disease, this study reviewed all studies worldwide, numbering nearly 
100, including some from as far away as Tasmania. The authors, Joseph 
DiFranza, M.D. and Robert Lew, Ph.D., an associate professor of 
medicine at the University of Massachusetts and a statistician at 
Brigham and Women's Hospital, Boston, estimated that tobacco use is 
responsible for 1,900 to 4,800 infant deaths from perinatal disorders 
and 1,200 to 2,200 deaths from SIDS. ``At least three times as many 
infants die of SIDS caused by maternal smoking as are killed as a 
result of homicide or child abuse,'' wrote the authors. ``While 
deliberate violence and abuse are very serious concerns, cigarettes 
kill many more children.''
    A second report by the same authors examined the effects of ETS on 
disease and death of children. It found that, ``Each year, among 
American children, tobacco is associated with an estimated 284 to 360 
deaths from lower respiratory tract illnesses and fires initiated by 
smoking materials; over 300 fire-related injuries; 14,000 to 21,000 
tonsillectomies and/or adenoidectomies; 529,000 physician visits for 
asthma; 1.3 million to 2 million visits for cough; and, in children 
under 5 years, 260,000 to 436,000 episodes of bronchitis and 115,000 to 
190,000 episodes of pneumonia.'' DiFranza and Lew pointed out that much 
of the exposure of children was not from parental smoking, but occurred 
in schools, child care facilities, and other public places.
    An English study reinforced findings about SIDS. At the Royal 
Hospital for Sick Children, Peter Fleming, a professor of infant 
health, reported that the risk of crib death (SIDS) doubles for each 
hour a day a baby spends in a room where people smoke. ``We were 
astonished by the strength of the association. . . . it is as anti-
social to smoke in a room where there are pregnant women and babies as 
it is to drink and drive.'' said Professor Fleming, adding, ``Having a 
Dad or anyone else in the household who smokes is almost as big a risk 
as having a mother who smokes.'' (British Medical Journal, July 27, 
1996)
    Adolescents who live with smoking parents are at higher risk of 
heart disease because ETS apparently lowers their levels of HDL (good 
cholesterol). Marc Jacobson of the Albert Einstein College of Medicine 
wrote that ``Passive smoke gives teenage girls the higher coronary risk 
of a man and raises boys' risk too.'' (Pediatrics, 1991)
    One expert who puts the issue of children and ETS into perspective 
is Dr. William G. Cahan, now surgeon emeritus at Memorial Sloan-
Kettering Cancer Center, who saw the consequences of children's 
exposure to ETS every day. ``Young, growing tissues are much more 
susceptible to carcinogens than adult tissues are,'' says Dr. Cahan. 
``Bringing up a child in a smoking household is tantamount to bringing 
him or her up in a house lined with asbestos and radon.''
Synergy
    Secondhand smoke is an environmental pollutant and it interferes 
with the human body's ability to resist some other environmental 
pollutants. For instance, it vastly increases the hazards of radon 
exposure. Some individuals are more sensitive than others. Contact lens 
wearers report increased eye irritation when exposed to tobacco smoke. 
Many nonsmokers exposed to tobacco smoke suffer immediate symptoms 
including breathing difficulties, eye irritation, headache, nausea, and 
allergy attacks; these responses exacerbate problems with other 
pollutants. For people with significant health problems such as asthma 
or heart disease, the effects of smoke exposure, added to their other 
health problems, can range from uncomfortable to life-threatening. 
(Please see the Safety section for information on ETS and occupational 
exposures.)
ETS: Potent and Pervasive
    One reason ETS causes so much illness, disease, and death in 
nonsmokers is that it is a potent mix of poisons. Cigarette smoke 
contains more than 4,000 chemicals; more than 200 are toxins. Among 
them are arsenic, benzene, carbon monoxide, formaldehyde, hydrogen 
cyanide, lead, mercury, and vinyl chloride. Approximately 60 substances 
found in tobacco smoke are known to initiate or promote cancer. Many of 
these substances are present in higher concentrations in secondhand 
smoke than in the smoke inhaled directly from a cigarette.
    Another reason ETS has such an impact on health is that tobacco 
smoke pollution is pervasive in American society. Shortly after the EPA 
report was released, the Centers for Disease Control and Prevention 
reported that its testing of 800 people, aged 4 to 91, showed that all 
had signs of recent nicotine exposure whether they smoked or not--
indicating the ubiquity of ETS. In 1989, a similar study by the Roswell 
Park Cancer Institute found 91 percent of nonsmokers had cotinine, the 
major metabolite of nicotine, in their urine. Even among those who did 
not live with a smoker, 84 percent had detectable levels of cotinine in 
their urine samples.
    This same phenomenon was investigated in the workplace. The U.S. 
Environmental Protection Agency and the Naval Research Laboratory 
determined that secondhand smoke in the workplace typically poses 
levels of risk far beyond what the Federal Government allows for other 
cancer-causing substances. This was found to be true for white collar, 
blue collar, and restaurant service workers. Based on data from 4,000 
employees, the level of cotinine found in the blood and urine of 
typical nonsmokers indicated secondhand smoke lung-cancer risks 
thousands of times greater than the acceptable level for other 
carcinogenic residues in air, water, or food. Researchers concluded 
that measures short of banning smoking in buildings were unlikely to 
result in acceptable levels of risk, due to the difficulty and expense 
of completely isolating smoking areas from nonsmokers' air.
    While information accumulates, risks remain. In the September 27, 
1995 issue of JAMA, S. Katherine Hammond and colleagues at the 
University of Massachusetts Medical School reported that their study, 
placing fiber disks treated to react to nicotine at each of 25 work 
sites (including fire stations, newspaper publishing plants, and 
textile plants; in offices, cafeterias, and production areas), showed 
many employees still exposed to ETS at levels that increased the risk 
of lung cancer.
Authorities Agree
    This is a sampling of the information on ETS that has led virtually 
all major health authorities, worldwide, to conclude that ETS causes 
disease and death. Health and scientific authorities that have reached 
this conclusion include:
          American Cancer Society
          American Heart Association
          American Lung Association
          American Medical Association
          Harvard School of Public Health
          International Agency for Research on Cancer
          National Academy of Sciences
          National Cancer Institute
          National Institute for Occupational Safety and Health
          U.S. Department of Health and Human Services
          U.S. Environmental Protection Agency
          U.S. Office on Smoking and Health
          U.S. Public Health Service
          U.S. Surgeon General
          World Health Organization.
Smoking
    Smoking is the No. 1 preventable cause of premature death in the 
United States. It increases:
    <bullet> coronary heart disease
    <bullet> lung cancer
    <bullet> cancers of the skin, lip, mouth,throat, stomach, kidney, 
pancreas, bladder, colon, rectum, anus, cervix, vagina, uterus, penis
    <bullet> leukemia
    <bullet> chronic bronchitis, emphysema, and asthma
    <bullet> stroke, Buerger's disease
    <bullet> complications of diabetes
    <bullet> stomach and duodenal ulcers, Crohn's disease
    <bullet> periodontal disease
    <bullet> osteoporosis, osteoarthritis, disc degeneration
    <bullet> risks of the use of oral contraceptives
    <bullet> impotence, infertility, early menopause
    <bullet> spontaneous abortions, stillbirths
    <bullet> surgical complications, delayed wound healing, amputations
    <bullet> cataracts, glaucoma, blindness
    <bullet> wrinkles, psoriasis
    <bullet> snoring, hearing loss.
    The risks of smoking are so great that half the people who continue 
to smoke will be killed by an illness caused by their smoking The 
consequences of smoking are vast for the same reasons that the 
consequences of secondhand smoke are vast:
    First, tobacco's many potent poisons can affect many organs in the 
human body, increasing the incidence and severity of disease. The 
popular perception is that cancer is the most common health consequence 
of smoking. In reality, it is more likely that a smoker will die of 
heart disease because lung cancer usually takes longer to develop than 
cardiovascular disease. As one thoracic physician said, when asked why 
all smokers don't get lung cancer, ``Most of them die of a heart attack 
first.''
    Heart disease is the leading cause of death in America, and smoking 
is estimated to be responsible for one-fifth of heart disease deaths in 
smokers. Stroke is the third leading cause of death, and smokers have 
approximately twice the risk of nonsmokers.
    And smoking does fill the oncology units of hospitals. Smoking 
causes one-third of all cancer deaths and is responsible for nearly all 
lung cancer. Lung cancer now kills more Americans than any other 
cancer, recently overtaking breast cancer as the No. 1 cancer killer of 
women. Smoking is responsible for other lung diseases, too, including 
80 percent of bronchitis and emphysema--major killers and major causes 
for disability retirements. Chronic obstructive pulmonary diseases such 
as bronchitis and emphysema are the fifth leading causes of death in 
the Nation.
    The second reason the consequences of smoking are so massive is 
that smoking is widespread. Almost a quarter of American adults smoke, 
a veritable epidemic of nicotine addiction.
                                 safety
    ``My uncle hid in a closet to smoke in our house. The clothes 
caught on fire and our house burned down.''--Fifth grader from New 
York, quoted in Kids Say Don't Smoke
Playing with Fire
    Fires started by cigarettes are the leading cause of fire death in 
the United States. Smoking and smoking materials caused 151,900 fires 
in buildings, vehicles, and outdoors in 1993, the most recent year for 
which data are available from the National Fire Protection Association. 
Those fires killed 1,029 people and injured 3,496 people (not including 
firefighters). One-third of the people killed and injured in cigarette-
caused fires are nonsmokers, according to one estimate.
    One reason for the magnitude of cigarette-caused fires parallels a 
reason for the magnitude of the health impact of smoking: cigarettes 
are widely used.
    But, unlike the health hazards of cigarettes, which are inherent in 
the product, the fire hazards could be reduced. All but one or two 
cigarettes on the market are specifically designed to smolder for a 
long time whether smoked or not. Cigarettes would be self extinguishing 
if tobacco was not treated with chemicals and rolled in special porous 
paper. Tobacco companies know how to reduce the fire hazards of 
cigarettes. But manufacturers continue to produce cigarettes that 
smolder because they increase sales. And tobacco company 
representatives continue to insist that cigarettes are not the problem. 
Instead, they assert that furniture, mattresses, and children's pajamas 
and nighties should be more fire resistant.
Accidents
    Smoking is associated with increased rates of accidents, including 
on-the-job accidents and auto accidents. The National Institute for 
Occupational Safety and Health reports that workers who smoke have 
twice as many on-the-job accidents as workers who don't smoke.
    Several auto insurance companies have determined that their policy 
holders who smoke have up to 2.6 times as many auto accidents as policy 
holders who don't smoke. Smokers are 50 percent more likely than 
nonsmokers to be cited for traffic violations and to be involved in 
auto accidents, according to a study published in the New York State 
Journal of Medicine.
    Some possible explanations: Chemicals in cigarettes may affect 
reaction time, reduce night vision, and restrict field of vision. 
Lighting up or using an ashtray may distract drivers. And smokers 
simply may be more willing to take risks while driving--including 
running red lights. As a group, smokers are less educated than 
nonsmokers and tend to engage in more high-risk behaviors, such as not 
wearing seat belts, not exercising, and not being careful about diet.
    Statistics offer an explanation, too. Whenever people are sorted 
into two groups, smoking and nonsmoking, almost all the alcoholics and 
illegal drug users fall into the smoking group (because of the powerful 
association of tobacco with other drug use).
    The presence of those alcoholics and illegal drug users raises the 
accident rate.
Occupational Hazards
    Smoking increases the hazards of occupational exposures for both 
smokers and nonsmokers because tobacco smoke often acts synergistically 
with other pollutants.
    One defense the human body has against the effects of pollutants is 
the action of cilia--tiny, hair-like projections that line the airways. 
Normally, these cilia sweep foreign particles out of the respiratory 
system. But tobacco smoke immobilizes them. Tobacco also can act as a 
vehicle for other pollutants. In the case of some industrial diseases, 
tobacco smoke particles pierce the walls of the alveoli, tiny sacs in 
the lungs, and allow other damaging materials to enter.
    These are two of the known physiological mechanisms that make the 
combination of tobacco smoke and other environmental pollutants 
particularly dangerous. Other mechanisms are still under research or 
are yet to be discovered. But the results are clear. Some findings:
    <bullet> Tobacco smoke in the air complicates any problems already 
existing in office workplaces for smokers and nonsmokers, including 
fumes from reproduction fluids, formaldehyde insulation, and other 
pollutants.
    <bullet> Asbestos workers who smoke are 92 times more likely to 
develop lung cancer than nonsmoking asbestos workers.
    <bullet> Uranium miners who smoke have 10 times the lung cancer 
risk of nonsmoking uranium miners.
                legislation, regulation, and litigation
    ``The company already has in effect a rule that cigarettes are not 
to be smoked around telephone equipment. The rationale behind the rule 
is that the machines are extremely sensitive and can be damaged by the 
smoke. Human beings are also very sensitive and can be damaged by 
cigarette smoke. Unlike a piece of machinery, the damage to a human is 
all too often irreparable. If a circuit or wiring goes bad, the company 
can install a replacement part. It is not so simple in the case of a 
human lung, eye, or heart. . . . A company that has demonstrated such 
concern for its mechanical components should have at least as much 
concern for its human beings.''--Judge Philip A. Gruccio, New Jersey 
Superior Court; Shimp v. New Jersey Bell Telephone Co., 1976
    As this publication goes to press, there is a plethora of legal 
activity on tobacco in legislatures and court rooms throughout the 
United States. Nineteen States and at least 19 counties and cities, 
including Los Angeles, San Francisco, and New York City, are suing 
tobacco companies to recover government Medicare and Medicaid costs for 
treating tobacco-related health problems. One jury has awarded a smoker 
$750,000 and more than a dozen cases are scheduled for trial within a 
year. The Food and Drug Administration has asserted authority over 
cigarettes as drug delivery devices.
    Thirty-five local governments have enacted restrictions on tobacco 
advertising on billboards, on government property, or at point of sale. 
Almost 200 municipalities have banned cigarette vending machines; 
nearly as many have restricted their use; and well over a hundred 
municipalities have eliminated tobacco self-service sale displays. In 
New Jersey, during 1994-1996, municipalities enacted tobacco sales 
controls at the rate of two ordinances a week.
    Legal and legislative action against tobacco smoke pollution began 
in the 1970's, when employees began suing for smokefree workplaces and 
local and State governments began enacting smokefree air laws.
Legislation, Regulation
    Congress enacted legislation making virtually all domestic airline 
flights smokefree, effective in 1990. That was the first Federal 
legislation to control ETS. Since then, comprehensive smokefree air 
legislation has been introduced several times in Congress, but the only 
legislation that has been passed is a law banning smoking in federally 
funded facilities that serve children. The Occupational Safety and 
Health Administration (OSHA) has proposed regulations to virtually 
eliminate smoking in public places and workplaces. This is the first 
time in OSHA's 25-year history that the agency is proposing a zero 
tolerance standard for exposure to a workplace hazard. Hearings on the 
proposed rules concluded early in 1995. But, at press time, the only 
Federal actions controlling ETS are the airline and the children's 
facilities laws.
    Local and State governments have been far ahead of Congress, 
enacting ETS controls since the 1970's. Forty-eight States and the 
District of Columbia have legislation limiting smoking in workplaces 
and public places. Approximately 30 States have moderate to extensive 
controls. Five States (California, Maryland, Utah, Vermont, and 
Washington) have comprehensive legislation and/or regulations 
eliminating smoking in most workplaces and places of public 
accommodation. (Some allow exceptions for bars, hotel rooms, or 
separately enclosed, separately ventilated areas.)
    Approximately 135 local ordinances mandate smokefree workplaces and 
public places, including restaurants. These ordinances are in place in 
Arizona, California, Massachusetts, North Carolina, Ohio, and Texas--in 
communities including Austin, Columbus, Sacramento, and San Francisco.
    Approximately 40 local jurisdictions require smokefree workplaces 
and public places, excluding restaurants. Communities in Arizona, 
California, Colorado, Georgia, Maryland, Massachusetts, New Jersey, 
North Carolina, Ohio, Texas, and West Virginia--including the cities of 
Baltimore, New Braunfels, (Texas), San Diego, and Tempe (Arizona), plus 
seven North Carolina counties--have enacted this legislation.
    Restaurants are required to be smokefree in approximately 60 
communities and counties in 12 States where restaurant-specific 
ordinances have been passed. There are local ordinances in Alabama, 
Arizona, California, Colorado, Maryland, Massachusetts, New Mexico, New 
York, North Carolina, Texas, West Virginia and Wisconsin--in cities and 
counties including Aspen, Flagstaff, Lenox (Massachusetts), Los 
Angeles, and Madison (Wisconsin).
    Approximately 75 cities and counties have passed legislation 
eliminating smoking in bars attached to restaurants. States where 
cities and counties have passed such legislation include Arizona, 
California, Colorado, Massachusetts, New York, and Texas. Communities 
that have passed legislation include Austin, Fort Bragg, Pasadena, San 
Jose, and Nassau County (New York), which includes the popular resort 
areas in the Hamptons. Thirty local jurisdictions prohibit smoking in 
free-standing bars. Legislation exists in communities in California, 
Colorado, Maryland, Massachusetts, Ohio, and Texas--including Boulder, 
a popular tourist city; Howard County (Maryland), a suburban area 
between Baltimore and Washington, DC.; and Amherst (Massachusetts), 
Emily Dickinson's hometown. California passed State legislation 
eliminating smoking in free-standing bars, effective January 1, 1998. 
(Americans for Nonsmokers Rights collects and analyzes ordinances and 
issues lists of 100 percent smokefree local legislation. ANR is in 
Berkeley, California, phone: 510 841-3032.)
    Increasingly, even partial bans that are enacted are quite 
comprehensive. For example, early in 1995 New York City enacted 
legislation banning smoking in businesses, retail stores, indoors and 
outdoors at schools and children's institutions, and in the dining 
areas of all restaurants with more than 35 seats.
                               litigation
Employees Sue for Smokefree Policies
    With the 1993 EPA report on secondhand smoke establishing tobacco 
smoke as a Class A carcinogen--in the same category as asbestos, 
dioxin, and other cancer-causing agents--employees can now seek 
protection against tobacco smoke as an occupational health hazard. (In 
fact, many employers, large and small, responded to the EPA Report by 
eliminating smoking in their workplaces.
    Under the Americans with Disabilities Act (ADA), employees can sue 
for protection against tobacco smoke because it limits access to the 
workplace for people with asthma and others legally classified as 
persons with disabilities who are sensitive to secondhand smoke. Since 
1993, a number of plaintiffs have claimed that their medical 
conditions, exacerbated by ETS exposure, required a reasonable 
accommodation from their employers to protect them from ETS and allow 
them safe access to the workplace.
    The ADA requires employers with 15 or more employees to make 
``reasonable accommodations'' to the known physical limitations of an 
otherwise qualified individual with a disability. The Act defines 
disability as a physical impairment that substantially limits one or 
more major life activities. Major life activities include breathing and 
working, both of which can be substantially limited when individuals 
with severe respiratory or cardiovascular diseases are exposed to ETS.
    In these cases, individuals can identify themselves as disabled 
under the ADA and request a reasonable accommodation from their 
employer. For people who simply cannot tolerate tobacco smoke for 
medical reasons, a reasonable accommodation would be to provide a work 
environment free from exposure to ETS.
    If they are unable to negotiate a solution with an employer, 
employees with disabilities affected by ETS can file a discrimination 
complaint with the us Equal Employment Opportunity Commission (EEOC) or 
state human rights agency. To date, the EEOC has not taken action on 
this issue but rather has issued ``right to sue'' letters to the 
charging party. At that point, the claimant generally has 90 days to 
initiate litigation under the ADA. Damages may be available to 
compensate for actual monetary losses, for future monetary losses, for 
mental anguish, and inconvenience. Punitive damages also may be 
available if an employer acted with malice or reckless indifference.
    Currently, about a half dozen ADA-ETS cases are pending in the 
courts. The plaintiffs in these cases suffer from asthma, heart 
disease, lung cancer, and other severe medical conditions which are 
caused or exacerbated by ETS exposure. (Smokers are not protected for 
nicotine addiction or as persons with disabilities under the ADA or 
anti-discrimination laws.)
    Even before these two powerful new approaches were available, there 
have been a number of grounds employees can use to bring action against 
employers for failure to create a safe and healthful work environment. 
They include: common law duty of the employer to assure a safe 
workplace, assault and battery, intentional infliction of emotional 
distress, handicap discrimination, disability and retirement benefits, 
unemployment compensation, workers' compensation, labor union grievance 
procedures, and wrongful discharge. Here are some examples of cases 
where employees have won smokefree work environments or compensation:
    <bullet> In the 1976 case, Shimp vs. New Jersey Bell, the first ETS 
case, a telephone company representative won a permanent injunction 
banning smoking in the office where she worked. The court said that 
``The evidence is clear and overwhelming. Cigarette smoke contaminates 
and pollutes the air, creating a health hazard not merely to the smoker 
but to all those around her who must rely upon the same air supply. The 
right of an individual to risk his or her own health does not include 
the right to jeopardize the health of those who must remain around him 
or her in order to perform properly the duties of their jobs.''
    <bullet> Andrea Portenier, a resident of Southern California, sued 
her employer for assault and battery because of secondhand smoke in her 
office. Portenier was repeatedly exposed to smoke at work, even though 
her employer, Republic Hogg Robinson Insurance Brokers, knew of her 
medical record of sensitivity to tobacco smoke. The case was settled on 
March 1, 1994 and Portenier received an undisclosed sum for both 
workers' compensation and assault and battery.
    <bullet> Avtar Ubbi, a vegetarian nonsmoker with no history of 
heart disease in his family, sued his employer for an ETS-induced heart 
attack. His job as a waiter in a California bar and grill exposed him 
to tobacco smoke for 5 years. This case was a landmark because it was 
the first heart-disease related court decision in favor of an employee 
exposed to secondhand smoke. Ubhi was awarded $85,000 for medical bills 
and $10,000 in disability compensation. (Ubhi v. State Compensation 
Insurance Fund, Cat `n' Fiddle Restaurant, 1990)
    <bullet> A nurse who worked in a psychiatric unit at a Veterans' 
Administration hospital died of lung cancer. Finding that ETS exposure 
in the workplace caused the lung cancer, the Director of the U.S. 
Department of Labor Office of Workers' Compensation Programs awarded 
death benefits to her widower. The decision concluded that the weight 
of the medical evidence ``. . . is sufficient to establish that the 
claimed fatal condition was causally related to the deceased claimant's 
work exposure to ETS while employed as a Staff Nurse and Head Nurse at 
the VAMC.'' (In re. Wiley, 10.8 Tobacco Products Litigation Reporter 
2.295, No. A9-365951, Ind. 1995)
    <bullet> The U.S. Circuit Court of Appeals for the Ninth Circuit 
ruled that a government worker who was hypersensitive to smoke was 
``environmentally disabled'' and thus eligible for disability benefits 
when working in a smoke-filled environment. Her employer was ordered to 
provide her with a smokefree work environment or to pay her disability 
benefits. (Parodi v. Merit Systems Protection Board, 1982) The Tobacco 
Control Resource Center, Boston, reports that the plaintiff, in 1984, 
received an out-of-court settlement that provided full disability 
retirement pay of $500 per month and a $50,000 lump sum payment.
    <bullet> In White v. United States Postal Service (1987), the EEOC 
ruled.that a letter carrier with a respiratory problem, who had filed a 
discrimination complaint, was not reasonably accommodated when the 
Florida post office where he worked offered him a facial mask and a new 
location for his desk. The EEOC ordered the post office to eliminate 
smoking and ``to ensure that appellant and similarly situated employees 
with physical handicaps related to sensitivity to tobacco smoke are not 
subject to discrimination in the future.''
    <bullet> In September 1982, a Federal District Court in Seattle 
ruled that sensitivity to tobacco smoke is a legal handicap under the 
terms of the Federal Rehabilitation Act of 1973. The case was brought 
by Lanny Vickers, a 44-year-old purchasing agent with the Veterans 
Administration Hospital, who suffered from respiratory problems; his 
employer now provides a smokefree work area. The Act applies to the 
Federal Government and recipients of Federal funds. It requires 
``reasonable accommodation'' for workers with disabilities. Companies 
found to be in violation of the Act risk the loss of all their 
government contracts.
    <bullet> In 1982, the California Court of Appeals ruled that Paul 
Hentzel, who was fired for demanding a smokefree work area, could sue 
his former employer, the Singer Company, for ``intentional infliction 
of emotional distress'' and wrongful discharge. The Court ruled that an 
employee is protected against discharge for complaining in good faith 
about unsafe working conditions.
Employers Defend Smokefree Policies
    Some employers are hesitant to establish smokefree policies because 
they fear lawsuits from employees who smoke. Few employees and/or 
unions have brought such suits. While court results have been mixed to 
date, the trend is to favor employers' right to act, after proper 
consultation with unions. In the case Riddle v. Ampex Corp (1992, the 
Colorado Court of Appeals, upholding an employer's policy, noted that 
``. . . smoking restrictions are a common fact in today's life, not 
only in the workplace but in social and commercial environments as 
well.'' Please see the Unions section for more cases.)
    The tobacco industry, which tries to divert attention from the 
health problems of smoking, has posited a ``right'' to smoke. using its 
considerable financial and political might, the tobacco industry has 
lobbied for legislation backing ``smokers' rights.'' From 1989 to 1995, 
29 States and the District of Columbia passed legislation protecting 
smokers in some or all hiring and firing decisions. (Please see The 
Tobacco Industry section for more information. But these laws do not 
prevent employers from establishing smokefree policies.
Other ETS Litigation
    Individuals have brought suit against public places, including 
restaurants, seeking smokefree air under provisions of the Americans 
with Disabilities Act, which guarantees access to workplaces and public 
places for people with disabilities. (Please see ``Employees Sue . . 
.'' above.) Tenants and condo owners have sought protection from ETS 
citing nuisance, breach of duty to keep premises habitable, breach of 
common law covenant of peaceful enjoyment, negligence, battery, and 
emotional distress. (Please see the Landlords section for more 
information.) Parents and child welfare agencies have obtained 
decisions banning smoking by parents and others around children. 
Prisoners have brought suits seeking freedom from ETS (and freedom to 
smoke).
    Decisions have gone both ways in these cases but establishing a 
smokefree policy is emerging as the course of least legal liability. 
Failing to protect people from ETS becomes more legally hazardous with 
every new scientific study documenting the health hazards of ETS. The 
combination of the EPA report on ETS and the ADA seems particularly 
likely to enhance the chances of success for nonsmoking plaintiffs. 
Following are several cases:
    <bullet> The U.S. Court of Appeals for the Second Circuit ruled on 
April 4, 1995 that three asthmatic children could sue McDonald's and 
Burger King, and declared that a ban on smoking could be a ``reasonable 
modification.''
    <bullet> A nonsmoker who was a guest on a live radio show had cigar 
smoke blown in his face. He alleges that the act was done deliberately 
to cause him ``physical discomfort, humiliation or distress,'' violated 
his right to privacy, constituted battery, and violated a Cincinnati 
Board of Health regulation. A trial court dismissed all his claims, but 
on January 26, 1994, the Court of Appeals, First Appellate District of 
Ohio, reinstated the battery claim and ruled that when one of the 
defendants intentionally blew cigar smoke in the plaintiff's face, 
under Ohio common law, he committed a battery. (Leichtman v. WLW Jacor 
Communications)
    <bullet> In prisons, the question has arisen whether involuntarily 
exposing a prisoner to ETS might constitute cruel and unusual 
punishment in violation of the Eighth Amendment. In Helling v. 
McKinney, a convicted murderer housed in a cell with a heavy smoker 
brought a civil rights action against prison officials. On June 18, 
1993, in a 7-2 decision, in an opinion written by Justice White, the 
U.S. Supreme Court held that ``. . . we cannot rule at this juncture 
that it will be impossible for McKinney [the prisoner] . . . to prove 
an Eighth Amendment violation based on exposure to ETS.'' The court 
also rejected prison officials' central thesis that only deliberate 
indifference to current serious health problems of inmates is 
actionable under the Eighth Amendment.
    A Summary of Legal Cases Regarding Smoking in the Workplace and 
Other Places is available from the Tobacco Control Resource Center, 
Northeastern University School of Law, Boston, phone: 617 373-2026. 
Regularly updated, it lists and describes approximately 200 cases. 
Taking Action to Protect Yourself from Tobacco Smoke in the Workplace 
describes a number of cases and gives information on how employees can 
file claims. That publication, written for non-attorneys, is available 
from Action on Smoking and Health, Washington, DC, phone: 202 659-4310.
                                 unions
    ``[Banning workplace may be counterproductive because] noticeable 
levels of . . . tobacco smoke are a visible indicator that ventilation 
is inadequate. . .''--Union official, from Where There's Smoke, 
published by the Bureau of National Affairs, 1987
    ``Many unions have already adopted positions supporting worksite 
tobacco control policies; 77 percent of national unions and 43 percent 
of local unions either banned or restricted smoking in union 
offices.''--First nationwide survey of unions on worksite smoking 
policies, Dana-Farber Cancer Institute, 1995
Smokefree Air or Free To Smoke
    Unions, like other sectors of society, increasingly support 
smokefree policies. Decision makers creating smokefree policies need to 
be cognizant of unions because a significant percentage of employees 
(approximately 16 percent of all wage and salary workers in the United 
States) are union members and about half of private-sector, non-
agricultural jobs are in worksites where a majority of either the 
production employees or the non-production employees are unionized. The 
National Education Association (NEA), for instance, represents more 
than 2.2 million school employees in 70 percent of the nation's school 
districts. (From New Solutions, A Journal of Environmental and 
Occupational Health Policy, Summer 1996, published by the Oil, Chemical 
and Atomic Workers International Union, AFL-CIO. That volume contained 
the proceedings of the conference, ``Smokefree or Free to Smoke? 
Labor's Role in Tobacco Control,'' Washington, DC, September 1995. it 
is an excellent resource.)
    Unions are not uniform in their response to smokefree policies. The 
Bakery, Confectionery and Tobacco Workers Union has opposed smokefree 
policies, believing that more smokefree policies mean fewer jobs for 
its members, and has asked other unions to join it in solidarity on 
this issue. Yet other unions support smokefree policies, both to 
support the health of their members and to further the professional 
goals of their members.
    Musicians in California fought legislation which postponed until 
1998 the original 1997 implementation date for State legislation 
banning smoking in bars. This was an issue of workplace health for 
singers and musicians who play in bars and clubs. Flight attendants 
were one of the first groups of employees to work for nonsmoking 
policies in their workplaces. Unions that advocate smokefree policies 
to protect the health of their members, also ask other unions to join 
them in solidarity.
    ``Some unions that have taken a proactive position on smoking 
include: Fire Fighters (the issue of presumptive laws on cancer and 
heart disease); nurses (encourage programs of positive health 
education); and teachers (responsibility to educate young people). Some 
of these unions have supported far-reaching positions such as not 
investing in tobacco company stocks, eliminating Federal tobacco 
subsidies, increasing cigarette taxes, encouraging legislative 
initiatives, and opposing coercion of other nations to accept U.S.-
produced tobacco.'' (New Solutions) The NEA supports smokefree policies 
in its members' workplaces and in public places, in addition to many 
anti-tobacco measures, including controls on tobacco advertising. In 
California, all labor unions, including building trades unions, 
supported State legislation to ban smoking in all workplaces.
    The first nationwide, systematic study of unions on this question, 
surveying almost 200 unions, national, international, and local, was 
conducted in 1995 by the Dana-Farber Cancer Institute. It determined 
that 17 percent of national unions supported a complete ban on smoking 
in the workplace; 26 percent supported restrictions; only 3 percent 
actively opposed nonsmoking policies. Among local unions, 15 percent 
supported a complete ban; 33 percent supported restrictions; and 8 
percent actively opposed nonsmoking policies. Most national unions had 
eliminated or restricted smoking in their offices; 52 percent were 
smokefree and 25 percent allowed smoking only in designated areas. 
Among local unions, 31 percent were entirely smokefree and 12 percent 
had limited smoking to designated areas (New Solutions).
    Just as unions differ in their response to questions about tobacco 
use, individual union members differ in their tobacco use. This poses a 
dilemma for some unions. ``This is a very touchy area,'' one official 
said. ``I file grievances for nonsmokers. I file grievances for 
smokers. Arguing both sides undermines the arguments.''
    A primary role of unions is to protect the health and safety of 
union members. In 1991, the National Institute for Occupational Safety 
and Health, responding to increasing evidence that ETS is a health 
hazard, recommended that workers be protected. Unions have a 
responsibility.
    Some union leaders fear that smoking issues might obscure other 
problems in the workplace, that management might use a smoking ban as 
an excuse not to clean up other health hazards in the workplace. ``Just 
eliminating smoke is not going to take care of indoor air quality,'' 
one union official commented. Some union leaders also worry that 
employers will maintain that employee health problems result from 
smoking rather than workplace exposures.
    This ambiguity has led some unions to adopt a position of ``no 
position'' on smokefree policies. But that surrenders union's role on 
the issue. With employers conscious of health care dollars spent 
because of tobacco, unions can be at a disadvantage. As one of the 
participants of the Washington, DC. labor conference put it, ``. . . 
when we have to put an extra 50 cents into your health and welfare 
contribution (to pay for smoking-related illnesses), it truly does come 
out of the wage negotiation.''
Legal Issues
    The National Labor Relations Board (NLRB) has ruled that regulation 
of smoking by management is a ``term or condition of employment'' and a 
subject for collective bargaining (304 NLRB 957, 1991, quoted in New 
Solutions). New Solutions cites an evaluation of 92 published decisions 
in which management prevailed in upholding proposed policies on smoking 
twice as frequently as unions succeeded in blocking them. Relatively 
few unions have taken employers to court over this question, compared 
to the thousands of employers who have implemented smokefree 
workplaces. Following are cases where employers have been challenged by 
unions for instituting smokefree policies and one case in which a union 
and an employer were challenged by an employee for not instituting a 
smokefree policy:
    <bullet> An arbitrator had to decide whether a company's 
establishment of a new smokefree policy violated the Collective 
Bargaining Agreement between the company and a union in Koch Refining 
Co. and Oil, Chemical and Atomic Workers International Union, Local 6-
662. The union argued that a 1987 policy restricting smoking was fair. 
The company said that it had notified the employees in 1988 that it was 
eventually going to ban all smoking anywhere on its premises. The 
arbitrator decided that ``. . . the Company's rule is suited to Company 
purposes and it cannot be considered capricious or arbitrary.'' 
Therefore, the union's grievance on behalf of its smoking members was 
denied.
    <bullet> In the case of W-I Forest Products Co. (304 NLRB 957, 
1991), an administrative law judge (ALJ) initially ruled that smoking 
bans are not a mandatory subject of collective bargaining. A three-
member panel of the NLRB ruled that not every management practice that 
affects employees is necessarily a mandatory subject of bargaining, 
because some management practices are strictly matters of 
``entrepreneurial concern'' and an employer has no duty to bargain. 
However, the panel ruled that the ALJ had erroneously assumed that 
``protecting employee health and carrying out recommendations of 
various reports by the Surgeon General are core entrepreneurial 
purposes of a lumber mill,'' and that, while ``[t]hese may be laudable 
objectives for any employer . . . they do not go to the heart of 
Respondent's business. . . .'' Thus, a rule that forbids smoking is 
``germane to the work environment,'' and, therefore, a mandatory 
subject of bargaining.
    <bullet> In a 1993 case in New Jersey, a union grieved a unilateral 
implementation of a smoking ban as violating the employer's obligation 
to negotiate over terms and conditions of employment. The employer in 
the case (In re. Association for Retarded Citizens, Monmouth Unit, Inc. 
and Federation of N.J.A.R.C. Staff, Local 3782, NJSFT, AFT, AFL-CIO, 
8.2 Tobacco Products Litigation Reporter 8.4, 1993), had opened a new 
building which, according to a memorandum circulated by the employer, 
would be smokefree. The employer asserted that smoking is not a term 
and condition of employment under applicable law and therefore did not 
require negotiation with the union. There had been no prior negotiation 
with the Federation regarding smoking; the matter was brought to 
arbitration. The arbitrator ruled that the Federation did not have a 
right to negotiate over whether or not smoking should be banned in the 
new building. Therefore, the grievance was denied.
    <bullet> An example of how societal trends can move the law is seen 
in the case of In re. Akron Brass Co. and International Association of 
Machinists & Aerospace Workers Lodge 1581, 93 LA 1070 (1989). A 
unilaterally promulgated no-smoking policy, to be implemented in three 
stages, was ruled unenforceable as to the third stage (a total ban on 
smoking). The arbitrator ruled that management did have an exclusive 
right to establish reasonable shop rules but also ruled that such a 
rule was not reasonable because of the rarity of instances in which 
such a total smoking ban had been instituted. Four years later, 
however, the same arbitrator ruled (at 101 LA 289, 1993) that the 
company could impose a total smoking ban. By implementing such a ban, 
``Akron Brass is conforming to an industrial pattern that is now 
widespread--indeed, is increasing--and, as well, is now widely approved 
by arbitrators.''
    <bullet> Unions that don't protect members from ETS may expose 
themselves to legal liability. United Auto Workers Local 594 was sued 
by a member who wanted protection from ETS. In January 1996, Robert 
McCance, a wood modeler in the General Motors Truck Group engineer unit 
in Pontiac, Michigan, filed a lawsuit against his union as well as his 
employer, saying neither took his grievances seriously (Flint Journal, 
January 15, 1996).
The Benefits
    The primary benefit of a smokefree environment for unions is that 
it protects union members from ETS. A smokefree policy also encourages 
members who smoke to reduce their smoking or become nonsmokers, thereby 
improving their health and reducing the exposure of their families to 
secondhand smoke. These result in lower health care costs for everyone. 
Another plus for unions: Studies have found that when tobacco control 
policies are well defined and consistently enforced, they minimize 
polarization between smoking and nonsmoking members.
Working Together
    The trend toward providing smokefree environments is advancing, in 
workplaces with union members and in the workplaces of unions:
    <bullet> When the city of Seattle went smokefree in the 1980's, 
city managers had to deal with dozens of unions. Agreements were 
reached with all and the smokefree policy was enacted.
    <bullet> In the mid-1980's, the Communications Workers of America's 
northwestern region area director, Sue Pischa, was faced with requests 
from nonsmoking members for smokefree air at work. Responding to her 
members' needs, she became a pioneer in tobacco-control policy 
development among union leaders.
    <bullet> In 1989, the Ford Motor Company began initiating smoking 
restrictions in all of its United States facilities. A Ford spokesman 
said the rules had been suggested to top management by a committee of 
employees that had studied the issue for a year.
    <bullet> In the early 1990's, in Contra Costa County, California, 
the Central Labor Council surveyed its 85 affiliated unions on the 
issue of a county ordinance prohibiting tobacco smoke in public places. 
Seventy percent of the affiliates favored such an ordinance. In fact, 
they all had smokefree policies in place at their affiliate offices 
already. In addition, the parent organization of all the labor unions 
in the State and the parent organization of all the building trades in 
the state fully supported tobacco controls.
    <bullet> Communications Workers of America Local 1037, which 
represents 6,000 State employees in 450 work sites in New Jersey, has 
vigorously worked to help its members get smokefree work environments, 
has offered smoking cessation programs to its members, and has a 
smokefree environment in its offices in Newark.
    <bullet> General Motors' Service Parts Operations in Lansing, 
Michigan decided on a smokefree policy in 1994, when 640 members of UAW 
Local 1753 voted two to one for the new rule, which was initiated by 
the workers.
    <bullet> The United Auto Workers have adopted a policy on smoking 
for their headquarters, Solidarity House in Detroit, and other offices 
where 1,000 employees work. The policy, which has been in place for 
several years, allows smoking only in separately enclosed, separately 
ventilated areas, according to Frank Mirer, director of health and 
safety.
                               economics
    ``I smoked away a Porsche.''--New nonsmoker, calculating his costs 
for 40 years of smoking
    Smoking and environmental tobacco smoke hurt the bottom line for 
employers and proprietors of public places. They increase:
    <bullet> health and dental care costs
    <bullet> absenteeism, tardiness, lost productivity
    <bullet> disability retirements, survivors' benefits
    <bullet> property damage, fires, accidents
    <bullet> maintenance costs
    <bullet> air cooling, heating, and ventilation costs
    <bullet> health, life, property, and fire insurance costs
    <bullet> morale problems, disputes over ETS, offended customers, 
lost business
    <bullet> litigation costs.
Health Care and Lost Productivity
    In 1985, at the request of the Subcommittee on Health of the House 
Ways and Means Committee, the U.S. Office of Technology Assessment 
developed estimates of smoking-related health care costs borne by 
government through Medicare and Medicaid programs. That was one of the 
first attempts by Congress to put a price tag on tobacco problems. 
Calculating only for the three major categories of smoking-related 
diseases--cancer, cardiovascular disease, and respiratory system 
disease--the OTA estimated $12 to $35 billion costs in health care 
because of tobacco use and $27 to $61 billion costs in lost 
productivity every year.
    Over the last decade more attempts have been made to quantify the 
costs of smoking, especially as health care costs rise. A current best 
estimate is $50 billion annually for health care costs and another $50 
billion for lost productivity.
    Numbers of that magnitude are numbing. One antismoking advocate 
offers a more comprehensible calculation: The average pack of 
cigarettes at $2.50 produces costs of $5.00. But he acknowledges that 
his calculations do not include the ``savings'' that result from 
smokers' shortened life spans.
    Here are some more specific studies, conducted by various 
organizations, looking at different populations and different areas of 
costs:
    <bullet> The Coalition on Smoking or Health (consisting of the 
American Cancer Society, American Heart Association, and the American 
Lung Association reported that ``Even though smokers die younger than 
the average American, over the course of their lives current and former 
smokers generate an estimated $501 billion in excess health care 
costs.'' (``Saving Lives and Raising Revenue,'' February 1995)
    <bullet> In 1991, the Massachusetts Department of Public Health 
published Smoking: Death, Disease, and Dollars, estimating more than 
$1.5 billion of costs in Massachusetts each year for medical care, 
premature death, and lost income due to illness as a result of tobacco 
use.
    <bullet> In 1992, the California Department of Health Services 
published a 200-page document detailing the ``multibillion dollar 
burden on Californians'' from tobacco use. That study calculated $7.6 
billion in 1989 for direct medical costs and lost productivity due to 
illness and premature death due to smoking. By the mid-1990's, that 
price tag was upped to $10 billion.
    <bullet> Union Camp Corporation evaluated the health costs of 700 
employees and discovered that those who certified that no covered 
family members used tobacco products cost the company $462 less in 
health care costs in 1992 than those who smoked. Among 400 production 
employees for whom there was absenteeism data, nonsmokers cost the 
company $284 less sick pay.
    <bullet> In a study of 2,500 postal employees, the absentee rate 
for smokers was 33 percent higher than for nonsmokers. (American 
Journal of Public Health 82:29, 1991)
    <bullet> Smokers are absent from work 50 percent more than 
nonsmokers; they are 50 percent more likely to be hospitalized; they 
have 15 percent higher disability rates; their absenteeism rate from 
work is 50 percent higher. (New England Journal of Medicine, April 7, 
1994, and Southern Medical Journal, January 1990)
    <bullet> Wanda Hodges, director of operations for the Dollar Inn in 
Albuquerque, found her smoking employees were late to work 50 percent 
more frequently than nonsmoking employees.
    <bullet> Chief Charles Rule of the Alexandria, Virginia Fire 
Department, more than a decade ago, calculated that a disability 
retirement cost the city $300,000 more than a routine retirement. No 
nonsmokers had ever been placed on heart and lung disability in their 
department, according to the Chief.
    <bullet> Employees who take four 10-minute work breaks a day to 
smoke actually work 1 month less per year than workers who don't take 
smoking breaks. (Action on Smoking and Health, March 1994)
    <bullet> A study conducted by the Midland Division of Dow Chemical, 
with 5,693 employees, demonstrated that the company spent $657,000 
annually in excess wage costs alone because of smoking by employees.
    The range of these estimates and experiences indicates that 
economic calculations about smoking's impact are complicated. One 
complication: Until recently, most nonsmokers in the United States were 
exposed to ETS. That compromises their value as control subjects. (And 
it increases their health care costs. In general, the more extensive 
the exposure of nonsmokers to ETS, the more their health care costs 
increase.)
Maintenance
    Smoking and ETS increase property damage, fires, accidents, and air 
heating, cooling, and ventilation costs, as well as maintenance 
expenses.
    Smoking is almost universally banned near computers, precision 
instruments, and other delicate equipment because owners want to 
protect their investment in that equipment. The experiences of computer 
repair technicians and telephone repairers validate that prudence; they 
report a lower incidence of service calls at smokefree facilities. The 
first lawsuit in which a nonsmoking employee won an injunction banning 
smoking in her workplace turned on the fact that the employer, New 
Jersey Bell, protected its electronic switches from smoke but did not 
show as much concern for its ``human equipment.'' (Shimp vs. NJ Bell, 
1976)
    Fires and accidents have an economic toll as well as a human toll. 
The National Fire Protection Association reports $391 million direct 
property damage for smoking-related fires in 1993. (Please see the 
Safety section for more information on fires and accidents.)
    Air cooling, heating, and ventilation costs can be reduced by 
smokefree policies. ASHRAE standards (set by the American Society of 
Heating, Refrigeration, and Air Conditioning Engineers) specify 
ventilation rates required in workplaces and public places, with 
different rates for offices, food preparation areas, rest rooms, 
industrial shops, operating rooms, etc. Like a menu in a Chinese 
restaurant, ASHRAE standards now have two columns, one listing rates 
for smokefree areas, the second showing increased fresh air exchanges 
needed for smoking areas.
    Smoking and ETS create maintenance headaches and costs, increasing 
litter, odors, cleaning requirements, and the need to paint more 
frequently, as well as necessitating the purchase of ashtrays, 
cigarette receptacles, even smoking ``lounges.'' The Financial Times 
(London) quoting the Organisation for Economic Cooperation and 
Development, wrote that construction and maintenance costs are 7 
percent higher in buildings that allow smoking than in buildings that 
are smokefree, and creating a separately enclosed, separately 
ventilated smoking area can cost $100,000 or more (March 29, 1996).
    In flight, smoking increases maintenance costs. Paul Turk, speaking 
for U.S. Air said, ``A substantial amount of smoke in the cabin will, 
over time, mean you've got to spend more time cleaning the interior, 
and your ventilation system gets kind of gummed up.'' Air Canada, which 
has been smokefree since 1993, says it saves hundreds of thousands of 
dollars on its cleaning bills. Both experiences were cited in the New 
York Times (June 30, 1996).
    Other companies have reduced tobacco-caused maintenance problems:
    <bullet> When Merle Norman Cosmetic Company in Los Angeles 
eliminated smoking, it saved $13,500 the first year because of reduced 
housekeeping costs. (It also reported lower absenteeism and increased 
productivity.)
    <bullet> After Unigard Insurance in Seattle went smokefree, its 
maintenance contractor voluntarily reduced his fee by $500 per month. 
Vice President Robert Barnitt said the contractor told him cleaning 
staff no longer had to dump and clean ashtrays or dust desks and clean 
carpets as frequently.
    <bullet> At the Dollar Inn, Albuquerque, maintenance costs are 50 
percent lower in nonsmoking rooms.
    <bullet> In a survey of cleaning and maintenance costs among 2,000 
companies that adopted smokefree policies, 60 percent reported 
reductions (Personnel, August 1990).
Insurance
    The impact of tobacco use on health, life, fire, and property is 
accurately reflected in the response of insurance underwriters. Dozens 
of companies offer discounts on life, disability, and medical insurance 
for nonsmokers. Among them are Aetna, Metropolitan, Mutual of Omaha, 
Prudential, and Phoenix. Three tobacco conglomerates own insurance 
companies that offer discounts. American Brands owns Franklin Life; 
Loews owns CNA; and British American Tobacco owns Farmers. CNA recently 
offered $500,000 of life insurance to 30 year olds for $425 if they 
were smokefree or $935 if they smoked. Landlords and restaurants with 
smokefree premises have negotiated lower fire and property insurance 
premiums.
Contentions
    Disputes over smoking are unsettling for customers and proprietors, 
producing a psychic cost. Tim King, a partner and manager of Le 
Colonial, a popular Vietnamese restaurant in Beverly Hills, equates the 
lighting of a cigarette with the drawing of a gun (New York Times, June 
30, 1996). ``If someone gets poised to smoke, you can immediately feel 
the tension building around the room. People sit around waiting for 
something to happen. They know there's going to be a confrontation. 
Then once they light up, it takes about 2 seconds for at least 10 
people to jump up and complain.''
    Like this proprietor, employers who find themselves mediating 
disputes among employees about smoking versus breathing smokefree air, 
schools that try to assign dormitory space based on smoking and 
nonsmoking preference, and restaurants with empty tables in the smoking 
section while customers wait to be seated in nonsmoking, all know the 
meter is running. There is an economic cost from these problems as well 
as a human cost.
    Worst scenario, employers and proprietors may find themselves in 
court for not protecting employees and members of the public from ETS. 
These costs can be avoided with a smokefree policy. (Please see the 
Legislation, Regulation, and Litigation section and the Especially For 
section for more information.)
Worldwide Costs
    Around the globe, society foots an enormous bill for tobacco. In a 
world where many go hungry, land is being used to grow tobacco instead 
of food crops. Ten to 20 million people could be fed with the land used 
for tobacco crops, according to Dr. Judith MacKay, Executive Director 
of the Asian Consultancy on Tobacco Control, Hong Kong. Money that 
families need for food, shelter, or health care is spent on tobacco.
    ``. . . to grow tobacco is to destroy the trees--and land. Tobacco 
curing requires an enormous amount of wood. The unheralded scandal of 
the tobacco industry is the damage to land in developing nations. The 
United States Global Report 2000 . . . identifies deforestation as the 
most serious environmental problem now facing the Third World . . . one 
out of every eight trees cut down is used for curing tobacco.'' (``The 
Environmental Impact of Tobacco Production in Developing Countries,'' 
New York State Journal of Medicine, December 1983)
    Profits for tobacco farmers? In less developed countries, tobacco 
farmers make a profit of 2 percent while the multinational tobacco 
companies realize 79 percent return, according to Dr. MacKay.
    Even in the United States, the economic benefits of tobacco accrue 
primarily to the tobacco companies. American tobacco farmers and 
manufacturing employees are making less as tobacco companies make more. 
The companies are automating production (which eliminated 28 percent of 
manufacturing jobs between 1982 and 1992), buying more tobacco abroad, 
and building factories in countries with cheaper labor.
    American tobacco companies say they provide 800,000 jobs in the 
United States, a figure disputed by experts outside the industry. Even 
accepting industry figures, balancing those jobs against more than 
400,000 people a year who die from tobacco-related deaths, means that 
one person must die each year to sustain two jobs. Thus, a 44-year 
career for one employee of Philip Morris or R.J. Reynolds must be 
supported by the deaths of 22 of his or her fellow Americans.
    This awful calculation also assumes that money not spent on tobacco 
would be lost to the economy; actually it could be spent on other 
products and services, creating new jobs. A study, ``The Economic 
Implications of Tobacco Product Sales in a Nontobacco State'' (JAMA, 
March 9, 1994), concluded that ``Reducing or eliminating tobacco 
product spending in Michigan will increase employment in the State, as 
well as health.''
    The World Bank has recognized the health and economic disaster of 
tobacco and, in 1992, created a formal policy to discourage the use and 
production of tobacco. The World Bank now refuses to invest in tobacco 
production, processing' or marketing. Speaking about the economic 
burden of the global trade in tobacco, at the 9th World Conference on 
Tobacco and Health in Paris, October 1994, Howard Barnum, senior 
economist at the World Bank, declared, ``The world tobacco market 
produces an annual global loss of U.S. $200 billion.'' At that 
conference, Oxford University Press issued Mortality from Smoking In 
Developed Countries 1950-2000 by Peto and others, predicting increased 
tobacco-related deaths. In response, Barnum wrote that those increased 
deaths ``. . . would approximately double the estimated net economic 
costs of tobacco.'' (Tobacco Control, 1994; 3:358-361)
Dollar Returns of Smokefree Policies
    Thousands of employers and proprietors of public places throughout 
the United States have instituted smokefree policies. Many have become 
smokefree in compliance with legislation, regulation, or litigation. 
They experience minimal costs; usually, savings result. (Please see the 
Especially For section and Smokefree Workplaces and Public Places lists 
for the names and experiences of many.) The city of San Luis Obispo 
passed a 100 percent smokefree restaurant and bar ordinance in 1990. 
The ordinance had no measurable impact on the profitability of San Luis 
Obispo bars and restaurants, or on sales tax revenues. That experience 
is typical. (Please see the Legislation, Regulation, and Litigation 
section and the Especially For section for more information.)
    The U.S. Environmental Protection Agency has analyzed the costs and 
benefits of smoking restrictions, estimating the effects of proposed 
Federal legislation to eliminate smoking in most workplaces and public 
places. In its April 1994 report, the EPA concluded that benefits would 
exceed estimated costs by $39 to $72 billion.
    One cost of smoking controls would be expenses involved with 
increased longevity, for instance, more pension payments. Dr. Marvin 
Kristein, professor of economics at the City College of New York, and 
probably the first economist to analyze smoking issues, wrote, ``. . . 
defending smoking as a way of protecting pension systems is more 
socially inefficient and crueler than simply poisoning a selective 
group of the population over 65 chosen by lottery.'' (New York State 
Journal of Medicine, January 1989)
    As Dr. Kristein's observation illustrates, cost is not really the 
bottom line in human decisions. Most organizations provide safe and 
healthful environments because they value their employees and their 
customers. One such caring decisionmaker is Andrew Smith, who was 
president of Pacific Northwest Bell, the employer of 15,000 people and 
the phone company for Washington, Oregon, and Idaho, when it went 
smokefree October 15, 1985. (It is now part of US WEST.) About their 
decision, Smith stated, the ``. . . bottom line is our employees. 
Pacific Northwest Bell cares about the people who work here.''
                           smoking prevalence
    Tobacco company executive, when asked if he smoked: ``Are you 
kidding? We reserve that right for the young, the poor, the black, and 
the stupid.''--Reported by David Goerlitz, former Winston cigarette 
model
    Most people don't smoke. More than three out of four American 
adults are nonsmokers. Studies and reports by the U.S. Centers for 
Disease Control, the National Cancer Institute, and the American Cancer 
Society in the mid-1990s showed adult smoking prevalence below 25 
percent, with men's rates slightly higher and women's prevalence 
slightly lower.
    Major predictors of smoking among adults are less education and 
lower income. Among people with fewer than 12 years of education, 
smoking rates are 32 percent; within that group, men are more likely 
than women to smoke and, in some communities, especially in the South, 
male smoking rates may exceed 40 percent. African-American men have 
smoking rates of approximately 31 percent. Smoking is increasing among 
Hispanics, traditionally a low-smoking population. Smoking prevalence 
among Hispanic men now averages about 25 percent, with wide variation 
by country of origin and degree of acculturation.
    Smoking is increasing among women, after declining from the late 
1970's to the late 1980's. ``This is particularly disturbing because 
more women today die of lung cancer than die of breast cancer, and lung 
cancer is totally preventable,'' says Dr. Michael Eriksen, director of 
the U.S. Centers for Disease Control, Office on Smoking and Health.
    Almost all smoking begins in childhood. More than 90 percent of 
smokers start before they reach 21; almost half of firsttime smokers 
are children not yet in their teens. More than 3,000 young people join 
the ranks of regular smokers each day, according to the American Cancer 
Society. Latest information shows tobacco use rising by minors, up 7 
percent between 1991 and 1996.
    Other information from the Centers for Disease Control showed that 
smoking is most prevalent among people 25 to 44 years old, native 
Americans, and those who live below the poverty line. Therefore, places 
where people from these groups are concentrated may expect higher than 
average smoking prevalence.
    Prevalence also varies by region. The States with the lowest 
percentages of smoking are Utah (13.2), California (15.5), Hawaii 
(17.8), New Jersey (19.2) and Idaho (19.8). The States with the highest 
prevalence of smoking are Kentucky (27.8), Indiana (27.2), Tennessee 
(26.5), Nevada (26.3) and Ohio (26.0).
Most Smokers Want To Be Nonsmokers
    As many as nine out of ten current smokers say they want to quit, 
according to numerous studies conducted through the years by health 
organizations such as the American Lung Association, government 
agencies, polling firms, and others. The 1994 National Health Interview 
Survey found that more than 69 percent of current smokers wanted to 
quit smoking.
    Smokers are worried about the consequences of their smoking. In a 
1989 national survey conducted by The Wirthlin Group, a national public 
opinion research firm, 83 percent of smokers reported they believed 
they were at risk for emphysema and chronic bronchitis and two-thirds 
of them considered themselves addicted to smoking.
    One potent demonstration of smokers' desire to quit smoking: Every 
year, one out of three smokers makes a serious attempt to quit, 
according to the American Cancer Society.
    Favorable opinions about smokefree policies in workplaces and 
public places are almost as high among smokers as nonsmokers. One 
reason people who smoke are receptive to tobacco control is because 
smokefree environments support their desire to gain control over their 
addiction.
    While the late 1980's saw lung cancer surpass breast cancer as the 
leading type of cancer death for women, the early 1990's saw a 
heartening change: By 1992, half of all Americans who had ever smoked 
had quit smoking. More than 40 million Americans have quit smoking. In 
the words of Edwin B. Fisher, Jr., Ph.D., associate professor of 
psychology at Washington University in St. Louis, ``That's one of the 
most dramatic examples of voluntary human behavior change in history.''
                             public opinion
    ``Public opinion on restricting smoking really couldn't get much 
clearer. This survey Iby the National Cancer Institute] indicates that 
the vast, vast majority of Americans favors restricting smoking in 
public places and that public policy is lagging behind pubic 
opinion.''--Russell Sciandra, Associate Director, Smoking Control 
Program, Roswell Park Cancer Institute
    Both nonsmokers and smokers overwhelmingly support tobacco controls 
in workplaces and public places. This support has grown over the years. 
The polls, studies, and referenda described below were conducted by a 
variety of organizations among a variety of populations, using 
different methods--telephone polling, interviews, etc. Results vary and 
there is a strong consistency of support.
National Polls
    A 1991 survey of ten cities by the U.S. Centers for Disease Control 
found that 98 to 100 percent of those interviewed supported restricting 
or banning smoking in hospitals and doctors' offices; 93 to 99 percent 
supported restrictions or bans in government buildings, indoor sports 
arenas, and restaurants; 90 to 95 percent advocated restrictions or 
bans for private worksites. Support for controls in bars and bowling 
alleys ranged from 62 to 88 percent.
    In 1992, the Sierra Health Foundation found a clear majority of 
voters favored total elimination of smoking in public places. Ninety 
percent or more supported smokefree child care and health care 
facilities. Eighty to 88 percent was the range of support for smokefree 
public transportation, movie theaters, workplaces, offices, indoor 
sporting events, public buildings, and retail shops. Seventy to 76 
percent wanted total bans in taxi cabs and restaurants. Even bowling 
alleys and bingo parlors garnered support of 65 percent.
    The U.S. Current Population Survey, which queried 222,409 adults, 
reported the following results in 1994:
    <bullet> 57 percent of all adults favored a ban on smoking in work 
areas; 39 percent favored restrictions
    <bullet> 54 percent of all adults favored a ban on smoking in 
shopping areas; 40 percent favored restrictions
    <bullet> 66 percent of all adults favored a ban on smoking at 
indoor sports events; 28 percent favored restrictions
    <bullet> 45 percent of all adults favored a ban on smoking in 
restaurants; 51 percent favored restrictions.
Local Polls
    The 1993 Massachusetts Tobacco Survey was a telephone survey of a 
representative sample of adults and youth (aged 12 to 17) in 11,500 
households across the State. It found that:
    <bullet> 47 percent supported a ban on smoking In restaurants; 51 
percent supported restrictions
    <bullet> 46 percent supported a ban on smoking in public buildings; 
52 percent supported restrictions
    <bullet> 58 percent supported a ban on smoking at indoor sporting 
events; 38 percent favored restrictions
    <bullet> 19 percent supported a ban on smoking at outdoor sporting 
events; 52 percent supported restrictions.
    A statewide poll in New Jersey, conducted by the Eagleton Institute 
for the University of Medicine and Dentistry of New Jersey in 1995, 
found that smoking bans were favored by:
    <bullet> 98 percent for public schools
    <bullet> 80 percent for indoor sporting events
    <bullet> 70 percent for workplaces
    <bullet> 64 percent for shopping malls
    <bullet> 62 percent for restaurants.
Older Polls
    These studies from the 1990's, including the massive U.S. Current 
Population Survey, are consistent with the findings of hundreds of 
other recent studies. But even 20 years ago, public opinion supported 
tobacco controls. As early as 1975, 70 percent of Americans wanted 
smoking limited in public places including restaurants, according to 
the U.S. Government survey, ``Adult use of Tobacco.'' In 1977, 84 
percent of those surveyed supported separate sections or a ban on 
smoking in public, according to a Gallup poll.
Those Who Smoke
    People who smoke also support smokefree policies, according to 
local and national opinion polls through the last two decades, 
including some by the tobacco industry. Not surprisingly, smokers' 
support for smokefree policies is lower than nonsmokers' support, but 
usually falls only a few percentage points lower and almost always 
includes a majority of smokers. One poll asked a question about tobacco 
restrictions to which smokers gave higher affirmative response: It 
asked, ``Should the sale of cigarettes be banned?'' Apparently, some 
smokers would like to be protected from temptation.
All Sectors of Society
    Almost all sectors of society desire smokefree policies. Business 
travelers are a well-educated, higher-income segment of society. As 
expected from these demographics, they support smokefree policies. A 
1995 survey by the International Air Transport Association, of more 
than 1,000 frequent business travelers, found 68 percent of travelers 
worldwide favored a complete ban on smoking on all flights and 78 
percent of North Americans surveyed favored a full ban. The State 
Building and Construction Trades Council in California, the parent 
organization of all the building trades in the State, supported a bill 
to ban smoking in all workplaces in the State--a position that 
contradicts stereotypes about construction workers. The parent 
organization of all labor unions in the State also supported the 
legislation. A major national survey released by the Robert Wood 
Johnson Foundation in early 1995 showed broad support for tobacco 
controls to help protect children from becoming smokers. The support 
cut across age, gender, ethnicity, ideology, political party, 
geographic region, and smoking status.
    Public opinion is shifting the tobacco policies of many 
establishments. When Clancy's Place restaurant in Princeton, New Jersey 
polled its customers about smoking policies, 86 percent favored a 
smokefree restaurant. In response, Clancy's became smokefree. Hotels, 
too, are experiencing increasing preference for smokefree environments. 
Business travelers are choosing nonsmoking rooms more often than they 
were 5 years ago, according to a study by Cahners Magazine Network. 
Half of more than 2,000 executives surveyed in 1992 said they request 
nonsmoking rooms, up from 40 percent in 1987. Embassy Suites, with 110 
all-suite hotels in the United States and Canada, increased its 
smokefree suites from 51 to 75 percent of each hotel in 1995, after 
repeated requests from its guests. (Please see the Public Places and 
Restaurants sections for more information.)
Tobacco Country
    Even in the heart of tobacco country, smoking restrictions and bans 
garner support. The overwhelming majority of adults polled in Kentucky, 
the nation's largest burley tobacco-producing State, said they favor 
banning or limiting smoking in public places. The poll, conducted by 
the Louisville Courier-Journal and released in 1987, found that 72 
percent of those questioned wanted smoking restrictions in offices, 
restaurants, and airplanes. In metropolitan Richmond, Virginia, where 
Philip Morris is the largest private employer, a Richmond Times-
Dispatch poll (July 1996) found that 75 percent of those polled 
approved of smoking restrictions in public places.
    In Greensboro, North Carolina, home of one of the world's largest 
cigarette-manufacturing plants, a city ordinance to ban smoking in 
large retail stores and require nonsmoking sections in restaurants was 
on the ballot in 1989. It passed, though only by 173 votes out of more 
than 29,000 cast. The Tobacco Workers International Union, in an effort 
to repeal the ordinance, forced a special election in 1991. In the face 
of a well-financed publicity campaign to overturn the smokefree 
legislation, the citizens of Greensboro came back even stronger in 
support of the ordinance, voting to retain it by seven to one.
In the Polling Booth
    There are now several States and hundreds of municipalities that 
have enacted smokefree air legislation and regulations, many after 
public referendums or high-profile public debates. For instance, 
Boulder, Colorado voters approved a total ban on smoking in stores, 
workplaces, restaurants, and bars by a 55 percent vote in 1995. Other 
communities where voters approved tobacco controls include Wichita 
Falls, Texas; Long Beach, California; Flagstaff, Arizona; and, as 
described above, Greensboro, North Carolina.
    (Please see the Legislation, Regulation, and Litigation section for 
a list of State and local laws and the Especially For section for more 
information on popular support for smokefree policies in specific 
sites.)
                           policy prevalence
    ``Nearly two-thirds of all workers reported that their employer did 
not permit smoking within their work area.'' --National Cancer 
Institute, 1996
    The waitress with a cigarette dangling from her mouth as she wipes 
the counter . . . the college professor smoking his pipe as he lectures 
to students . . . the company president pictured in the annual report, 
caught in a thoughtful pose with his cigarette . . . the reporters in 
the smokefilled newsroom--these images are dated. Workplaces and public 
places are becoming smokefree places.
    There have been two notable progressions in these changes. Most of 
the early smokefree policies were in ``workplaces''--offices and 
factories. Then other places, including hospitals, schools, public 
transportation, restaurants, and shopping malls joined the movement.
    The pioneers in the move to establish smokefree policies tended to 
be small companies, not surprisingly, because they tend to be more 
flexible and more innovative. These first, few decisionmakers to make 
their companies smokefree environments were often individualistic 
entrepreneurs, even mavericks--strong people willing to try new ways. 
Then larger companies followed suit. With substantial workforces, which 
included medical directors and corporate attorneys, they were both 
motivated and able to respond to the growing medical and legal 
information. Today, most larger organizations are smokefree. Now 
smaller organizations, the bulk of whom were not among the pioneers, 
are catching up.
Evaluations of Policy Prevalence
    The first comprehensive estimate of the prevalence of smokefree 
workplaces throughout the United States, based on interviews with more 
than 100,000 workers, was conducted in 1992 and 1993 by the U.S. 
Department of Labor. Overall, 81.6 percent of employees reported that 
their employer had some policy to restrict smoking; 46 percent reported 
a total prohibition of smoking in the workplace. Nearly two-thirds 
reported that their employer did not permit smoking within their 
immediate work area. White-collar workers were more than one-and-a-half 
times as likely as service workers and nearly twice as likely as blue-
collar workers to be covered by a smokefree policy. Employees in health 
care occupations enjoyed the highest percentage of smokefree 
workplaces; food-service workers were least likely to have a smokefree 
workplace.
    Other studies, conducted by publications, government agencies, and 
business groups, amplify this major evaluation by the Department of 
Labor and indicate the proliferation of smokefree policies. Most 
studies have focused on office workplaces. (Please see the Especially 
For section and the Smokefree Workplaces and Public Places lists for 
more information in specific sites.)
National Studies
    <bullet> Eighty-five percent of more than 800 companies surveyed 
had nonsmoking policies in place, up from 36 percent, according to a 
1991 survey by the Society for Human Resource Management and the Bureau 
of National Affairs. More than one-third were entirely smokefree. 
Respondents cited their reasons for initiating smokefree working 
environments--concern about employee health and comfort (79 percent), 
employee complaints (59 percent), and State and local laws (36 
percent). A survey of 50 Fortune 500 companies, conducted by Corporate 
Health Policies Group, Inc., found that 56 percent of the companies 
either banned indoor smoking completely or limited it to a few, well-
ventilated, designated smoking areas. Both studies indicated many 
companies were planning to make their policies more comprehensive.
    <bullet> A 1992 survey by the Office of Disease Prevention and 
Health Promotion of the U.S. Department of Health and Human Services 
determined that 87 percent of worksites had formal tobacco control 
policies and 34 percent were totally smokefree. A later study by the 
Department, in 1993, reported smokefree workplaces in more than 57 
percent of worksites.
    <bullet> Smokefree workplaces increased by 24 percent, from 32 
percent in 1991 to 56 percent in 1993, according to a 3-year survey 
conducted by U.S.A. Today.
    <bullet> The International Facility Management Association surveyed 
its members and found that 71 percent of workforce facilities didn't 
allow smoking in any areas of their buildings, up from 42 percent in 
1991, according to a report in the Daily Camera Colorado) in February 
1995.
Local Studies
    <bullet> A 1992 study by Colorado Business Magazine found that 67 
percent of Colorado's top 200 corporations were entirely smokefree.
    <bullet> Fifty-three percent of Massachusetts adults work at 
companies that ban smoking indoors, according to the 1993 Massachusetts 
Tobacco Survey. The survey also found that small employers were less 
likely to eliminate smoking. In Boston, 64 percent of companies with 50 
or more employees reported they had bans. (That survey also found that 
in 46 percent of smokers' homes there was no smoking permitted 
indoors.)
    <bullet> In Union and Essex Counties in New Jersey (which contain 
the cities of Newark and Orange, East Orange, South Orange, and West 
Orange), all but one of 43 companies with more than 1,000 employees 
were totally smokefree, according to a 1994 study by the American Stop 
Smoking Intervention Study (ASSIST), a Federal project. Based on 
evaluations of 208 worksites with 500-999 employees in 1995, ASSIST 
determined that 135, or 65 percent of the smaller companies, were 
smokefree.
                   smokefree policies reduce smoking
    ``Before Procter & Gamble went smoke-free, it calculated `persona, 
efficiency' would be cut by more than 13 percent if an employee took 
six 10-minute smoke breaks a day. But productivity is no longer an 
issue: Fewer employees smoke, says spokeswoman Linda Ulrey.''--USA 
Today March 1994
    The primary reason for adopting a smokefree policy is to provide a 
safe and healthful environment. But the welcome secondary effects of 
smokefree policies are several: They encourage smokers to choose to 
become nonsmokers; they reduce the number of cigarettes smoked by 
employees who continue to smoke; and they help former smokers to remain 
nonsmokers.
    One of the earliest studies that verified these common sense 
results was published in the American Journal of Public Health in 1981. 
But since then, other studies have reinforced these findings.
    A 1991 study by the University of California School of Medicine 
determined that employees who smoked consumed 45 fewer packs of 
cigarettes per year if they worked in smokefree workplaces. That study 
(Archives of Internal Medicine, June 1993) also found that smokefree 
workplaces had significantly fewer regular smokers than workplaces that 
allowed smoking (13.7 percent compared to 20.6 percent). In addition, 
more comprehensive nonsmoking policies were associated with more 
willingness of smokers to contemplate quitting.
    In another study, smokers in worksites with a mandatory smoking ban 
reduced their total smoking on average by one pack a week, or 15 
percent. (American Journal of Public Health, May 1994, p. 8)
    Hospitals, among the first non-office worksites to create smokefree 
policies, have many health policy analysts in their community to track 
results. They found similar changes:
    <bullet> In Baltimore, Johns Hopkins Hospital found a 20 percent 
reduction in the number of cigarettes smoked per day and 51 percent 
reduction in the number of cigarettes smoked during work hours 
following the implementation of its smokefree policy. The Hospital also 
reported a 25 percent decrease in smoking prevalence (from 22 percent 
to 16 percent). Its study appeared in the Summer 1993 Tobacco Control, 
an international journal.
    <bullet> One year after the Ochsner Clinic in New Orleans 
implemented a smokefree policy, employee smoking prevalence dropped 
from 22 to 14 percent and, of those who continued to smoke, 81 percent 
smoked fewer than eight cigarettes per day. At New England Deaconess 
Hospital, 26 percent of previous smokers became nonsmokers, following a 
new smokefree policy, and a third of remaining smokers reduced their 
cigarette consumption (Chest, 84:206, 1983).
    <bullet> In the first year after a smoking ban was instituted at 
the Harvard School of Public Health, 27 percent of the smokers there 
quit smoking. In smokefree hospitals, 36 percent of employees who quit 
smoking attributed their decision to the smokefree policy. (Archives of 
Internal Medicine, January 1991, p. 32)
    Telephone operating companies were among the first companies to 
adopt smokefree policies and gain the benefits. A 1991 survey of New 
England Telephone Co. employees found that a smokefree policy helped 
them become nonsmokers. Twenty months after the company eliminated 
smoking on the job, 21 percent of the smokers had become nonsmokers, 
compared to a normal annual quit rate in comparable population groups 
of 2 to 5 percent. Forty-two percent of the successful quitters 
attributed their smoking cessation to the company policy.
    In Australia, workplace smoking bans also reduced rates of smoking, 
particularly among heavier smokers, who reduced their consumption by 
more than 25 percent. (``Effects of Workplace Smoking Bans on Cigarette 
Consumption,'' American Journal of Public Health, February 1990)
    The benefits of smokefree policies are increased when coupled with 
vigorous education. The U.S. Air Force, which is pursuing a policy and 
education program with the goal of creating a tobacco-free Air Force, 
reduced smoking prevalence from 44 percent in 1982 to 29 percent in 
1992.
                              common sense
    ``It's illegal to burn leaves outdoors. How come people are burning 
leaves indoors where I work?''--Jeff May, school teacher, New Jersey
    Individuals and organizations may be apprehensive about creating 
smokefree air policies. There are several possible reasons: Society has 
allowed smoking considerable social respectability; cigarettes are one 
of the most heavily advertised products; the tobacco industry is a 
powerful political force; and smoking, like any addiction, is difficult 
to deal with in a sensible manner.
    Common sense is an important American value, and it can be valuable 
in effecting change. The tobacco industry attempts to thwart smokefree 
policies by challenging the results of scientific studies or twisting 
the issue into one of civil liberties to distract attention from the 
public health problem. Policy makers can counter these tactics by 
helping people employ their common sense: People know that clean air is 
better than dirty air, that smoking kills, that freedom of choice is 
better than involuntary smoking.
    To help decisionmakers overcome hesitation, to change attitudes 
about tobacco, and to increase acceptance of smokefree air policies, 
here are some common sense perspectives.
Re-thinking the Status Quo
    It is difficult to look objectively at something that is part of 
the status quo.
    The scenario below offers an adventure in attitude role-playing, a 
chance to see the status quo in a new light:
    A representative of Life Cigarette Company comes to a manager 
saying, ``We'd like to market our product in your company. It comes in 
these nifty packets with pretty designs and fancy wrappings. This is an 
American agricultural product. Our Founding Fathers grew it; our 
country was sustained by it in our earliest days. It contains no 
calories, fat, or cholesterol. It's low in sugar. We will supply 
machines to dispense the product conveniently to your employees and 
customers.''
    ``Of course . . . one-third of your employees who use our product 
will get heart disease and one out of ten of the users will suffer lung 
cancer, a disease that was almost unheard of before our product. users 
will be absent from work twice as frequently as nonusers. Half of all 
long-term users will die prematurely because they consume our product. 
People using our product also will make nonusers ill and will make them 
angry. Nonusing employees or customers, who are in the majority, may 
sue you for protection from our product. Pollution from our product 
will damage delicate electronic equipment in your company. You will 
have more fires. Carpets will be burned. There will be increased 
ventilation problems.
Hazardous Substances
    Tobacco smoke can be compared to other substances in the 
environment, using standards applied to other toxins. It is not 
completely known what is in cigarette smoke. Tobacco companies have 
eluded Federal laws and regulations requiring disclosure of 
ingredients. As John Banzhaf, Professor of Law at George Washington 
University and Executive Director of Action on Smoking and Health, 
says, ``I could go out tomorrow and manufacture a cigarette made of 
tobacco, saccharin, arsenic, and horse manure, and I'd be subject to 
almost no government regulation.'' (In August 1996, Massachusetts 
became the first State to require tobacco companies to disclose the 
ingredients and nicotine yield levels of their products.)
    Among the constituents of tobacco smoke that have been identified, 
the two best known are carbon monoxide and nicotine. The American Lung 
Association reports that an office worker sitting next to a two-pack-a-
day smoker is exposed to carbon monoxide levels twice as high as 
allowed by the Occupational Safety and Health Administration in 
industrial settings. Nicotine is almost omnipresent in the blood and 
other bodily fluids of nonsmokers. (Please see the Health section for 
more information.) Ammonia, used in toilet cleaners, and hydrogen 
cyanide, used in gas chambers, are present in tobacco smoke. If judged 
by the standards applied to other environmental toxins, tobacco smoke 
would be deemed a hazardous substance.
Employee/ Student Assistance Programs
    Administrators respond to other health problems and other drug 
addictions that affect their employees, students, or customers. They 
offer inoculation, education, incentives for good health choices, 
testing, and drug withdrawal programs. One of the most important 
lessons communicated in those programs is that people who allow others 
to continue their addictions are enablers of addiction. Organizations 
without smokefree air policies are enablers of nicotine addiction.
Providing for Citizens Who Have Disabilities
    Workplaces and public places provide special facilities, ramps and 
wheelchair-accessible toilets, for people with disabilities. Often it's 
very expensive to provide these accommodations. However, another group 
of individuals with disabilities is overlooked: People with health 
problems such as asthma or heart disease are at risk in a smoke-filled 
environment. Ironically, they could be accommodated at little or no 
expense.
Freedom of Choice
    Jacquelyn Rogers, the founder of Smokenders, recognizes that 
smoking is compulsive. But she points out that breathing is 
involuntary. A smoker can use alternative nicotine delivery systems 
postpone a smoke, refrain from smoking, step outside to smoke, or 
choose to become a nonsmoker. A nonsmoker cannot choose to refrain from 
breathing for an hour in a restaurant or 8 hours at work.
A Legal Product
    Tobacco industry spokespeople argue that tobacco is a legal 
product. The ``legitimacy'' of tobacco needs some rethinking. If 
tobacco were a new product, it would not be allowed to be introduced 
into commerce today, given what is known about it. If decisionmakers 
were hindered by history, there would never be change and improvement. 
Child labor and slavery would still be legal.
    Tobacco is really a quasi-legal product. Special licenses are 
required to sell it. Cigarettes can't be advertised on the airwaves. 
Some jurisdictions have banned billboards and other tobacco promotions. 
The FDA has promulgated controls on tobacco marketing. It's illegal to 
sell tobacco to minors. Tobacco use is forbidden in many places. A more 
accurate statement is that tobacco is a dangerous, controlled substance 
like alcohol and firearms. Indeed, the Federal governement groups them 
together in the Bureau of Alcohol, Tobacco, and Firearms.
The Parallel with Alcohol
    Alcohol and tobacco, the most widely used drugs, are the most 
destructive drugs. A useful parallel exists in the process of change 
society is pursuing about alcohol. There is a growing awareness about 
how destructive alcohol is and changes are underway to reduce its 
harmful impact. Legislatures are raising the drinking age and 
increasing penalties for drunken driving. Employers are offering more 
treatment programs for alcohol-addicted employees and eliminating the 
use of alcohol at company parties. People are being urged to provide 
nonalcoholic drinks at parties and to say ``No'' to friends who want to 
drive when drunk.
    Similarly, society is recognizing that tobacco's toll is much 
greater than previously thought. Communities are stepping up efforts to 
ensure that children remain nonusers, and that nonsmokers are protected 
from secondhand smoke. Employers and managers of public places are 
creating smokefree policies. People are eliminating ashtrays from their 
homes and putting up signs saying ``Welcome to another smokefree 
home.''
                          the tobacco industry
    ``We are, then, in the business of selling nicotine, an addictive 
drug. . . .''--Memo, Brown & Williamson tobacco company, general 
counsel's office. July 17, 1963
    Decision makers creating smokefree environments may encounter 
tobacco industry arguments and tactics. Four major tobacco industry 
strategies are:
    <bullet> challenging the scientific information on smoking and ETS
    <bullet> using arguments that divert attention from the health 
issue
    <bullet> using (or creating) other groups to advance its position
    <bullet> using its economic and political power.
Challenging the Scientific Information
    Executives of the seven major United States tobacco companies, 
standing in a row, hands raised, swore they believed that smoking is 
not addictive. That was the sight facing a congressional committee in 
the spring of 1994. It seemed like something from a Doonesbury cartoon 
but it was just a standard tobacco industry ploy carried to the 
extreme. Overt denials of scientific facts are part of the industry 
strategy to create doubt.
    The industry goes one step further by creating its own ``science.'' 
The industry sponsors symposia with research done by industry-funded, 
sympathetic scientists; those symposia produce results that are not 
peer reviewed or in agreement with reputable studies. Then the findings 
of these symposia are published and widely disseminated, including in 
paid advertisements in major newspapers and magazines. ``To read this 
material is to enter a house of mirrors that endlessly reflects the 
same set of opinions, voiced by the same few people, again and again,'' 
according to an analysis in Consumer Reports (January 1995).
    Another seemingly scientific tactic used by the tobacco industry is 
the invention of ``cigarette equivalents.'' These calculations are used 
to show deceptively low levels of toxic contaminants in ETS. The 
numbers selectively omit several carcinogenic substances and don't 
factor in the higher levels of contaminants found in sidestream smoke, 
the main component of ETS. Consumer Reports concluded, ``If secondhand 
tobacco smoke were not connected to the profits of a powerful industry, 
we doubt there would be much argument about drastically restricting 
people's exposure to it.''
    This tobacco industry ``jury is still out'' tactic does create 
confusion, or at least the semblance of a controversy, which influences 
the public and the press. Americans have a strong sense of fair play 
and value hearing both sides of an issue. The media reflexively turn to 
the industry for ``the other side'' whenever new scientific information 
on smoking and ETS is published. Dr. Alan Blum, a professor of family 
medicine at Baylor University and an internationally recognized tobacco 
industry watcher, describes the situation this way: Imagine all 
mathematical and educational experts agree that two plus two equals 
four. But one industry, with a vested interest, insists that two plus 
two equals six. The media report ``both sides'' and people tend to 
think the truth may be somewhere in the middle, perhaps two plus two 
equals five.
Using Distracting Arguments
    The tobacco industry uses other arguments to divert attention from 
the health information. A former tobacco industry lobbyist, Victor 
Crawford, went public about this tactic in early 1995, when he was 
dying of multiple cancers from his smoking. On ``60 Minutes,'' in a 
letter to Ann Landers, in JAMA, and in a story in the Washington Post, 
he described his technique, ``So, I'd always say, `Well, the jury's 
still out on the health stuff but that's not the real issue. The real 
issue is freedom of choice, freedom of choice, and these health Nazis 
want to take it away!' I could make a hell of an argument. And I was 
smooth.''
    Arguments about smoking as a ``right'' and an ``adult choice'' and 
pleas for ``common courtesy'' and ``freedom from intrusive government'' 
resonate with many Americans. But ``right'' is not a word usually 
applied to addiction and public health problems. Americans don't 
support ``alcoholics' right to drive their cars, unfettered by big 
brother government'' or ``heroin users' freedom of choice.'' The 
tobacco industry invokes ``adult choice'' to describe smoking but 
neither word is accurate: Almost all smoking begins in childhood; more 
than $6 billion a year in tobacco promotions overwhelm health 
information and make informed choice unlikely; addiction overcomes 
selfcontrol. As F. Ross Johnson, former chief executive of R. J. 
Reynolds tobacco/ Nabisco put it, ``Of course [tobacco's] addictive. 
That's why you smoke the stuff.'' (Wall Street Journal, October 6, 
1994)
    The industry's recommendation of ``common courtesy'' as a solution 
to the problems of ETS, rather than ``intrusive government,'' is 
disputed by public health authorities. Ronald M. Davis, M.D., former 
director of the U.S. Office on Smoking and Health, concluded, based on 
results of the 1987 National Health Interview Survey on Cancer 
Epidemiology, that ``. . . the common courtesy approach endorsed by the 
tobacco industry is unlikely, by itself, to eliminate exposure to 
environmental tobacco smoke. . . . Legislative or administrative 
mechanisms are the only effective strategies to eliminate passive 
smoking.'' Journal of the American Medical Association, April 25, 1990)
    Again invoking ``freedom of choice,'' the industry suggests dealing 
with ETS by ventilation or separate sections, both of which have been 
proven ineffective. The bottom line of industry arguments is apparent 
in the effect of their ``solutions''--there will be no reduction of 
smoking and no loss of income to the tobacco industry.
    Meaningful controls do affect industry Drofits. A study in 
California (funded by the State with research money raised from 
cigarette taxes) estimated that 146 million fewer packs of cigarettes 
per year would be smoked if all workplaces in California were 
smokefree. That would cause tobacco companies to lose $406 million 
annually. Those calculations, by Tracey J. Woodruff, Ph.D. and others, 
published in the Archives of Internal Medicine, June 28, 1993, echoed 
the statement 15 years earlier by William Hobbs, president of the R. J. 
Reynolds tobacco multi-national. Speaking of nonsmoking policies, he 
said, ``If they caused every smoker to smoke just one less cigarette a 
day, our company would stand to lose $92 million in sales annually.'' 
He went on to say, ``I assure you that we don't intend to let that 
happen without a fight.'' (Financial Times, September 27, 1978)
Hiding Behind Other Groups
    Aware of its poor credibility, the tobacco industry seeks to have 
its arguments advanced by more respectable groups and organizations in 
society. The Tobacco Institute has used some business and labor groups 
to further its cause. Several versions of a booklet called ``Workplace 
Smoking: a Guide For Employers'' have been distributed by State 
chambers of commerce or other business groups, with no disclosure that 
the publication was prepared and financed by the tobacco industry. 
Similarly, the ``Tobacco Industry Labor Management Committee'' 
published ``Workplace Smoking Issues.'' These and similar publications 
can be recognized because they ignore or dispute the public health 
question, posit a ``right'' to smoke, and recommend ``solutions'' which 
result in little or no reduction in smoking and tobacco industry 
profits.
    Early in 1996, a Federal grand jury in Alexandria, Virginia began 
looking into the relationship between the tobacco industry and a 
building inspection firm that has appeared at many public hearings, 
including before congressional subcommittees, testifying that 
secondhand smoke is not a health risk. The company, Healthy Buildings 
International, received several million dollars from tobacco companies 
and may have falsified data on secondhand smoke.
    In California, Philip Morris spent $20 million to set up 
Californians for statewide Smoking Restrictions. The group created a 
ballot question, Proposition 188, which purported to be a pro-health 
initiative, but which would have required the re-institution of smoking 
sections and reversed laws aimed at keeping tobacco from minors. The 
Los Angeles Times identified that campaign as ``a complete fraud.'' The 
San Francisco Chronicle reported that ``Tobacco companies are trying to 
pull a fast one,'' and said, ``It is another attempt by the shameless 
tobacco industry to ensure future sales of a deadly product.''
    Restaurant associations have been fabricated to defend the 
interests of the tobacco industry. On June 6, 1994, in written 
testimony to the New York City Council, which was considering smokefree 
legislation, Barry Fogel revealed, ``In 1988, Beverly Hills passed one 
of the first smokefree restaurant ordinances in the Nation. It was 
rescinded 5 months later due to lobbying from the Beverly Hills 
Restaurant Association. I was president of the Association.
    ``There was no Beverly Hills Restaurant Association before the 
smokefree ordinance. We were organized by the tobacco industry. The 
industry helped pay our legal bills in a suit against Beverly Hills. 
The industry even flew some of our members by Lear Jet to Rancho 
Mirage, another California city considering smokefree restaurant 
legislation, to testify before their City Council against a similar 
smokefree ordinance.'' The story of the Beverly Hills Restaurant 
Association and Restaurants for a Sensible Voluntary Policy (RSVP), 
also created by the tobacco industry, is analyzed in ``The Politics of 
Local Tobacco Control.'' (Journal of the American Medical Association, 
October 16, 1991)
    More recently, after the 1995 passage of the New York City 
smokefree air act, Philip Morris created the Manhattan Tavern & 
Restaurant Association; the United Restaurant, Hotel, Tavern 
Association; and New Yorkers United to Repeal the Ban. None of these 
``organizations'' even have a telephone number in New York City.
    The JAMA study (above) also documents another tobacco industry 
tactic: lying. Restaurant associations created by the tobacco industry 
have published statements claiming a 30 percent decrease in business 
when laws requiring restaurants to be smokefree were enacted. But 
independent, scientific, government-funded studies, analyzing the 
impact of every nonsmoking restaurant ordinance throughout the Nation, 
based on restaurants' tax returns, have shown no loss in business. 
(``The Effect of Ordinances Requiring Smoke Free Restaurants on 
Restaurant Sales,'' American Journal of Public Health, July 1994).
    Barry Fogel, of the fabricated Beverly Hills Restaurant 
Association, discovered that himself. His testimony to the New York 
City Council concluded, ``I regret my participation with the tobacco 
industry. In 1991, when I learned that secondhand smoke caused cancer, 
I made all [my] Jacopo's restaurants 100 percent smokefree, including 
bar and outdoor patio areas. Even in this difficult economic climate, 
our sales have risen.''
    People who smoke also are recruited by the tobacco industry. Taking 
a lesson from the success of `grassroots nonsmokers' advocacy groups, 
several tobacco companies have supplied funding, equipment, 
consultants, toll-free phone lines, and glossy publications to foment 
``smokers' rights organizations.'' ``Public Interest Pretenders'' (May 
1994) reveals how the tobacco industry creates what Consumer Reports 
characterizes as ``bogus `grassroots' organizations.'' (The American 
Nonsmokers' Rights Foundation has created a tobacco industry database 
to help expose business groups and ``expert'' witnesses that are 
tobacco industry fronts. ANRF is in Berkeley, California, phone: 510 
841-3032.)
Where Does an 800-Pound Gorilla Sit?
    The tobacco business in the United States is a $50 billion 
industry. Revenues of that magnitude give the companies enormous 
economic and political clout--and they use it. In 1992, the tobacco 
industry contributed $5.6 million to political candidates for Federal 
office. It spent $600 million in legal fees. (American Bar Association 
Journal, September 1994) Common Cause researched tobacco industry 
companies and lobbying groups over the decade 19851995 and discovered 
more than $16 million in soft money contributions and political action 
committee contributions during the decade. Common Cause noted that it 
was a time of increasing public information and concern about smoking 
and tobacco, but a time of relatively little congressional action on 
anti-tobacco legislation. In the first 6 months of 1996, the tobacco 
industry spent more than $15 million to fight Federal proposals to 
reduce smoking by minors, raise tobacco taxes, and limit tobacco 
advertising and marketing.
    When Northwest Airlines became the first United States airline to 
adopt a smokefree policy for its domestic flights, it turned to its 
advertising agency, Saatchi & Saatchi, to design the public relations 
campaign announcing the new policy. Saatchi & Saatchi also was the 
agency for RJR/Nabisco (R.J. Reynolds tobacco)--which summarily 
withdrew their Oreo and Fig Newton accounts from the agency.
    When New Jersey towns, following the lead of East Brunswick in 
1990, began passing cigarette vending machine bans, almost every town 
council that enacted legislation was challenged in court by the tobacco 
industry. Even after the New Jersey Supreme Court upheld East 
Brunswick, and 100 additional municipalities passed ordinances 
controlling tobacco sales, the industry came back with another lawsuit, 
citing new grounds, against Westfield, New Jersey. Though the industry 
lost in Westfield, and never appealed, it then sued six more towns. An 
experienced courtwatcher called the tobacco industry intimidation a 
``scorched earth policy.''
    The tobacco industry also has sued towns that passed smokefree air 
ordinances. Although almost all these lawsuits failed, the threat 
intimidates local governments. The tobacco industry sued the U.S. 
Government when the Environmental Protection Agency published its 
report on ETS. ``It's like the flat earth society suing the Government 
because NASA publishes pictures from space which show that the earth is 
round!'' said Cliff Douglas of the Advocacy Institute, Washington, DC. 
Now the tobacco industry is suing to block the Food and Drug 
Administration, which has asserted jurisdiction over tobacco.
The Truth About the Tobacco Industry
    One person who has seen more of the industry's internal documents 
than almost anyone outside the tobacco industry is Federal Judge H. Lee 
Sarokin. He presided over the Cipollone case, the landmark tobacco 
products liability suit. Judge Sarokin concluded that ``. . . tobacco 
companies willfully ignored the dangers of smoking and conspired to 
misrepresent health issues.'' He asked, ``Who are these persons who 
knowingly and secretly decide to put the buying public at risk solely 
for the purpose of making profits and who believe that illness and 
death of consumers is an appropriate cost of their own prosperity!''
    A similar conclusion was reached by the News & Record in 
Greensboro, North Carolina, home of one of the world's largest 
cigarette factories. In an editorial in September 1992 it said, ``You 
don't have to be an anti-smoking zealot to work up a healthy contempt 
for the tobacco industry. All you need is a shred of respect for the 
truth.''
                              inevitablity
    ``This is where the rest of America is going.''--New York City 
Mayor Rudolph W. Giuliani, signing legislation to eliminate smoking in 
most public places, January 1995
The Future
    The question is not if, but when any organization will go 
smokefree. With increasing legislation, regulation, litigation, 
scientific information, and public demand for smokefree environments, 
smoking in public places and workplaces will soon become rare. 
Ashtrays, like spittoons, will become collectors' items. In 1904, when 
the Pennsylvania legislature passed a law making public spitting 
illegal, Governor Samuel Pennypacker vetoed the legislation, declaring, 
``It is a gentleman's constitutional right to expectorate.'' Arguments 
for a ``right to smoke'' will soon seem equally anachronistic. Policy 
makers who adopt smokefree policies today can prepare their 
organizations for inevitable change and gain positive public relations 
benefits.
If They Can Do It . . .
    Smoke-filled newsrooms are rapidly disappearing. Ad agencies are 
smokefree. Smoke-filled political caucuses? Many legislatures are now 
smokefree. Even bars, clubs, cabarets, pool halls, casinos, and bingo 
halls are going smokefree. There are smokefree psychiatric units and 
drug addiction treatment programs. There are smokefree truck lines, 
airlines, airports, and hotels. The Minnesota Vikings are smokefree, as 
is the Pennsylvania Ballet. All the tobacco farmers interviewed in a 
New York Times Magazine feature article about the fate of tobacco 
farmers in North Carolina were nonsmokers (August 25, 1996). And 
there's no smoking in the food court of the building that houses the 
Tobacco Institute in Washington, DC.
                         the larger perspective
    ``For every person who stops smoking in the North [developed 
nations], two start smoking in the South [developing nations].''--
Leonardo Daino, Argentine League Against Cancer
    Nicotine addiction continues at epidemic proportions. In the United 
States, smoking by children and adolescents is rising. In early 1996, 
the Centers for Disease Control reported a 7 percent increase since 
1991, with approximately 35 percent of youth smoking. Smoking among 
African-American males doubled in that same time.
    The World Health Organization 1996 report, ``The Tobacco 
Epidemic,'' predicted that worldwide deaths from smoking, currently 
estimated at three million per year, or one death every 10 seconds, 
could rise as high as 10 million per year within the next 25 years. 
These figures do not include deaths from secondhand smoke. Half of the 
current 1.1 billion smokers worldwide will die prematurely from 
tobacco-related diseases, especially those who began smoking at an 
early age. ``Tobacco companies are clearly winning the battle for the 
hearts and lungs of most of the peoples on planet Earth,'' in the words 
of Sonni Efron, Los Angeles Times (September 9, 1996).
    Sir Richard Doll of the Imperial Cancer Research Fund described it 
as ``the biggest epidemic of fatal disease in the world.'' And Dr. Alan 
Lopez of the World Health Organization said, ``What we've seen so far 
is nothing compared to what we'll see in developing countries.''
    Beyond the devastating health impact, tobacco dollars interfere 
with journalistic freedom and create cynicism about the responsiveness 
of government.
    One important reason children start to smoke and adults choose not 
to confront their nicotine addiction is that they live in a society 
where smoking seems normal. Smokefree environments throughout society 
reinforce the no-smoking education given to children in the classroom 
and strengthen the desire of smokers to become nonsmokers.
    There are strategies that do work to reduce smoking, especially 
among children: elimination of tobacco marketing; vigorous pro-health/
anti-tobacco advertising; increased tobacco taxes; and smokefree 
environments.
                         establishing a policy
    Establishing a smokefree policy is much the same as establishing 
any other policy. The basics include demonstrating enthusiastic support 
from top management, involving employees and others affected by the 
change, making sure all questions are addressed, giving advance notice, 
providing adequate information about the new policy, and being firm 
once the policy is implemented. Your organization probably has its own 
internal procedures for creating new policies.
    The biggest hurdle is making the decision to create a smokefree 
environment. But not addressing the issue is likely to intensify the 
problem.
    Because smoking is an addictive behavior and social norms have 
tolerated it for years, change in this area warrants care about 
process. (A formula for problems: lack of information and lack of 
advance notice.)
    Organizations and advisors involved in developing new policies have 
come up with some ideas that may be helpful to you. Here are their 
suggestions.
Vocabulary
    Call the new policy a ``smokefree air policy'' or a ``policy for 
clean indoor air'' rather than a ``smoking policy.'' This establishes 
the idea that smokefree is the norm and that the policy addresses if, 
or where, smoking will be permitted.
    Don't label people as smokers and nonsmokers. Refer to ``employees 
or customers who smoke.'' Make it clear that individuals and their 
smoking behaviors are separable and that it is smoking that will be 
controlled, not smokers.
    Avoid using the word ``right'' in connection with smoking. Say 
``using tobacco'' or ``smoking behavior'' or ``nicotine addiction.'' 
``Right'' implies legal and ethical entitlement to smoke; it endows 
smoking with respectability. Your vocabulary should refer to smoking as 
a public health problem.
    use positive words like ``comprehensive'' and ``protection'' 
instead of negative words like ``more restrictive'' and ``ban.''
Research
    Assess your organization's situation. Determine the prevalence of 
smoking among employees, customers, students, and others who use your 
facilities. What problems are being encountered by your organization 
because of smoking?
    Determine how well your facilities are suited for proposed changes. 
If your grounds will not be smokefree, is there a suitable area 
outdoors for smoking? It should be away from entrances, windows, and 
air-intake vents. If you are considering separately enclosed, 
separately ventilated indoor areas for smoking, estimates for such 
``lounges'' run to $100,000 and more. You'll need to decide what signs 
to use, and obtain or design them. Ashtrays must be removed from 
smokefree areas and receptacles for cigarettes provided at appropriate 
places, not too near entrances.
    Timing may be important, too. It may be easier to go smokefree in 
the summer when people can step outside to smoke. Or you may want to 
tie the introduction of your smokefree policy to your annual meeting or 
a new fiscal, academic, or calendar year. Another good time is the 
American Cancer Society's Great American Smokeout, which is held the 
Thursday before Thanksgiving.
    One progressive section or division of your organization can try a 
pilot program first. Once it's completed, that experience can guide 
other sections.
Education
    When MSI Insurance announced its smokefree policy, it issued an 
internal memo which started this way: ``The loss of the lives of over 
200 marines in Lebanon several weeks ago shocked and angered us all.'' 
The message went on to compare that death toll to the loss of 1,300 
Americans who die prematurely each day because of tobacco use. 
Comparing tobacco's death toll to a current disaster helps people to 
recognize the enormity of the tobacco problem and to respond to it more 
personally.
    When the North Plainfield, New Jersey town council first considered 
enacting tobacco controls, every member of the council reminisced about 
their early experiences with cigarettes. One council member told how 
she bought cigarettes as a teen, worrying that shopkeepers would tell 
her father, the mayor. Your educational task, if you encounter people 
with fondly remembered, rite-of-passage stories, is to help them look 
further into the future, to connect their early experiences with later 
experiences of friends dying prematurely from lung cancer and heart 
attacks.
    Educate people who don't smoke to be gentle with people who smoke. 
It's not easy to go without nicotine, so those working around people 
who are quitting or limiting their smoking should be understanding and 
supportive.
    When Group Health Cooperative in Washington went smokefree, it 
prepared a film for its 6,000 employees. The film included interviews 
with employees who smoked, explaining why they supported the policy. 
Your educational program in advance of the implementation of the new 
policy can use films, talks, your newsletter, posters, paycheck 
inserts, questionnaires, news releases, and signs.
Changing Attitudes
    Changing your own attitude may be the most important educational 
task you'll perform. The social acceptance that has enabled smoking to 
become pervasive and destructive in our society can cause individuals 
involved in changing behaviors regarding smoking to experience 
trepidation. Accept that as part of the process of change; your 
discomfort is a signal that your actions are significant. (Please see 
the Common Sense section for arguments that support your actions.)
Organizational Image
    Take advantage of your organization's image or mission to 
underscore your smokefree policy. This is a natural for health and 
welfare institutions, schools, restaurants, insurance companies, and 
sports facilities. But others can use this strategy. Banks can use 
financial data in their educational materials; retail companies can use 
marketing data.
    Provident Indemnity Life adopted its smokefree policy because it 
markets insurance policies with discounts for people who don't smoke; 
it didn't want its customers offended by smoke in its offices. The 
Merle Norman Cosmetic Company told employees that one of the reasons 
for instituting its smokefree policy was to be consistent with its role 
of enhancing beauty.
Expand Involvement
    Create bonds between smoking and nonsmoking employees. For 
instance, pair quitting smokers with dieting buddies or employees on 
exercise programs. Give employees who recruit smokers for cessation 
programs a bonus. Provide chewing gum, sunflower seeds, or other snacks 
for nonsmoking employees to give to employees who smoke. Suggest that 
nonsmokers also dispense encouragement and thanks, too. Dow Chemical 
paired quitting smokers and nonsmoking buddies in a raffle for a 
motorboat.
    Involve families. Invite employees' families into cessation 
programs. In the words of one manager, ``You don't want your employees 
who are trying to quit smoking going home to a smoky ghetto. Andrew 
Smith, President of Pacific Northwest Bell, decided to offer cessation 
classes to employees' families because the company provided health 
benefits for them. The response of one employee's spouse was, ``Phone 
company, I love you. My own employer wouldn't provide me with a 
cessation program, but I got help from you.''
    When he announced his new smokefree policy, in the 1970's, Radar 
Electric President Warren McPherson sent letters to the families of 
employees who smoked. In his message, he provided an estimate of how 
much smokers spend each month for cigarettes and he offered a bonus to 
smokers who would quit smoking. Next, he showed the income that could 
represent in a family budget. Although many employers today might 
prefer a more subtle approach, cigarette costs in the 1990's make that 
an even stronger argument: At $2.50 a pack, smoking two packs a day 
costs more than $1,800 a year. (Note: If you decide to offer a bonus or 
other incentives, don't give the bonus to smokers who quit smoking. 
Instead, give the bonus to nonsmokers, who should be rewarded for good 
choices. Smokers can earn the bonus by becoming nonsmokers.)
Creativity
    Any new policy is more likely to be welcome when it's implemented 
with creativity and humor. Small touches can be important in setting 
the tone you want to achieve.
    When Robert Rosner was helping to implement a smokefree policy at 
Group Health in Seattle, he anticipated that employees at reception 
desks would have the main responsibility for confronting visitors who 
were smoking when they entered Group Health facilities. To give 
receptionists a positive task involving the new policy, he provided 
them with gifts featuring nonsmoking messages, to distribute to 
visitors.
    When Kessler-Ellis Products in Atlantic Highlands, New Jersey went 
smokefree, it gradually reduced the smoking-permitted hours at work. 
First, the initial hour at work was designated nonsmoking. Next, the 
last hour of the day was declared nonsmoking. Then the hours before 
lunch and after lunch were added. During this phase-in period, 
employees who smoked were given a few ``smoking permit'' tickets they 
could ``spend'' to smoke one cigarette during an otherwise forbidden 
period.
    Another suggestion for success is to replace anything that's taken 
away. For instance, when you remove the cigarette machine, replace it 
with a fruit machine, an arrangement of fresh flowers, a health 
information reading rack, or a list of successful quitters. Riviera 
Motors in Portland, Oregon installed a refrigerator with vegetables for 
snacking; quitting smokers and dieting employees enjoyed that.
Fairness
    It's hard to be fair when dealing with incompatible behaviors like 
smoking and breathing smokefree air. But for the sake of morale, it is 
important to respect the desire for fair play. Here are two common 
fairness issues that organizations have encountered when implementing 
smokefree policies:
            Who is covered by the policy?
    Campbell Soup Company made its offices smokefree years ago because 
its production areas were smokefree and it wanted an evenhanded policy 
for all employees.
    MSI Insurance eliminated smoking in private offices so its smoking 
ban in group work areas would be more acceptable. It also recognized 
that employees from group work areas go into private offices in the 
course of their work. Furthermore, private offices rarely have private 
ventilation systems. Allowing smoking in private offices also creates 
an unnecessary equity problem and gives a message that smoking is a 
benefit.
    It is tempting to fudge when it comes to smoking by customers. But 
the experiences of malls, sports facilities, restaurants, and other 
public places throughout the country demonstrate that smokefree 
policies don't hurt business. (Please see the Especially For section 
for more information about customers' acceptance of smokefree 
policies.)
    Another fairness argument you can use is to point out that smoking 
is controlled in computer areas, in production areas, and in other 
places where equipment or materials might be harmed by exposure to 
smoke or fire. Fairness dictates at least as much concern for the well-
being of people. Malcolm Stamper, President of the Boeing Co., used 
this reasoning.
            Why this change in policy?
    You may be told you're ``changing the rules.'' Acknowledge that, 
perhaps with a reminder that change is a part of life. Sometimes 
employers ask employees to make drastic changes, such as moving to new 
locations. Landlords change the terms of leases. Restaurants change 
menus and prices. Point out that your organization makes policy changes 
to benefit employees, customers, and students. Also explain that the 
new smokefree policy is based on new information.
A Few Thoughts on Those Who Smoke
    You can expect customers who smoke to comply with your smokefree 
policy (please see above). You have authority to ensure employee 
cooperation. The experience of other employers throughout the Nation 
demonstrates that compliance is good.
    Some employees may say they will quit their jobs if they can't 
smoke at work. This almost never happens. If you don't encourage 
employees to reduce or quit smoking, you may lose them to heart disease 
or lung cancer. (Also, the lack of a smokefree policy may cause 
nonsmoking employees to leave for a new job in a smokefree workplace.)
    Remember, smokers may be physiologically unable to understand how 
offensive ETS is, because smoking damages their sense of taste and 
smell. After two or 3 months as nonsmokers, many former smokers say: 
``I never realized I smoked up a room that way!'' or ``I never realized 
how bad smokers smell!''
Cessation Programs
    While as many as 90 percent of smokers want to become nonsmokers, 
and one-third of smokers make a serious attempt to quit smoking each 
year, many fear failure and don't attempt cessation. Experts in the 
field now recognize that there is a continuum of attitudes and 
behaviors among smokers about cessation: Some are unwilling to confront 
the issue; some are thinking about it; some are actively attempting to 
quit; some are newly recovered nicotine addicts; and some have years of 
abstinence but may still feel urges to smoke from time to time.
    Most smokers make several attempts to quit before succeeding. Each 
attempt teaches important things about becoming a nonsmoker. Most who 
quit do so without a formal program. The success rate for any single 
quit attempt with a group program is in the range of 20 to 30 percent; 
nicotine replacement therapy augments the success rate.
    Smokefree policies, especially at work, encourage smokers to 
confront their nicotine addiction. It is best to offer a variety of 
cessation methods and to offer them continuously, not just at the time 
of implementing a smokefree policy. (Please see the Smoking Prevalence 
and Smokefree Polices Reduce Smoking sections for more information.)
    Excellent nonprofit programs, both group and self-administered, are 
available from the American Cancer Society, American Lung Association, 
American Heart Association, other health organizations, hospitals, 
adult education schools, health departments, and Seventh Day Adventist 
churches. For-profit programs advertise widely in the media and in the 
Yellow Pages. There are no licensing requirements for smoking cessation 
providers. A buyer-beware approach is recommended with for-profit 
providers, especially those that offer unproven techniques.
    A good source of information is the Office on Smoking and Health of 
the U.S. Public Health Service, Atlanta, Georgia, 770 488-5705.
                        a typical success story
    In 1983, Fred Vandegrift was the publisher of the Salina Journal, a 
daily newspaper in Salina, Kansas. He'd been getting numerous 
complaints from employees who were bothered by smoking at work. So he 
decided to make the Journal a smokefree workplace, effective New Year's 
Day 1984. Vandegrift had some apprehension that the ban might offend 
customers and employees, but no problems materialized. Indeed, in the 
first quarter of the year the new policy was effected, only one 
cigarette was smoked in the building: A customer came in smoking, not 
noticing signs posted at all entrances, but politely returned outside 
to dispose of his cigarette upon request.
    Vandegrift also offered a $500 bonus to any smoking employee who 
quit smoking during the first 3 months of the year. Among the smokers: 
Fred Vandegrift. He'd quit several times in his life, but was smoking 
between two and three packs a day when he made the announcement of the 
impending ban. ``Certainly the policy was an encouragement to me. I 
wanted to quit. It doesn't take a genius to know it's not good for 
you,'' Vandegrift said. The publisher wrote himself a $500 check on 
April 1, 1984.
    Twenty-five of his thirty-one employees who were smokers on January 
1 also earned $500 checks on April 1. The new ax-smokers thanked him 
for his help. One circulation department employee, who had once kicked 
the habit for a year on a $5 bet, was particularly delighted with the 
$500 incentive.
    The real surprise, entirely unexpected, was public response to the 
new policy. The story made headlines nationwide. At least 20 radio 
stations and a half dozen TV stations called requesting to interview 
Vandegrift. Hundreds of letters poured in from all over the country. 
Other employers considering such a move themselves, or merely intrigued 
by the Journal's action, wrote requesting information. Workers from 
other companies wrote to applaud the Journal and say that they wished 
they had smokefree jobs, too. Vandegrift says 99 percent of the 
response was positive.
    The story of the Salina Journal's new nonsmoking policy contains 
three elements usually encountered by companies that decide to go 
smokefree:
    <bullet> They were apprehensive.
    <bullet> Implementation of the policy was much easier than they had 
anticipated.
    <bullet> They were flooded by good publicity and by positive 
responses from other employers and employees outside the company.
    The Journal's experience also contains an interesting example of 
changing attitudes toward smoking: Fifty years ago, during World War 
II, a printer at the newspaper, Dick Levin, was in the Navy, stationed 
in the Aleutian Islands. The Journal, in a friendly gesture typical of 
the era, sent him five cartons of cigarettes. ``Now,'' says Levin, a 
little perplexed, ``they're offering me $500 to quit.''
    The Journal did lose some cigarette advertising. They were also 
challenged by employees and the public to drop cigarette advertising 
altogether. Many felt that it was inconsistent to ban smoking, a health 
hazard, while continuing to accept income from cigarette promotion. So 
on January 1, 1985, the Journal dropped all cigarette advertising.
    A year later, Fred Vandegrift retired. The new publisher, Harris 
Rayl, reported that the policy on smoking was no longer a matter for 
comment, but was accepted as the established way of business. The 
decision to refuse tobacco ads generated much positive support from 
readers; many said they had been offended by cigarette ads. Asked about 
the loss of income from the ads, Rayl said, ``We do make a little less 
money. But it was a good decision, morally, and in terms of public 
relations.''
    This report first appeared in Toward a Smokefree Workplace, 
published by New Jersey GASP in 1985. It was updated in 1986 for the 
second edition. In interviews for Smokefree Air Everywhere, Journal 
publisher Harris Rayl and Business Manager Dave Martin gave updates on 
the newspaper's smokefree policy, reporting that the Journal's being 
smokefree is fold news'' and businesses without smoking control 
policies are now viewed as unusual.
    The Journal is considering making its outdoor smoking area 
smokefree. Its beautiful patio, overlooking the Smoky Hill River, has 
been marred with cigarette butts. Publisher Rayl issued a statement 
announcing his intention to eliminate smoking if the problem continued, 
and Manager Martin says smokers are Scrambling'' to keep the area 
pristine.
                             a model policy
    [name of company or organization]
Smokefree Environment Policy
    Medical and scientific authorities worldwide, including the U.S. 
Surgeon General and the EPA, have concluded that environmental tobacco 
smoke (ETS) is a cause of serious illness, including heart disease, 
lung cancer, other cancer, and respiratory disease in healthy 
nonsmokers. ETS is particularly harmful to children and to people who 
already suffer from respiratory disease, heart disease, or allergies. 
The only effective method to eliminate ETS-related health hazards is to 
eliminate environmental tobacco smoke.
    Smoking also threatens safety. It is the leading cause of fire 
death in the United States and is associated with increased automobile 
and workplace accidents.
    To create a healthful, safe, and comfortable environment [name of 
company or organization] will be entirely smokefree effective [date]. 
Smoking is prohibited in all indoor areas, including vehicles. [Smoking 
is prohibited on all company premises outdoors./Smoking is allowed 
outdoors only in designated areas.]
    This policy applies to all [employees, customers, students, 
patients, tenants, visitors]. Copies of this policy will be distributed 
to all employees and signs will be posted at all building [premises] 
entrances and throughout all buildings and vehicles.
    Any problems should be brought to the attention of the appropriate 
supervisor [manager] and handled through normal [personnel] procedures. 
Employees who violate this policy will be subject to disciplinary 
actions as prescribed in personnel policy.
    This is one of the most important steps that we can take to improve 
our environment and support public health. We rely upon the cooperation 
of all.
    [signature] [chief executive officer or other decisionmaking 
authority] [date]
                         a checklist for action
    This checklist contains steps that have been used by many 
organizations, especially larger organizations, as they have worked 
through the process to achieve a smokefree environment. It is offered 
to help you determine which actions might be appropriate for your 
situation.
    --Top management is committed to going smokefree.
    --Responsibility for the process is assigned to an individual with 
authority.
    --Research begins.
    External research:
        --medical, legal, economic, and social information about 
        tobacco and ETS
        --policies created by others
        --applicable local, State, or Federal laws, regulations, and 
        case law
        --smoking cessation programs
    Internal research:
        --physical facilities (areas for smoking, facilities shared 
        with other organizations)
        --existing policy on smoking
        --legal issues (union contracts, insurance, maintenance 
        contracts)
        --anticipated responses of affected persons, including 
        employees, customers, and others
    --The organization announces its intention to create a smokefree 
policy.
    --An implementation committee is created, including appropriate 
representatives--management and non-management; smokers, former 
smokers, and nonsmokers; students, patients, etc.
    --A schedule is outlined by the committee.
    --Background education commences on the problems of ETS, tobacco as 
a public health problem, and why a new policy is being instituted.
    --The committee drafts a proposed policy and implementation plan. 
(Three to nine months is a good time for transition for a large 
organization.)
    --Appropriate individuals and groups review the policy and give 
suggestions.
    --A policy is chosen.
    --The selected policy and implementation plan are announced to all 
employees by a letter from the chief executive officer of the 
organization.
    --Customers and others affected by the new policy are informed by 
appropriate methods.
    --The policy is incorporated into the organization's personnel 
policy.
    --Responsibility for administering and enforcing the policy is 
assigned and announced. A manager to whom people can report problems 
anonymously designated.
    --Education continues via:
        --training sessions for managers
        --``feedback'' sessions for employees, others
        --organization newsletter, paycheck inserts
        --signs, displays, materials
        --audiovisuals created internally or obtained elsewhere, shown 
        at meetings, on monitors in lounges, health care waiting areas, 
        etc.
        --mailings to customers, students, tenants
        --releases to public news media.
    --Changes to facilitate the new policy are accomplished.
        --Signs are obtained or created and installed.
        --Receptacles for cigarettes are provided at appropriate places 
        near entrances to smokefree areas.
        --Cigarette vending machines are removed.
        --Smoking areas are designated outdoors, well defined to avoid 
        confusion and litter.
        --If indoor lounges are to be employed, they are constructed, 
        enclosed and separately ventilated.
        --Cessation programs are selected, offered.
        --Changes in insurance coverage or maintenance policies are 
        arranged.
        --Fitness breaks are initiated.
        --Healthful snacks are made available.
        --A more healthful menu is introduced in cafeterias, etc.
        --Other changes, including improvement of fitness facilities, 
        are made.
    --The policy is refined.
    --The policy becomes effective.
    --The policy is evaluated and revised.
                               employers
Why
    An interdependence exists between employers and employees, so a 
smokefree workplace policy to protect the well-being of employees also 
contributes directly to the health and longevity of the company. Many 
employers provide employee health benefits and can realize financial 
savings from smokefree policies. Fortunately, employers are in an 
advantageous position to create smokefree policies because they have 
authority to set standards for employee behavior.
    Recognizing employer-employee interdependence, courts have placed 
legal obligations on employers to provide safe and healthful working 
conditions and these obligations have been interpreted to include 
smokefree environments. Indeed, the first wave of plaintiffs seeking 
smokefree environments were employees. This trend is likely to 
intensify.
    Legislation requiring smokefree environments has focused first on 
workplaces, along with health care institutions and places where 
children are present. A major reason Congress required airlines to 
eliminate smoking in flight was because airplanes were uniquely small 
and enclosed workplaces.
    Small companies have a number of special concerns. First, most 
people work for smaller companies, so policies are necessary there to 
protect the majority of employees throughout the Nation. Second, ETS 
may be more hazardous in smaller facilities. Third, small companies are 
more likely to still allow smoking; most larger companies have already 
dealt with this problem. Fourth, a small company is more likely to have 
key, irreplaceable employees than larger companies. Losing an employee 
to a smoking-related disease, or having an employee leave the company 
for another job in a smokefree company, can be disrupting. Finally, 
economic losses from smoking are likely to loom larger for smaller 
companies.
How
    Just as the creation and implementation of a new smokefree policy 
should follow the usual company methods for creating new policies, 
enforcement of smokefree rules should follow usual enforcement 
procedures. Deal with infractions as other personnel policy infractions 
are dealt with. If an employee takes too much time away from work to 
smoke, it should be treated in the same manner as if an employee took 
too many breaks for other reasons. (If extra breaks for smoking are 
given, nonsmoking employees may feel slighted.)
    It is especially appropriate for employers to offer smoking 
cessation information and programs to help nicotine-addicted employees 
cope with new nonsmoking rules--employees spend long periods of time at 
work, and reduced smoking by employees usually leads to reduced 
expenses for employers. Offering employees' families cessation 
information and programs is also beneficial for two reasons: First, 
employees attempting to deal with their nicotine addiction need a 
supportive environment at home. Second, the employer may be providing 
health benefits for spouses and children; offering them cessation 
support is consistent with providing other health benefits and can help 
to lower the health care costs of family members.
                              governments
Why
    Governments, Federal, State, and local, have a responsibility to 
protect the health and well-being of their constituents. That's why 
governments should legislate smokefree environments for work sites, 
public places, and other establishments and facilities within their 
jurisdiction.
    usually, governments set higher standards for their own sites than 
they impose upon nongovernmental work sites and public places. Thus, 
while not always in the forefront, Federal, State, and local 
governments are increasingly proving to be among the leaders in 
establishing smokefree policies in their own organizations. Governments 
need to make their own facilities smokefree before they enact 
legislation or regulations requiring other facilities to be smokefree.
    Setting policies to protect citizens and employees in government 
buildings and mandating similar safeguards in nongovernment settings 
are also effective ways for governments to reinforce the nonsmoking 
messages they deliver through their education and health departments.
    Finally, governments, like other employers and proprietors of 
public places, are subject to lawsuits and other actions if they do not 
protect their employees and customers.
How
    Governments have many ways to set smokefree standards, including 
legislation, regulation, and policy decisions at the Federal, State, or 
local levels. They also have a variety of enforcement mechanisms 
available. Employees can be disciplined, even dismissed. Funding can be 
withdrawn from dependent government organizations. Contractors may be 
denied access to bid for government contracts. Citizens may be fined or 
receive stronger penalties.
    Some employers or proprietors of public places provide separately 
enclosed, separately ventilated areas for smoking. If government 
facilities were to do this, the costs would fall upon taxpayers, the 
majority of whom are nonsmokers. In addition, to provide facilities 
that encourage smoking is inconsistent with other government efforts to 
discourage smoking.
                                schools
Why
    Smokefree policies are essential in schools and on school grounds 
because children are among those who suffer the most severe 
consequences from environmental tobacco smoke (along with people who 
have health problems and older people). In addition, schools have a 
greater responsibility to provide a healthful environment because of 
their role as protectors of students. Federal legislation (the Pro 
Children's Act) bans smoking in all public schools, private schools 
that get Federal funds, and other federally funded children's programs. 
Many States and local governments mandate smokefree schools and school 
premises.
    States that mandate smokefree school buildings and grounds include 
Colorado, Hawaii, Illinois, Maryland, Minnesota, New Mexico, Vermont, 
Washington, and Wisconsin. States that have laws requiring smokefree 
school buildings include Connecticut, the District of Columbia, 
Florida, Kansas, Louisiana, Michigan, New Hampshire, New Jersey, New 
York, Rhode Island, Tennessee, and Utah.
    Because students are still in their formative years, it is 
particularly important for educational institutions to reinforce health 
messages through example. If children are taught that smoking is 
dangerous, then the school should not allow smoking. If adults are 
allowed to smoke, that sends a message that smoking is a grown-up thing 
to do and makes smoking more attractive to children.
    Any school policy that deters or postpones children's tobacco use 
contributes greatly to their health. Studies confirm that the earlier a 
person starts smoking, the more devastating the health consequences.
    Colleges and universities are also accepting their responsibility 
to model smokefree messages. Hundreds of institutions of higher 
learning have established smokefree policies. In Georgia, for example, 
many of the State's 34 colleges and universities are smokefree indoors. 
North Georgia College became the first university in the State to ban 
all forms of tobacco use on its campus, indoors and outdoors, March 1, 
1994. In the words of President lmas J. Allen, ``We have to set an 
example and practice what we preach.''
    An important but often overlooked reason for eliminating smoking in 
schools is to prevent fires, which can be particularly catastrophic 
where children are present.
How
    The board of education or school directors should make it clear 
that the purpose of a smokefree policy, besides protecting health and 
safety, is to reinforce the school's educational message that smoking 
is harmful. The board is not pressuring teachers into being role 
models, but is fulfilling its responsibility to set curriculum and 
teaching messages.
    In residential schools, where everyone shares the same ventilation 
system, it is essential to eliminate smoking in order to protect 
nonsmoking students and staff from the discomfort and health 
consequences of tobacco smoke. Prevention of fires is another reason 
residences should be smokefree.
    There should be no areas at schools, including outdoors, where 
smoking is permitted. Public health recommendations regarding addictive 
substances vary for different drugs. The recommendations for alcohol 
use are that, if people drink, they should wait until adulthood, drink 
in moderation, and behave responsibly about drinking and driving. In 
the case of cigarettes, the health recommendation is not to smoke at 
all because, even in small amounts, tobacco smoke is hazardous to the 
health of smokers and nonsmokers. Given those recommendations, offering 
cocktail lounges to teachers might be less inappropriate than smoking 
areas.
    Keeping bathrooms smokefree is important for the health and comfort 
of the majority of students who do not smoke; they need access to 
toilet facilities. This is not just a matter of comfort. For asthmatic 
children, ETS exposure can be life-threatening. And asthma is on the 
rise among children. Maintaining smokefree bathrooms also helps to 
reduce smoking by students. Some schools, in an effort to avoid 
requiring teachers to be monitors of smoking, have equipped bathrooms 
with highly sensitive smoke alarms, wired to a signal in an 
administrator's office.
    Some schools have required students caught smoking to take a stop-
smoking course. Students ``sentenced'' to a cessation program have been 
resistant and program facilitators have objected. But other schools 
have discovered that some students ``get caught'' smoking because they 
want help to end their smoking addiction but do not want to admit that 
to friends. Eighty percent of children who smoke want to quit but only 
1.2 percent succeed, according to a nationwide report released by the 
Robert Wood Johnson Foundation in February 1995.
    Adult cessation programs are not designed for children. Cessation 
programs addressing the emotional issues and smoking behaviors of young 
smokers have been developed by the American Lung Association and other 
organizations.
    Schools should not allow the sale of cigarettes on school property. 
Even colleges and training schools with adult students frequently have 
minors present. Allowing cigarette sales encourages violations of laws 
prohibiting sales to minors and laws prohibiting purchase and use of 
tobacco by minors.
    (Please see the Public Places and Outdoors sections for more 
information.)
  public places: shopping and office malls; entertainment and sports 
   facilities; travel , cruises, country clubs, bars, clubs, casinos
Why
    In most public places, most people are nonsmokers. Cigarette litter 
is a problem in places where people come and go. Cigarette-caused fires 
are a concern where large numbers of people are present. In many public 
places, people stay only a short time so the inconvenience of not being 
able to smoke is minimal. These are all reasons proprietors and 
managers of public places have instituted smokefree policies.
    Another reason is to keep up with the competition. Shopping and 
office malls, entertainment and sports facilities, the travel industry, 
even traditionally smokefilled places like bars and bingo parlors are 
becoming smokefree.
            Shopping and Office Malls
    Smokefree malls and office complexes are becoming the norm. In late 
1994, half of the nation's 1,800 enclosed regional malls were estimated 
to be smokefree by Mark Schoifet, spokesperson for the 25,000-member 
International Council of Shopping Centers. All 70 malls operated by the 
Maryland-based Rouse Co. are smokefree. More than half of the 
Philadelphia-area malls are smokefree, as are many malls in Michigan.
    Most New Jersey malls went smokefree in 1993-94. The Mall at Short 
Hills is New Jersey's largest, with Neiman-Marcus and Saks Fifth Avenue 
among its five department stores. General Manager Craig Perry reported, 
about the inauguration of its smokefree policy in April 1994, ``The 
reaction has been phenomenal. About 95 percent of the complaints we 
received about this property used to come from people who wanted this 
to be a no smoking facility.''
    Even in the heart of tobacco-growing country, malls are adhering 
to, even touting, their smokefree policies. Mall St. Matthews in 
Louisville, with more than 50 stores, adopted a smokefree policy in 
late 1994. Despite organized protests from the National Smokers 
Alliance, the mall management maintained its policy. Several northern 
Virginia malls, including Tysons Corner and Potomac Mills, have 
prominently featured their smokefree environments in their advertising.
    Carnegie Center Associates manages three million square feet of 
office space in New Jersey, mostly in one to five-story office parks. 
Bernie McNamee, Director of Property Management, estimates 10,000 to 
15,000 people are housed in its buildings, which have been smokefree 
indoors, including cafeterias, since 1994. Carnegie Center Associates 
also defines where smoking is allowed outdoors (in designated areas 
near loading docks) so people don't have to enter buildings through a 
cloud of smoke. In New York City, the Mendik Company, which owns and 
manages 12-million square feet of commercial office space, was among 
the supporters that urged the City Council to prohibit all smoking in 
any part of a commercial office building.
            Entertainment and Sports Facilities
    Entertainment and sports facilities are well along the way to 
smokefree status. The Shubert Organization, which owns more than 20 
theaters, the sites for live performances in Boston, New York, 
Philadelphia, Washington, DC, and Los Angeles, has made all its 
theaters smokefree. The Universal Amphitheater in Universal City, 
California is smokefree, as well as the Great Western Forum, the 
18,000-seat concert and sports facility in Inglewood. Two famous 
outdoor amphitheaters, the Greek, in Los Angeles, and the Hollywood 
Bowl, are smokefree in their seating areas.
    Dozens of professional sports stadiums are smokefree including 
domed stadiums in Atlanta, Houston, Montreal, Minneapolis, Seattle, and 
Toronto, and outdoor stadiums in Philadelphia, San Diego, Baltimore, 
Detroit, and Oakland. All major league ballparks offer smokefree 
seating, except for the Milwaukee Brewers. More than 50 college 
football facilities are smokefree, including Stanford, Penn State, Ohio 
State, Texas A & M, Virginia Tech, Kentucky, Louisiana State 
University, and West Point. In August 1994, the NCAA banned all tobacco 
use during all practices and games. The 1996 summer Olympics in Atlanta 
were smokefree.
    The New Jersey Sports and Exposition Authority, which manages the 
Meadowlands race track and arena and Giants Stadium, is making all its 
facilities smokefree. Speaking of its decision, Robert E. Mulcaby III, 
President and CEO, said, ``We pride ourselves at the Sports Authority 
on being responsive to the needs of the sports and entertainment 
marketplace and on being fan-friendly.'' Michael Rowe, Executive Vice 
President, said, ``We listened to the voices of our fans.''
            Travel, Cruises, Country Clubs
    Federico Pena, the us Secretary of Transportation, reported in 
summer 1996 that 80 percent of flights between the United States and 
other countries were smokefree. Airlines are also responding to the 
International Civil Aviation Organization, which passed a resolution in 
1992 asking all member States to have smokefree international flights 
by 1996. (Almost all United States domestic flights are required by 
Federal law to be smokefree.)
    Delta Airlines was the first United States carrier to make all 
flights smokefree, worldwide (January 1, 1995). In full-page 
advertisements celebrating the first anniversary of its policy, Delta's 
headline read, ``With all our flights smokefree, flying Delta can be 
habit-forming.'' Apparently, other airlines agree. Northwest, the first 
United States carrier to voluntarily make all domestic flights 
smokefree, has joined Delta, with all flights worldwide smokefree, as 
have Virgin, U.S.Air, Air Canada, and Air New lealand.
    Airline passengers can expect to land at smokefree airports. A July 
1994 survey by the American Cancer Society, American Heart Association, 
and American Lung Association found that most public areas in most 
United States airports were smokefree. The study reported that 83 
percent of airports reported their concourses and walkways were 
smokefree, up from 54 percent in 1992. Eight large airports, including 
Los Angeles, Chicago, and Dallas/Fort Worth, were totally smokefree at 
the time of that study. In January 1996, a new study by the three 
organizations found that one-third of 59 airports responding to the 
survey were totally smokefree, a 22 percent increase since the earlier 
survey. One reason airports were eliminating smoking areas was cost. 
Air exchanges of 60 cubic feet per minute in smoking areas (compared to 
15 cubic feet per minute in nonsmoking areas) are expensive.
    Other carriers are going smokefree, too. Amtrak eliminated smoking 
on most of its trains in 1993. Greyhound, the only bus company with 
nationwide service, eliminated smoking on buses several years ago, in 
response to Department of Transportation regulations, and made its 
offices and some terminals smokefree. Avis, Budget, Hertz, National, 
and Thrifty all offer smokefree rental cars; National will guarantee a 
smokefree car for persons with respiratory disability. Hertz sets aside 
80 percent of it fleet as nonsmoking. Avis began offering nonsmoking 
cars several years ago at the urging of its owner-employees.
    Even in the more leisurely travel/ entertainment world of cruise 
lines, smokefree is becoming the norm. In 1992, Majesty Cruise Lines 
advertised as the only cruise line with smokefree restaurants. But 
since then, American Hawaii, Carnival, Cebu, and Princess, among 
others, have instituted smokefree dining rooms, and Princess has also 
made its main show lounge smokefree. Publicity for these policies has 
come from an unlikely source--Benson & Hedges cigarettes. Its April 1, 
1996 ad in Newsweek, in its series showing people smoking on window 
ledges, etc., showed passengers smoking in lifeboats, with copy 
announcing that the dining rooms on most cruise ships are smokefree.
    Cruise lines also offer nonsmoking guest rooms, as do 86 percent of 
hotels surveyed by the American Hotel and Motel Association. The Texas 
Hotel and Motel Association sees a continuing increase in nonsmoking 
accommodations and Executive Vice President Don Hansen reports that 50 
to 60 percent of Texas' quarter-million hotel rooms are smokefree. The 
Hilton hotels find demand for nonsmoking rooms ranges from 50 to 80 
percent. Crowne Plaza, Embassy Suites, Hampton Inns, and Homewood 
Suites have set a minimum of 75 percent of their rooms as nonsmoking.
    Some hotels do more. In the early 1980's, Lyndon Sanders opened the 
Non-Smokers' Inn, Dallas, then widely regarded as the first totally 
smokefree hotel. Others have followed. The Southwest Inn, an 
``authentic Santa Fe style country inn'' in Sedona, opened in September 
1994 with a nonsmoking policy. Bed and breakfasts and historic hotels 
are usually smokefree. One New Jersey bed and breakfast association 
requires members to be smokefree.
    Failure to provide sufficient smokefree accommodations is a problem 
not only for the hospitality industry, but for the communities where it 
does business. Miami lost out on a convention of the National 
Conference of Bankruptcy Judges when its local hoteliers did not 
guarantee that at least 50 percent, and preferably 75 percent, of the 
1,500 rooms needed by the organization would be nonsmoking. The judges 
decided, early in 1996, to take their $1.4 million in business to San 
Diego instead.
    Country clubs are establishing nonsmoking policies. Marsh Landing 
Country Club in Ponte Vedra Beach, Florida is Jacksonville's most 
expensive non-equity country club and golf course (membership is 
$20,000 plus as much as $2,500 annual dues). The club made all indoor 
facilities smokefree in June 1994. Assistant manager Sally Hall, 
interviewed a year later about their decision, listed among their 
reasons responding to the trend in other organizations and public 
places plus reducing the problem of cigarette burns in upholstery. Hall 
reported the new policy produced ``fewer objections than we might have 
expected.'' One couple that objected to the policy is now dealing with 
another tobacco-related problem: The wife, a smoker, is in chemotherapy 
because she has cancer.
            Bars, Clubs, Casinos
    In early 1992, Alan Truscott, the bridge columnist of the New York 
Times, reported that nearly all American bridge clubs and tournaments 
ban smoking in playing areas. In New Jersey, the Laughing Bean comedy 
club and coffee house in Red Bank is smokefree as is The Common Ground 
Cafe, a coffee house with live entertainment, in Summit. There's 
smokefree bingo at St. Mary's in Nutley and Temple Shaari Emeth in 
Manalapan. The Sands casino in Atlantic City highlights its entirely 
smokefree second level in its advertising.
    There are dozens of smokefree bowling centers, billiard parlors, 
coffee houses with live music, comedy clubs, and dance halls in 
southern California, listed in the Breathing Easy Entertainment Guide 
published by the American Lung Association of Los Angeles County. In 
Washington Township, New Jersey, Oakwood Lanes initiated smokefree 
Thursday nights in 1993. ``Bowling is an old sport, but that doesn't 
mean we can't think modern,'' said owner Robert Plenge.
    Bars and taverns are going smokefree. Petrocks's Bar and Grille, 
next to Petrock's Liquor Store, looks like many bars, with high stools 
around the counter, lots of dark wood, and display advertisements for 
various drinks. It's easy to see the ads because the air is smokefree. 
The bar and restaurant, in rural Belle Mead, New Jersey, grew naturally 
from the family liquor store when Mrs. Petrock began serving 
sandwiches, and it's been smokefree for years.
    In Washington, several dozen bars and taverns in Tacoma, Port 
Townsend, Olympia, Seattle, Yakima, Milton, and elsewhere are 
smokefree. One tavern owner reported a 40 percent increase in business 
when he made his bar smokefree. When San Francisco's first smokefree 
bar opened in 1992, the owner advertised for bartenders, emphasizing 
that it would be a smokefree environment. There were more than 600 
applicants for jobs.
    More than 100 local jurisdictions in eight States require bars to 
be smokefree. Ordinances apply to free-standing bars and/or bars 
attached to restaurants. California passed a statewide ban on smoking 
in free-standing bars, effective January 1998. Bars are finding that 
mandated smokefree policies work well. One of the first cities to enact 
a smokefree bar ordinance was San Luis Obispo, California. The law 
``had no measurable impact on bar sales as measured by sales tax 
revenues'' according to the Taylor Consulting Group, an independent 
consulting organization which issued its report in January 1993.
How
    The experiences of these diverse public places demonstrate that 
virtually any public place can implement a smokefree policy. It's 
important to give advance notice, provide adequate information, and 
represent the policy as a plus not a minus. Make it clear that it's 
smoking that's not allowed; people who smoke are welcome. Virgin 
Atlantic's ad in the New York Times, April 5, 1995, had only two 
sentences of text on a full page of white space: ``Starting May 1st, 
all Virgin Atlantic flights between the U.S. and London will be 
smokefree. it's probably the most sincere way to tell our smoking 
passengers that we'd like to keep them around.''
    (Please see the Restaurants and Outdoor Settings sections and the 
Smokefree Workplaces and Public Places lists for more information.)
                              restaurants
Why
    Smokefree restaurants benefit restaurant owners, customers, 
employees, and the children of America.
            Keeping Up with the Competition
    Thousands of individually owned restaurants throughout the United 
States have instituted smokefree policies. Smokefree dining directories 
list 500 smokefree individual restaurants in New Jersey, 300 smokefree 
individual and chain restaurants in northern Virginia, 1,500 individual 
and chain in Michigan, 700 in Wisconsin, 750 in Minnesota, 1,600 
individual and chain in Colorado, and 1,600 in Washington. A national 
directory of smokefree restaurants and restaurants with nonsmoking 
sections is available on the Internet (http://www.smokescreen.org).
    Tens of thousands of restaurants in large or national chains are 
smokefree, according to the Council of Chain Restaurants. The following 
chains are smokefree in all restaurants: Au Bon Pain, Bertucci's Brick 
Oven Pizza, Boston Market, California Pizza Kitchen, Chuck-ECheese, 
Dunkin' Donuts, Starbucks, and Taco Bell. The following chains are 
smokefree in corporate-owned restaurants and recommend smokefree 
policies for franchised restaurants: Arby's, Burger King, Dairy Queen, 
Jack in the Box, Kenny Roger's Roasters, McDonald's, Showbiz Pizza, and 
TCBY.
    The Dunkin' Donuts policy, mandatory for all 3,000 company operated 
and franchised stores in the United States, plus company-operated 
stores outside the country, was unanimously approved by the franchisee-
elected leadership in January 1995. The chain, largest of its kind in 
the world, implemented the policy June 1, 1995. McDonald's is the 
nation's largest fast-food chain, with more than 12,000 restaurants. 
Company owned restaurants constitute about 15 percent of its 
restaurants; many franchisees also have adopted smokefree policies.
            Smokefree Dining Is Popular
    Three out of four people would actively seek out and patronize 
smokefree restaurants, reported Bob Harrington of the National 
Restaurant Association (at the December 1993 National Environmental 
Tobacco Smoke conference, Washington, DC.). Other organizations that 
monitor restaurant patrons find similar results.
    The Zagat Survey (which publishes bestselling guides to 
restaurants, hotels, and resorts around the country, based on polls of 
regular restaurant goers and frequent travelers) reports that an 
overwhelming majority of customers believe smoking in restaurants 
should be totally banned.
    In polls of 18,223 regular restaurant patrons and frequent 
travelers, conducted in the summer of 1994, people were asked, ``Should 
all smoking be banned in restaurants?'' In New York, nearly 70 percent 
said yes; in San Francisco, 79 percent said yes; and in Los Angeles, 81 
percent said yes.
    When San Diego was considering a smokefree restaurant ordinance, it 
undertook a study of the effect of the proposed ordinance on its 
convention business. A survey of 40 groups that came to San Diego for 
conventions in 1991-92 found that 38 of the 40, representing almost 
170,000 convention attendees, would schedule future conventions in San 
Diego if the city adopted the ordinance. (One group said they wouldn't 
return: the tobacco and candy industry group.)
    Prior to the passage of the smokefree ordinance in New York City 
(January 1995), a Gallup poll found that 63 percent of those polled 
would support a law eliminating smoke from restaurants, public places, 
and workplaces. The same poll found that if restaurants were smokefree, 
87 percent of those polled would eat in restaurants more often or as 
frequently and 75 percent of those polled said that they eat out once a 
month to once a week or more. While 12 percent of the people who were 
polled said they never eat out, 20 percent of that group said they 
would start eating out if restaurants were smokefree.
    (Please see the Public Opinion section for more information on 
polls, which show support from 70 to 98 percent for smokefree 
restaurants.)
            Laughing All the Way to the Bank
    With this level of public support, smokefree restaurants certainly 
needn't worry about loss of business. As thousands of proprietors have 
discovered, smokefree dining is good for business. ``Laughing all the 
way to the bank'' is how one New Jersey restaurateur described his 
experience with smokefree dining. He's in good company; New Jersey 
restaurants are becoming smokefree at the rate of two a week. 
Scientific evaluations have verified the business benefits, too:
    In Marin, San Mateo, Ventura, and Alameda counties in California, 
90 to 95 percent of all restaurants that had voluntarily gone smokefree 
``said that their business either improved or didn't change,'' 
according to a study by the California Health Department. The study 
tracked restaurant sales from 1991 to 1993 in a cross section of socio-
economic areas in 36 cities. No restaurant in the study ever went back 
to allowing smoking after voluntarily going smokefree.
    An earlier study predicted that result. In 1992, the University of 
California conducted a random-sample survey of 11,905 State residents 
regarding their smoking behaviors and attitudes. Its conclusion was 
that ``There should be a net gain in restaurant business if smoking is 
banned.'' It went on to say, ``Our results suggest that smokefree 
restaurants will represent a major business opportunity causing little 
or no inconvenience to 98 percent of current customers.''
    Restaurants required by law to be smokefree don't lose sales. A 
study of every community throughout the country with legislation 
requiring smokefree restaurants, comparing results with an equal number 
of similar communities without legislation, concluded that ``smokefree 
restaurant ordinances do not adversely affect restaurant sales.'' 
(American Journal of Public Health, July 1994). These results were 
consistent for all geographical areas, and whether the communities were 
urban or rural, large.or small, wealthy or not. Some of the communities 
studied were in large metropolitan areas like Los Angeles, where 
patrons could easily go to other restaurants in neighboring areas which 
did not require smokefree restaurants.
    Other studies replicated those findings:
    <bullet> Claremont Graduate School compared 19 California cities 
with smokefree restaurant ordinances to 87 cities with no ordinances 
and found that regulated restaurants did not lose business, and 
restaurants in surrounding cities did not gain business.
    <bullet> The Texas Department of Health examined the economic 
effect of a smokefree ordinance on the seven restaurants in West Lake 
Hills in 1992 and 1993. Results showed a slight increase in revenue.
    <bullet> In Aspen, where smokefree restaurants have been required 
by law since the mid-1980's, total retail sales, including restaurant 
sales, increased after the city's smokefree ordinance went into effect, 
according to studies published by the Aspen Resort Association.
    <bullet> Flagstaff, Arizona's smokefree restaurant ordinance had no 
negative impact on sales as measured by sales tax data, and, 15 months 
after the ordinance became effective, 94 percent of restaurant owners 
reported the ordinance was ``easy'' or ``very easy'' to enforce. (John 
Sciacca et al., ``Prohibiting Smoking In Restaurants: Effects on 
Restaurant Sales'')
    <bullet> Researchers at Cornell University found that smokefree 
restaurants attract more business. Their study, ``Should New York City 
Restaurateurs Lighten Up?'', investigated the impact of the New York 
City ordinance requiring smokefree dining areas in restaurants. They 
found that nonsmokers increased their dining in restaurants because of 
the smokefree law and more than made up for any business lost among 
smokers, since nonsmokers account for almost 2.5 times more overall 
revenue than smokers.
    <bullet> Researchers at Boston University, studying the restaurant 
smoking ban in Brookline, Massachusetts, reported in November 1995 that 
the new law had not hurt business, even in restaurants that serve 
alcoholic beverages. The study, for the Massachusetts Department of 
Health, showed Brookline's restaurant income rose while other 
Massachusetts towns lost business, prompting the Boston Globe to 
suggest that Brookline's restaurants ``. . . may have gotten a boost 
from out-of-town diners dropping in to savor not just food, but 
smokefree air, too.'' (Note: The tobacco industry has circulated 
misinformation about smokefree restaurants and patronage. Please see 
The Tobacco Industry section for more information.)
            Cutting the Costs of Doing Business
    Maintenance costs and business losses are reduced in smokefree 
restaurants. Furnishings last longer because there are no more 
cigarette and cigar burns in tablecloths, tables, or carpets. Ceilings 
and walls are not yellowed by tobacco smoke; repainting is needed less 
frequently. Ashtrays never have to be bought or cleaned. Draperies, 
carpets, and air conditioning or heating filters require less frequent 
cleaning. There is less employee sick leave caused by secondhand smoke.
    With only one section, reservations and seating are simplified. 
Tables in the smoking section aren't empty while patrons wait for 
tables in the nonsmoking section. Tables turn over faster because 
patrons don't linger, smoking cigarettes. Totally smokefree restaurants 
eliminate disputes among customers about smoking.
    Some smokefree restaurants have negotiated lower fire insurance 
rates from their insurance companies. The National Fire Protection 
Association reports that smoking caused between 4 and 5 percent of all 
fires in restaurants from 1986 to 1993. Sometimes those statistics 
strike home. Michael and Marybeth Peters created the Brass Rail, a 
French restaurant that was a leader in the restaurant renaissance in 
Hoboken, New Jersey. The Peters family lived above the restaurant. One 
night a fire caused by a cigarette destroyed their restaurant and home. 
That's one reason their new restaurant and wine bar, Pierre's, in 
Harding Township, New Jersey, is smokefree.
            Smokefree Restaurants Are More Pleasant
    Secondhand smoke interferes with the taste of food and permeates 
the clothes and hair of customers. Chez Panisse, the nationally famous 
restaurant in Berkeley, eliminated smoking in its main dining room in 
1986, and in its cafe in 1990. ``Basically, we think smoking is a 
detriment. We want patrons to smell the fabulous aroma emanating from 
the food, not cigarettes,'' said Gayle Pirie, assistant to Alice 
Waters, the owner and cookbook author (New York Times, June 30, 1996). 
Restaurant proprietors who work hard to provide fine food and a 
pleasant atmosphere are recognizing they can't overlook tobacco smoke, 
which offends many customers with every breath.
            Legal Requirements
    Restaurants in at least five States (California, Maryland, Utah, 
Vermont, and Washington) and 200 communities, including New York City, 
are required to be smokefree by legislation and regulations enacted 
over the last several years. More than 100 local ordinances also 
require bars to be smokefree; some ordinances apply to bars attached to 
restaurants, some to freestanding bars. California has a State law 
requiring bars to be smokefree, effective January 1998. (Please see the 
Public Places section for more information on smokefree bars.)
    Restaurants are places of public accommodation, with 
responsibilities to meet health and safety standards. Dishwashing water 
must be heated to a specified temperature, eggs must be refrigerated, 
and employees are required to wash their hands after using the toilet. 
It follows that the air should be free of ETS, an identified and 
unnecessary toxin.
    Restaurants are workplaces. Restaurant and bar workers are exposed 
to as much as 1.6 to 6.1 times more smoke than office workers, 
according to a study in the Journal of the American Medical 
Association, July 28, 1993. Wait staff and bartenders have more lung 
cancer and heart disease than other employees because of this exposure. 
A study in Massachusetts, with data collected from 1982 to 1990, found 
lung cancer rates were 50 percent higher among restaurant workers than 
employees in other occupations (Daniel R. Brooks, M.P.H., Bureau of 
Health Statistics, Massachusetts Department of Public Health). 
Proprietors are recognizing their responsibility. As Vincent Sardi, of 
the legendary New York City restaurant said, ``Sardi's employs 
approximately 130 people. It is not fair to expose them to a smoke-
filled environment, endangering their health.''
    Smokefree restaurants protect themselves from legal liability. The 
National Restaurant Association's legal counsel has advised members 
that they can be held responsible for workers' compensation claims made 
by employees who develop lung cancer or other ailments attributed to 
secondhand smoke. In the first such case, Avtar Ubbi, a waiter, sued 
his employer for an ETS-induced heart attack and was awarded almost 
$100,000. Under the Americans with Disabilities Act, customers as well 
as employees can bring actions. People with disabilities--including 
asthma, which is widespread and increasing--who are sensitive to 
secondhand smoke, can sue because tobacco smoke limits their access.
            Smokers Accept Smokefree Policies
    Patrons who smoke know that secondhand smoke is a health hazard and 
an annoyance. They're accustomed to Smokefree policies at work, in 
transportation, in malls, and other public places. They often socialize 
and dine with nonsmokers and join their friends in Smokefree areas. 
Some smokers--29 percent according to a 1987 Gallup Poll--prefer 
Smokefree seating in restaurants. Smokers eat in restaurants less 
frequently than nonsmokers. (This may be a reflection of smokers' lower 
average economic status. Smoking is continually decreasing; fewer than 
one-fourth of Americans now smoke. Proprietors realize that it doesn't 
make sense to cater to a dwindling minority, especially one with less 
income and lower patronage, when few of them insist on smoking-
permitted dining.)
            For the Youngest Customers
    Restaurants are the most frequented public places in America. The 
average American visits a restaurant 3.5 times a week--every other day. 
Many of these patrons are young visitors, who are especially sensitive 
to ETS. Smokefree restaurants protect their health.
    Youngsters learn many important lessons by example. Smokefree 
restaurants can be powerful reinforcers for the Smokefree messages they 
hear in school.
How
    Smokefree policies offer positive publicity for restaurants, 
especially for the first Smokefree restaurants in an area. Decision 
makers who act, before laws or regulations require restaurants to be 
smokefree, gain a marketing advantage and can attract new customers by 
emphasizing smokefree dining in advertising. There are smokefree dining 
directories in a number of States. To be listed in them and on the 
Internet, without charge, call Smokescreen Consulting in Washington, 
DC. at 202 NO SMOKE (or visit http://www.smokescreen.org) .
    Patrons making reservations can be reminded that a smokefree 
environment is provided to enhance their dining experience and to 
protect the health of all, including employees. Receptacles for 
cigarette butts can be tactfully placed near the entrance of the 
restaurant, and if desired, an outdoor smoking area can be designated.
                               landlords
Why
    Landlords and condominium associations have a responsibility to 
provide safe and healthful facilities and to ensure cooperation with 
standards to protect occupants. They also have authority to set 
standards for how their buildings are to be used. (Please see the 
Public Places and Outdoors sections for more information on smokefree 
policies set by building owners for office and shopping malls, and for 
smokefree policies in the hospitality industry.)
            Legislation, Regulation
    Throughout the Nation, many laws and regulations establish 
standards to protect the environment, standards which can be applied to 
dwellings. In addition, States and municipalities have enacted building 
codes to provide for the health and safety of building occupants. For 
instance, the California Health and Safety Code says, ``No person shall 
discharge from any source whatsoever such quantity of air contaminants 
or other material which cause injury, detriment, nuisance . . . or 
which endanger the comfort, repose, health or safety of any persons or 
the public.'' Many California jurisdictions have adopted Section 
1206(c) of the State Mechanical Code which requires that ``return air 
from one dwelling unit shall not be discharged into another dwelling 
unit through the cooling system.''
    New Jersey's regulations for maintenance of hotels and multiple 
dwellings (NJAC 5:10-6.2 mandate premises ``free of hazards to the 
health or safety of occupants and other persons in or near the 
premises'' and require owners to eliminate or abate odors ``arising out 
of the use or occupancy of the premises which shall constitute a 
nuisance that is harmful or potentially harmful to the health and well-
being of persons of ordinary sensitivity occupying or using the 
premises.'' As scientific evidence about the harmful effects of ETS 
accumulates, State and local regulations and laws like these are being 
interpreted to include protection from ETS.
    Some jurisdictions have passed legislation specifically addressing 
tobacco smoke in multiple-occupancy dwellings. For example, the city of 
Long Beach, California, requires that enclosed public areas of 
apartment buildings be smokefree.
    The Americans with Disabilities Act, Federal legislation protecting 
persons with disabilities from discrimination in workplaces and public 
places, can be used by people with asthma and other smokesensitive 
tenants and members of the public to require landlords to make 
publicaccess areas of their building smokefree. The Federal Fair 
Housing Act of 1988 also gives tenants with disabilities an avenue of 
relief.
    In 1994, a tenant with asthma, in a privately owned mobile home 
park in San Leandro, California was able to require management to 
prohibit smoking in all areas of the clubhouse in the complex, which 
was shared by the residents of more than 350 mobile homes. In the 
agreement, which was reached after the tenant asked the Department of 
Housing and Urban Development to file a Federal discrimination lawsuit 
on her behalf, the park owners also agreed to enforce the policy, to 
post signs and notices of the policy, to inform park residents about 
the policy in writing, to reissue the park's residency guidelines to 
include the new policy, and to arrange for park management to inspect 
the clubhouse during the evening, when regular staff was not on duty.
    Health officers can intervene to protect occupants from health 
hazards and nuisances created by neighbors and landlords, including 
ragweed growing on nearby land or disagreeable odors from garbage. As 
the Chief of the California Division of Occupational Safety and Health, 
John Howard, pointed out when testifying for smokefree legislation, ``. 
. . tobacco smoke travels from its point of generation in a building to 
all other areas of the building. It has been shown to move through 
light fixtures, through ceiling crawl spaces, and into and out of 
doorways.'' Some health officers are now acting to control tobacco 
smoke generated by neighbors. The New Jersey Commission on Smoking OR 
Health has recommended that the State Department of Health promulgate 
standards for the maximum amount of tobacco smoke pollution allowed to 
enter one dwelling from another. As complaints increase, there will be 
more attention to this problem.
            Litigation
    A body of case law is emerging that holds landlords responsible for 
exposing tenants to ETS. Tenants have sued on the basis of nuisance, 
breach of statutory duty to keep the premises habitable, breach of the 
common law covenant of peaceful enjoyment, negligence, harassment, 
battery, and intentional infliction of emotional distress.
    In one of the first cases, in 1991, a Massachusetts woman sued her 
landlord because she was constantly exposed to the secondhand smoke of 
another tenant. She suffered asthma attacks, labored breathing, 
wheezing, prolonged coughing, clogged sinuses, and frequent vomiting. 
That case was settled for an undisclosed amount of money in 1992 
(Donath v. Dadah).
    A year later, a landlord in Oregon was sued by a tenant who was 
affected by cigarette smoke from another tenant who lived directly 
below. The tenant alleged that the landlord had breached his statutory 
duty to keep the premises habitable and the covenant of peaceful 
enjoyment which the common law implies in every rental agreement. A 
six-person jury unanimously found a breach of habitability, reduced the 
tenant's rent by 50 percent, and awarded her payment to cover her 
doctor's bills (Fox Point Apts. v. Kippes).
    The Pentony case in New Jersey, in which a couple sued because of 
smoke entering their condo unit, was the subject of three stories in 
the New York Times, numerous other reports around the Nation, and a 
story in the National Law Journal in 1994. A judge ordered the 
apartment complex directors to resolve the problem (the terms of the 
settlement are confidential) .
    In 1996, Roy Platt sued his downstairs neighbor and his condo 
association because of cigarette smoke that entered his open windows 
from the unit below. In that case, filed in the Los Angeles Superior 
Court in June, Platt contended that he was not overly sensitive to 
smoke, but that the amount of smoke wafting into his home had, at 
times, made him sick to the point of vomiting. ``I have friends who 
smoke and they find it difficult to be here,'' he said. (Los Angeles 
Daily Journal, June 28, 1996, and Los Angeles Times, July 5, 1996)
    Injunctive relief from ETS may be available to tenants for only the 
cost of their time, energy, and several hundred dollars. In April 1996, 
the Superior Court in Long Beach, California issued a threeyear 
restraining order to prohibit smoking by a condo owner in his garage 
(which he also used as an office1. The ban was sought by other condo 
owners, Richard and Marcia-Luna Layon, because smoke was entering their 
unit from the garage. (Layon et. al. vs. Jolley et. al.) The Layons 
brought the action themselves, without an attorney.
    Legal redress was obtained by another person lacking counsel. In 
1994, a Massachusetts woman suffering from pulmonary fibrosis won a 
temporary injunction preventing her landlord from renting the units 
below her to smokers (Snow v. Gilbert).
    (In a related development, there are now a number of cases in which 
people have been ordered not to smoke in their homes around children. 
Courts in at least 16 States have rendered those decisions in response 
to the urging of child welfare agencies seeking to protect smoke-
sensitive children and the request of parents in child custody cases.)
Benefits of a Smokefree Policy
    Other reasons why landlords create smokefree policies:
    <bullet> Most tenants don't smoke and they appreciate a smokefree 
policy.
    <bullet> A landlord-mandated policy relieves tenants from the 
burden of trying to persuade others not to pollute the common 
environment.
    <bullet> Some landlords live in their rental complexes, especially 
in duplexes and other relatively small buildings, and want to protect 
themselves from ETS.
    <bullet> Maintenance costs and litter are reduced. The offensive 
odor of secondhand smoke, which can linger in spite of cleaning and 
painting, is eliminated.
    <bullet> Fire danger is lessened.
    <bullet> Property insurance costs can be reduced.
    <bullet> Landlords are experienced property owners. They notice 
there is less property damage and there seem to be fewer problems, like 
fights, in smokefree buildings. (This may be a reflection of the fact 
that almost all alcoholics and illegal drug users are smokers and a 
smokefree policy tends to sift out these people whose personal problems 
often spill over onto others.)
            Landlords Are Free to Choose
    Landlords are free to refuse to allow smoking, just as they are 
free to refuse to rent to people with pets. It's a matter of 
preservation of property.
    The law is clear that there is no legal or constitutional right to 
smoke, even in one's dwelling, according to John Banzhaf, professor of 
law at George Washington University and director of Action on Smoking 
and Health. Frank J. Kelley, the Lansing, Michigan Attorney General has 
said that landlords may refuse to rent to smokers and they may restrict 
smokers to certain buildings within their complexes without violating 
Federal and State antidiscrimination laws (Detroit News, May 5, 1992). 
Interviewed in the same report, even the tobacco industry agreed. Tom 
Lauria, a spokesman for the Tobacco Institute, acknowledged that 
private business owners have the right to determine what is best for 
their property.
    Landlords are taking action. In Spokane, Washington, Don Wallace, 
who owns a number of residential units, has enforced a smokefree rule 
for 20 years. The newly launched Smokefree Apartment House Registry 
lists owners of multiple-unit residential housing in southern 
California with smokefree policies. Information about the registry is 
available from S.A.F.E. (Smokefree Air for Everyone), Newbury Park, 
California, phone: 805 499-8921.
    One of the owners listed in the registry, Shirley Weber of South 
Pasadena, owns 20 units which have been smokefree since 1980. She 
initiated the policy after several years of renting during which she 
had problems with smoking, including burned carpets. But she was 
worried about more than minor damage. She says, ``The reason that I 
have kept my buildings smokefree is that smoking is a major cause of 
fire fatalities.''
    Condominium associations can set similar policies and can use 
standard clauses already existing in condo contracts to control ETS 
problems. Public building owners can act, too. In Fort Pierce, Florida, 
the housing authority voted unanimously to prevent new tenants from 
smoking in the community's 850 units. When they sign their lease, the 
new tenants must also sign an affidavit pledging not to smoke in their 
apartments (New York Times, May 5, 1996).
How
    Communicating the policy is crucial in enforcing a smokefree policy 
by building owners or condominium associations. Signs should be posted 
on entrances, in lobbies, in elevators, and on each floor. Cigarette 
receptacles should be removed. If smoking is to be allowed outdoors, an 
area should be designated, away from entrances, windows, and air-intake 
vents.
    All new contracts should include information on the policy, and old 
contracts should be renegotiated to include the new rules. The contract 
or lease should specify that the property is ``to be occupied as a 
smokefree residence.'' It should say that the tenant will ``prohibit 
smoking by his/her household members or guests while on the premises,'' 
that ``it is the tenant's responsibility to inform his/her guests of 
the smokefree portion of this contract/lease,'' and that ``the tenant 
agrees to vacate the premises within 3 months if the agreement to be 
smokefree is violated.''
    Lower insurance rates can be negotiated for fire, property, or 
homeowner's packages. Reduced fees may be negotiated with maintenance 
contractors. Advertisements should say the buildings land premises1 are 
smokefree, not that only . nonsmokers may rent/buy condos.
    Recognize, as owner Shirley Weber says, ``It is true that the more 
particular you are about your prospective tenants, the longer it may 
take to rent a unit,'' but she says, ``I feel very good about keeping 
my buildings smokefree.''
                      addiction treatment programs
Why
    In response to external and internal pressures, the addiction 
treatment community is beginning to eliminate ETS in treatment and 
prevention programs. In 1992, the Joint Commission on Accreditation of 
Healthcare Organizations issued regulations requiring accredited 
institutions to severely limit smoking. In 1995, the New Jersey State 
Department of Health announced a requirement that all State-funded 
addiction treatment programs deliver their services in smokefree 
environments. Requirements like these foster and reflect reexamination 
of tobacco within the treatment community. That reexamination goes 
beyond ETS issues and looks at other nicotine addiction issues.
    Signs of that rethinking: Several years ago, the Smokefree 
Coalition 2000 in Minnesota helped programs to develop smokefree 
policies and urged them to offer nicotine cessation. In Chicago, a 
number of programs are working together to address nicotine issues. In 
California, health officials have offered workshops about nicotine 
issues for addiction treatment programs. In New Jersey, the New Jersey 
Department of Health and Senior Services and the Robert Wood Johnson 
Foundation are funding a consultation program, Addressing Tobacco in 
the Treatment and Prevention of Other Addictions. In Massachusetts, 
since July 1, 1996, all State-funded substance abuse programs must have 
tobacco-free indoor facilities except that acute care facilities may 
allow clients to smoke in separately ventilated, separately enclosed 
rooms.
    Frederick County, Maryland no longer allows addiction counselors to 
smoke on their breaks. Peter Charuhas, director of substance abuse 
services for the county, has said that staff shouldn't exhibit their 
own nicotine dependence at work. Charuhas had previously defended staff 
smoking ``privileges'' but changed his mind after the cancer death of a 
staff member (Washington Post, July 19, 1996).
    As these examples illustrate, for alcohol and drug treatment 
programs the issue goes beyond protecting patients, families, and staff 
from ETS. Addressing nicotine dependence of staff and patients is also 
necessary. They cite many reasons:
    First, while smokefree programs protect everyone, smokers as well 
as nonsmokers, from ETS, smokefree policies also help former smokers 
remain nonsmokers and avoid encouraging the initiation of smoking by 
people who have never smoked. (Sadly, treatment centers sometimes send 
patients home abstinent and clean but with a new addiction, tobacco.) 
Many programs have adolescent patients and smokefree facilities support 
compliance with laws against furnishing tobacco to minors and use of 
tobacco by minors.
    Creating a smokefree environment is part of establishing an 
environment which fosters consistency in the treatment of all 
addictions. Not addressing nicotine dependence gives a false message 
that tobacco is not a ``real drug'' when tobacco has been recognized as 
a mood-altering, highly addictive, psychoactive substance since 1980. 
Treatment programs also need to offer nicotine cessation for patients 
in order to fulfill their ethical and clinical responsibility to give 
patients help to recover from all their addictions. Additionally, 
smoking can be a ``holdout'' drug and a cue for other drug use.
    Patients in addiction treatment programs have extraordinarily high 
rates of nicotine use. More than 80 percent smoke, three times as many 
as in the general population. (Staff smoking prevalence may be as high 
as 60 percent.) This health problem needs treatment, as would any other 
pre-existing health problem. These patients tend to smoke more heavily 
than other smokers, so they have greater-than-average health risks from 
their smoking. But, like most smokers elsewhere, patients want help to 
end their nicotine addiction. Treatment facilities that become 
smokefree find that the desire of patients for nicotine withdrawal 
assistance increases.
    Finally, programs that save people from other drugs don't want to 
lose them to tobacco-induced diseases. Yet a 10-year study at the Mayo 
Clinic Addiction Program found that alcoholics who smoke are more 
likely to be killed by their smoking than by their drinking. Among 
patients who had died, 50.9 percent died of tobacco-related causes 
while alcohol-related causes accounted for 34.1 percent of deaths.
    One well known recovering alcoholic who died of emphysema, a result 
of his heavy smoking, was Bill W., the cofounder of Alcoholics 
Anonymous.
How
    Addiction treatment programs need longer time for transition than 
other organizations, for a variety of reasons. One is that staff must 
be nicotine-free or at least free of evidence of nicotine dependence 
while on the job. Nicotine-dependent staff may be resistant to 
smokefree facilities. Allowing staff to smoke, even outdoors, 
compromises the nicotine-free message. And it poses other problems: As 
one New Jersey program director said, ``Every time I want to find my 
staff, I have to look outside!''
    Programs need to work with referral agencies in the community, to 
inform them of the smokefree policy and nicotine addiction treatment 
services. If all programs in one area work together, there will be no 
competitive advantage or disadvantage.
    For a more complete discussion, please see ``Following the 
Pioneers'' in the Journal of Substance Abuse Treatment, Vol. 10 pp. 
153-160, 1993. Much of the information presented here was taken from 
that report.
                            outdoor settings
Why
    As more attention is focused on tobacco problems, smoking outdoors 
is being re-examined. With the proliferation of smokefree air policies 
and laws indoors, smokers often congregate outdoors, especially at 
building entrances, where the smoke and the litter become problems. ETS 
can be a health hazard outdoors, especially for a child with asthma or 
a person with emphysema sitting among smokers in a ballpark with 70,000 
fans in assigned seats. Secondhand smoke can be offensive outdoors.
    Some organizations have made their grounds smokefree because they 
didn't want people to have to walk through a cloud of smoke to enter 
their buildings. Also, smoke outdoors sometimes becomes smoke indoors, 
entering buildings through entrances, windows, or air-intake vents. 
Smoking outdoors poses a fire threat. It can be a burn hazard, 
especially on beaches, at swimming pools, and in crowded places.
    Cigarette butts, packages, and other tobacco-use debris are a 
source of litter, particularly in outdoor smoking areas or near 
entrances. The Center for Marine Conservation found cigarette butts to 
be the largest single source of beach trash, representing 17 percent of 
all trash, in its 1995 study in 33 States. Cigarette butts are 
routinely tossed on the ground almost everywhere outdoors; ashtrays are 
emptied in parking areas or dumped out the windows of moving cars.
    Eliminating smoking outdoors helps educate children, by providing 
examples of more smokefree places. Smokefree outdoor places encourage 
health for all, instead of enabling addiction. Alcohol use is forbidden 
in many public places outdoors, at playgrounds, outdoor family 
concerts, and other events. People are required to clean up after their 
dogs outdoors. Now smoking prohibitions are joining those rules.
    Many professional and amateur sports stadiums are smokefree, 
including almost all of the 28 major league baseball stadiums. Aloha 
Stadium, site of the University of Hawaii football games, the NFL Pro 
Bowl, Hawaii's professional soccer team, and numerous other events, is 
smokefree in its 50,000 seats. Skylands Park, the 4,000-seat stadium 
that is home to New Jersey's minor league baseball Cardinals, made its 
seating smokefree because smokers were leaving hundreds of cigarette 
butts all over the place, according to Robert Hilliard, president of 
the Skylands Park management (New Jersey Herald, August 3, 1995). He 
added, ``This is a family place. The kids don't need to be around it.''
    Hyland Hills Ski Area of Bloomington, Minnesota is preparing to 
eliminate smoking outdoors. Mike Draeger, the manager, told the New 
York Times (January 25, 1996), ``The whole reason for teaching kids 
about skiing is about the benefits of being outdoors. But right now, 
people are walking outdoors, and the deck is a cloud of smoke.'' Team 
Gilboa, a group of 300 5-19 year olds, uses Hyland Hills as its winter 
training site. Its summer training site is Timberline Lodge Ski Area in 
Oregon, which has already banned smoking in its lift areas. 
Timberline's director of skiing operations, Steve Kruse, reports that 
``complaints about smoking greatly out-weighed any complaint about no 
smoking.'' Both resorts were also concerned about cigarette butts ``all 
over the place.''
    The Pine Valley Golf Club, which has been ranked as the No. 1 golf 
course in the world by Golf magazine, banned smoking on the course. 
``We started posting `No Smoking' on the board when the weather 
conditions became so dry that we were afraid of fire,'' said club 
manager Charles Raudenbush. Then the club noticed how much cleaner the 
course was (cigarette filters are not biodegradable) and that costs for 
picking up cigarette litter were reduced. So the policy became 
permanent at the New Jersey club where former Presidents Eisenhower and 
Ford plus other well known golfers, including Bob Hope, have played. 
The club's restaurant is also smokefree.
    Sharon, Massachusetts has banned smoking at ballfields, parks, and 
public beaches. Honolulu City Council banned smoking on Hanauma Bay 
beach, Honolulu loo, and the Koko Crater Botanical Garden. Clayton, 
California bans smoking in parks and outdoor sports facilities, except 
golf courses. Bellaire, Texas, a suburb of Houston, is trying to live 
up to its name; it has banned smoking anywhere in the city's public 
park system. In New Jersey, Mt. Olive bans smoking in recreation areas; 
Clinton Township, Belleville, and Cedar Grove ban smoking in 
playgrounds; Sussex County bans smoking near government building 
entrances.
    Davis and Palo Alto, California, forbid smoking within 20 feet of 
entrances of buildings open to the public and at public service areas 
like bus stops. New York City bans smoking outdoors at schools and 
children's institutions, open air theaters, seating and standing areas 
at commercial outdoor sports and recreational areas including 
racetracks, and outdoor waiting areas and service lines.
    Two counties in tobacco-growing Maryland were considering banning 
smoking and chewing of tobacco in all publicly owned areas, according 
to a May 5, 1996 New York Times report. At least nine States require 
all public schools to be smokefree, indoors and outdoors. The Texas 
Board of Criminal Justice authorized a complete ban on tobacco use both 
indoors and outdoors, effective March 1995, for 100,000 inmates and 
50,000 employees.
    The Mayo Clinic does not allow smoking anywhere on its property, 
nor does Alina Lodge, a drug treatment program in New Jersey. Overlook 
Hospital, Summit, New Jersey, has a smokefree perimeter surrounding the 
hospital. Schering-Plough pharmaceutical company in Kenilworth, New 
Jersey, has made its grounds, including the parking lot, smokefree.
    (Please see the Public Places section and the Smokefree Workplaces 
and Public Places lists for more information.)
How
    Outdoor smokefree policies are the newest development in smokefree 
policies and, probably, the most likely to generate controversy, or at 
least surprise. When the Friendship Heights, Maryland Village Council 
passed its outdoor smoking ban in the autumn of 1996, the law had to be 
approved by the Montgomery County Council (because the Village is 
unincorporated). At press time, the Village Council did not have enough 
votes on the County Council to uphold the law. Council Member Patricia 
Forkan responded to critics who said they may have gone too far by 
saying, ``It was probably equally strange when somebody suggested seat 
belts.'' (Washington Post, October 16, 1996)
    Extra preparation and public information may be needed for outdoor 
smokefree policies. An abundance of signs is appropriate, both because 
the policy is innovative and the area to be covered by the policy may 
be large. Nonsmokers are more willing to speak up and inform violators 
when smokefree policies are well posted, according to several studies.
    Neighbors need to be taken into consideration. Some schools that 
have made their grounds smokefree have found that neighbors become 
burdened by illicit smoking and cigarette debris.
    Talk to other organizations like yours that have created smokefree 
outdoor policies (some are listed in the Appendices) for their 
suggestions and support.
    Remember, as Council Member Forkan said, seat belts were considered 
strange at first. So were indoor smokefree policies. Outdoor smokefree 
policies and laws are working fine in many places.
  

                                <greek-d>
</pre></body></html>
